                                                 OFFICE OF INSPECTOR GENERAL
                                        SEMIANNUAL REPORT TO CONGRESS
                                                        OCTOBER 1. 2006 ~ M A R C H 3 1 , 2007




w
PROMOTING irfTtGRmr AND ACCOUHTABIUTY




f
A MESSAGE FROM THE INSPECTOR GENERAL

This report, submitted pursuant to the        In addition, we closed 3,820 cases and
Inspector General Act, outlines our work      managanent took administrative action
and activities for the 6-month period         on 1,776 cases. Our investigations led to
ending March 31, 2007. It focuses on the      412 arrests and indictments, and retumed
four strategic goals outlined in the Postal   more than $22 million in fines, restitutions,
Service's Strategic Transformation Plan       and recoveries to the Postal Service.
2006-2010: Improve Service, Generate
Revenue, Reduce Costs, and Achieve            I look fOHArard to working with the
Results with a Customer-Focused Per-          Governors, Congress, and Postal Service
formance-Based Culture. We discuss            management as we continue to address
the state of the Postal Service through       the challenges ahead.
our eyes and explain how our work adds
value. Finally, we have a separate ciiapter
that discusses preserving integrity.

In this period, we issued 201 audit reports
and management advisories. These                }yO/JtO C V J MjLa^yAy:^
efforts resulted in a total monetary impact
of $441,189,917. We had 58 significant
audit recommendations, afl of which were
accepted by the Postal Service,




                                                                                              Odoben,2006 —Ma[Ch31,2007   11
    MISSION STATEMENT


    T    he mission ofthe U.S. Postal
         Service Office of Inspector General
    is to conduct and supervise objective
    and independent audits, reviews, and
    investigations relating to Postal Service
    programs and operations to:
    • Prevent and detect fraud, theft, and


r     misconduct;
    • Promote economy, efficiency, and
      effectiveness;
    • Promote program integrity; and
    • Keep the Governors, Congress, and
      Postal Service management informed
      of problems, deficiencies, and
      corresponding corrective actions.
                                  SUMMARY OF PERFORMANCE
                                                                                                                                   October 1, 2006 -                      March 31, 2007

                                  Audit
                                  Reports Issued                                                                                                                                     201
                                  Significant recommendations issued                                                                                                                  58
                                  Total reports with financial impact                                                                                                                 83
                                     Funds put to better use                                                                                                                $132,938,118
                                     Questioned costs'                                                                                                                     $305,085,052
                                     Revenue Impact                                                                                                                           $3,198,426
                                  Total^        _                                                                                                                          $441,221,596

                              Investigations-^
                              Investigations completed                                                                                                                              3,820
                              Arrests                                                                                                                                                 277
                              Indictments/Informations                                                                                                                                 t35
                              Convictions/pretrial diversions"                                                                                                                         141
                              Administrative actions                                                                                                                                 1,776
                              Cost avoidance                                                                                                                                 $79,336,879
                              Total fines, restitutions, and recoveries                                                                                                      $128,149,410
                                  Amount to Postal Service^                                                                                                                   $22,191,944

                              Hotline Contacts
                              Telephone calls                                                                                                                                            29,481
                              e-Mail                                                                                                                                                      9,805
                              Virtual Front Office calls                                                                                                                                  2,469
                              Mall                                                                                                                                                        1,226
                              Voice mall messages                                                                                                                                           598
                              Facsimile- FAX                                                                                                                                                317
                              Total Contacts                                                                                                                                             41,427




                                  1 M a i k s unsnJDoited cosIS ol S24.I92,S91.
                                  2 TTie PoBlat Seivice agreed ID renomnennaitoiis or Cropo^d altematlv: wrrecllVeaGKins ttiat. trtniplMBtile'd, could resun bi nliirolltBiit441 rHlHlon mtol'igs.
                                  3 StaliSlics inoliide lont inveslitiaiioris wiih oiner law ailorceirierir acieiKies.
                                  4 CorivlcllarB raponed in Oils r#rW m i ba lElaled la arresls madejn prior r^lorllngpaiidii?.
                              5 'AniGuaLlndLii1a].lnffrite,ra9litLiUQri£, and'r^




I Semiannual Report to Congress
TABLE OF CONTENTS

Assessing Strategic Transformation Progress                                1
     Reduce costs                                                          1
     Generate revenue                                                      9
    Achieve results with a customer-focused, performance-based culture    11
    Improve service                                                       13
Preserving Integrity                                                      17
     Audit activities                                                     17
     Investigative activities                                             24
Map of Office Locations                                                   39
Appendices                                                                41
     Appendix A - Reports with quantrfiable potential monetary benefits   41
                      Report listing                                      45
     Appendix B - Findings of questioned costs                            50
     Appendix C - Recommendations that funds be put to better use         52
     Appendix D - Reported non-monetary benefits                          53
     Appendix E - Reports with significant recommendations pending

                      corrective actions                                  54
     Appendix F - Significant management decisions in audit resolution    57
     Appendix G - Investigative statistics                                57
     Appendix H - Summary of Postal Service investigative activities

                      under title 39 USC §3013                            58
     Appendix I - Closed Congressional and Board of Governors inquiries   59
Supplemental Information                                                  62
    Freedom of Information Act                                            62
    Workplace environment                                                 63
    Glossary                                                              64




                                                                               October 1,2006 — March 31, Z007
                                    ASSESSING STRATEGIC TRANSFORMATION PROGRESS

                                    In this report we assess the siatus of the Postal Service's progress toward the
                                    strategic goals articulated in Its Strategic Transformation Plan: 2006-2010. issued in
                                    September 2005. The Postal Service's plan describes how it Intends to improve the
                                    value of mail services and sustain a financially stable enterprise that best serves the
                                    nation's mailing needs while providing affordable and reliable service.

                                    The Postal Service's strategic goals are to reduce costs, generate revenue, achieve
                                    results vi/lth a customer-focused performance-based culture, and improve service.
                                    Each of these strategic goals presents significant challenges to the Festal Service.
MAfJAGEMENT                         This section discusses audits and reviews we completed during the reporting period in
RESPONSE TO OIG                     each of these areas, as well as in the area of preserving integiity.
WORK
We adhere In prolessional
audil standards aiKt                    REDUCE COSTS                                                    •   capturing improvements from existing
preserl our audit work lo                                                                                   equipment and technology; and
matiageirienl lor coinments         The Postal Service's strategy to reduce
piior lo issuing a litialrDporl     costs is to improve operational efficiency.                         •   targeting new Investments lo improve
Unless otheiwisn nolerl in          This strategy includes:                                                 productivity.
liie selected aurljl wot !<;
iliacussBd in iliia report,         •      expanding standardization and pro-                           The strategy emphasizes continued part-
mairageiTieiil itas agrRed                                                                              nerships with customers by developing
or partially agreed with our
                                           cess control;
                                                                                                        low-cost forms of customer access via
recommeiiria tions aiirl ia
taWng or tias already takori        •      reducing the cost of meeting universal                       technology and product simplification.
corrective aciion to aridress              service obligations by focusing on                           Additionally, the Postal Service plans to
lliB issues wGruised.                      major cost drivers, especially delivery                      examine facility capacities to transition
                                           operations and supply chain manage-                          from oveiiopping single-product networks
                                           ment;                                                        to an integrated multiproduct network.




                                        POSTAL ACCOUNTABILITY                            A number of important requirements              I Applies certain provi^ons ol Ihe Sar-
                                        A N D ENHANCEMENT ACT                            of the Act Impact the OIG. TTie Act:              banes-Onley Act to the Postal Senrice
                                                                                         • Requires tite OIG lo subml! lo Congress         and requires Ihe Poslal Service lo cor
                                        HIGHLIGHTS
                                                                                           and Ihe Postal Seivce. within 6 months          (orm with cerlaai aspecte oi Securilie:
                                        ritti I'ostil Ai.cuiiiitabillly and                                                                and Exchange Comtnission repwling.
                                        Enhancemeni Act (Atro of 2006 is Uie               ol enactmKil. a repon that details aid
                                                                                           assesses Postal Service progress In             bolh ol which will require itie OIG lo
                                        first majoi legislative ctiange to tt>e Postal                                                     conctuct siAstantlal audit work
                                        Service ance 1971, Tfie Postal S«T/tce's           improving safety, reducing workplace
                                        maridale continues to be providing reliable        injuries, and identifying opportuiilles tor
                                                                                           improvement.                                  I Requites the OIG to regularly audit llie
                                        universal setvtce at affordable prices.                                                            data cdleclior systems and procedure
                                        At liie same time, tlie Postal Service                                                             the Postal Service uses in coliecting
                                        strives to etihancB its ability lo operate       • RaqulrHs the OIG. Within 1 year ot
                                                                                           enactment, to study and submit to               information iisert lor its report to the
                                        In a businesslike manner, wtille fostering                                                         Poslal Regulatory Commtssion. In
                                        growth and Innovation in Uie mailing               the Presidenl, the Congress, and the
                                                                                           Postal Service a report concerning              Ihis reporting period, we audited the
                                        industry, lite Act directs lite Postal Service                                                     Transportation Cosi System (TRACS],
                                        to persevere with ils translor maiion efforts      how Ihe Posiai Service administers the
                                                                                           assessment ol rsvetiiia deficiencies for        a Postal Service dala collection
                                        and cost-cultlng measures.                                                                         system used lo esBniale putchaseti
                                                                                           fJOnprofil Standard Mail.




  1   I Semiannual Report to Congress
                                                                                                                                                                            X
                                                                                                                                                                            m
                                                                                                                                                                            o
                                                                                                                                                                            o
                                                                                                                                                                            m
                                                                                                                                                                            oo
                                                                                                                                                                             t/>
                                                                                                                                                                            —i
                                                                                                                                                                            </)
              The Postal Service has focused on                               the Postal Service. Examples of signifi-
              reducing its costs and has reported that                        cant work in this area Include;
              it has achieved some success. Our work
              in this area assisted the Postal Service                        • An audit of a $912 million firm-
              In identifying significant opportunities to                       fixed-price proposal for the Flats
              reduce costs by maximizing the cost-                              Sequencing System (FSS) production
              effectiveness of contracts, improving                             disclosed more than $175 million in
              transportation efficiency, optimizing the                         questioned costs. After configuration
              mail processing network, controlling facil-                       changes, the contractor submitted a
              ity and operational costs, reducing the                           revised proposal of more than
              number of administrative vehicles, and                            S921 million. Close coordination
              improving intemal controls.                                       between the team members expedited
                                                                                the audit of the revised proposal and
              Maximizing tfie Cost-Effectiveness of                             disclosed more than S9t million in
              Contracts. We issued 10 contract-related                          questioned costs for the contract-
              audit reports during the reporting period.                        ing officer's consideration in contraci
              Specifically, we evaluated seven cost                             negotiations. Before awarding the
              proposals associated with major systems,                          contract, all questioned costs were
              and we conducted audits on incurred                               evaluated during an independent
              costs, labor and overhead rates, and a                            review performed by the Postal
              termination claim. These audits identified                        Service Engineering and Supply Man-
              questioned costs of more than S276 mil-                           agement teams.
              lion. These identified costs are provided
              to the contracting officers for their consid-                   • An audit of a S120 million firm-
              eration in negotiating the best terms for                         fixed-price proposal for the Multiline
                                                                                Replacement Program — delivery bar-
                                                                                code sorters (DBCS) disclosed more




Iransportalion costs lor major classes       Additional Act provisions that could          I Establish regulations lor the safe
and siiKlasses of mall and type ol           impact our work require Ihe Postal              transponaiton ol hazardous maleriat in
service. Wij found thai overall, internal    Service to:                                     the mail,
conBols were efteclive and TRACS dala
                                             • Heview worklott^ plans lo ai:liieve
was valid and tellabte. Validity refers to                                                 I Define measures II musl lake lo
                                               modern service standards lor markat-
wlielher TfiACS data represents pur-                                                         incorporate allirmalive action and eriual
                                               dominatii products, and to assess the
chased Iransportalion cosis tor major                                                        employment cpporiunily crrteria into the
                                               impact of facilily ctianges on Ihe posiai
classes and subclasses of mail and type                                                      pertormance appraisals of senior supet-
                                               workforce.
ot service. Reliable dala is complete,                                                       visory or managerial employees.
accurate, and conslslent; meets its
                                             • Prepare comprsheiislve plans for
Intended purpose; and Is not sub|ecl to                                                     Transfer the currenl escrow and any
                                               rsemployment assistance and aarly
ir appropriale alteraiioii                                                                  (irtute surplus for civil servicB rettiement
                                               retiremeni benefils (or posiai employees
                                                                                            to ttifi Postal Service Retiree Health
                                               who are displaced as a result of natworir
                                                                                            Benefits Fund.
                                               reductions.
                                                                                            Establish a new formula for funrling
                                                                                            retiree health benefits.




                                                                                                                                           October 1,2006 — March 31,2007
                                    than $1 million in questioned costs.                       and Bundle Sorter (SPBS) machines and
                                    This was a team effort that allowed                        minimizing maintenance requirements.
                                    the auditors to evaluate portions of the                   We also reviewed whether contract activi-
                                    proposal while the contractor prepared                     ties supported program requirements
                                    them, greatly expediting negotiations.                     and were performed according to Postal
                                                                                               Service policies and procedures, and
                                • An audit of a S60 million firm-fixed-                        whether the Postal Service recovered
                                  price proposal for the Automated                             funds for contractor nonperformance.
                                  Package Processing System (APRS)
                                  Phase II disclosed more than $1 million                      At the beginning of our audit, APPS
                                  In questioned costs. The parties failed                      machines were breaking mail bundles,
                                  to reach agreements on terms and                             and management was using the SPBS
                                  conditions, and the contract was never                       to process maii it could not sort on APPS
                                  awarded.                                                     machines. In addition, .APPS machines
                                                                                               needed more maintenance than planned.
                                • An audit of an $8 million price                              By the end of our audit, test results
                                  adjustment claim for the design and                          showed that a vendor-installed retrofit
                                  installation of electrical and telecom-                      improved APPS performance, but mainte-
                                  munications equipment disclosed                              nance remained a concern. Management
                                  more than $5 million In questioned                           agreed to remove SPBS machines as
                                  costs.                                                       APPS performance warranted, and to
                                                                                               reassess its investment considering the
                                Automated P3cl(age Processing System. We
                                                                                               additional maintenance requirements.
                                assessed whether Automated Package
                                                                                               Additionally, management agreed to
                                Processing System (APPS) machines
                                                                                               ensure that equipment contracts include
                                met objectives for replacing Small Parcel




                                Plioio ot SinatI Parcel and Bundle Sorlei iSPBtiJ niacnines.




Semiannual Report to Congress
                                                                                                                              33
                                                                                                                              m
                                                                                                                              a
                                                                                                                              o
                                                                                                                              m
                                                                                                                              o
                                                                                                                              55
maintenance specifications prior to con-        ultimately In the Postal Service's best                                       c/>
tract award.                                    interest.

We found the Postal Service properly:            Improving Mail Processing Efficiency.
                                                The Postal Service and the OIG worked
• established payment withholding for           together to improve mail process-
  technical pertormance shortfalls;             ing efficiency, by recommending that
• sought appropriate recoveries for             management move the off-site Hat mail
  contractor schedule slippages;                processing operations to the Jacksonville,
                                                Florida, Processing and Distribution Cen-
• specified the conditions for full
                                                ter (PSDC). Relocating the flat operations
  acceptance;
                                                could help avoid facility and transporta-
• negotiated to recover funds for               tion costs totaling more than $3 million.
  contractor schedule slippages; and,
                                                IVIanagement of tlie Flats Recognition
• specified conditions for full acceptance      Improvement Program. We assessed the
  of APPS machines.                             Flats Recognition Improvement Pro-
 However, at the time the Postal Service        gram (FRIP) to determine whether the
 awarded the APPS production and                Postal Service met requirements in a
 deployment contract, it also awarded           timely and effective manner. To reduce
 a second contract to the same contrac-         flats processing costs, the Board of
tor, resulting in an apparent unapproved        Governors authorized capital funds to
 $12 million advance payment.                   enhance address recognition technology
 Specifically, the Postal Service awarded       used in flat mail automation equipment.
a $308,8 million contract for the design;       The Postal Service then awarded $150
 manufacture; test and acceptance;              million to a vendor to improve optical
delivery; installation; and support of the      character reader (OCR) acceptance
production level APPS. On the same day,         rates and reduce error rates for auto-
the Postal Sen^ice awarded a $12 million        mated flat sorter machines (AFSM 100)
contract to the same contractor for APPS        and upgraded flat sorter (UFSM 1000}
core recognition technology software.           machines.
Version 1.0, and nonrecurring engineer-
ing. Three days later, the contractor           The Postal Sen/ice did not deploy the
delivered the software on a CD-ROM;             FRIP program, as initially planned, but it
however, program management per-                generally met performance requirements
sonnel stated they did not test or use          in laboratory tests. FRIP upgrades to
the CD-ROlvl or know its whereabouts.           AFSM 100 operations reduced workhours
About $2 million in interest was lost on        as expected, but we did not find similar
the advanced funds.                             operational benefits from upgrades to the
                                                UFSM 1000. This could be attributed to
Management generally agreed with our            changing business needs for UFSM 1000
recommendations to improve contract             operations. As a result, we questioned
activities; however, management dis-            $21.4 million paid to a vendor for FRIP
agreed with the characterization of the         Phase 1 improvements on the UFSM
$12 million contract payment and associ-        1000, since the intended operational
ated $2 million in lost interest, stating the   value was not clearly demonstrated.
contract was part of negotiations that          We recommended that management
resulted in a price reduction that was          reevaluate the need for further FRIP
                                                enhancements, evaluate FRIP Phase 2




                                                                                             October 1,2006 — March 31,3007
                                after the first deliverable, and modify the                                     aggressive cost-savings initiatives. This
                                contract based on needs and perfor-                                             was partly due to dramatic increases in
                                mance. Management disagreed with the                                            fuel costs, which Increased 57 percent in
                                questioned program costs, but was                                               FY 2006. While most mail is time-sensi-
                                responsive to the recommendations.                                              tive, networl< officials must continually
                                                                                                                balance meeting and improving on-time
                                Optimization of ttie Transportation Network.                                    performance with lowering costs. They
                                The Postal Service has one of the largest                                       have little control over rising fuel costs.
                                transportation and logistics networks in
                                the world, reaching every city and town in                                      We work closely with management to
                                the United States, Its facilities are linked                                    improve the cost-effectiveness of air and
                                by a complex transportation system that                                         surface network operations, as well as
                                depends on the nation's air, rail, highway,                                     logistical support functions, such as fud
                                and maritime infrastructure.                                                    procurement and vehicle management.
                                                                                                                For example, during this reporting period,
                                The Postal Service spends close to                                              we monitored implementation of the
                                $8.1 billion annually to transport                                              Postal Service's Integrated Air Strategy,
                                213,1 billion pieces of mail worldwide.                                         designed to reduce reliance on pas-
                                Network transportation is the fastest                                           senger airlines, expand transportation by
                                growing cost in the Postal Service's                                            dedicated cargo carriers, and in some
                                annual operating budget, and is second                                          cases, shift mail to less costly ground
                                to human capital in the annual budget.                                          transportation. We will continue our audit
                                Network transportation costs increased                                          worl< on optimizing surface transportation
                                about 10 percent across the board in                                            operations and reducing fuel costs In
                                fiscal year (FY) 2006, even after                                               FY 2007




                                Wii i.iji k Liuitly iviLl. .iiui.ayettiant to iniptovB llie cosl edectiveress ol alt and siitlai i in;li((irlMj|A'iiiliiiiii. lis ivoll ,is ioflistical
                                sitppnrtlutit;lions, sucii as fuel ptocuremaiil antl veiiltle ntanagetneiii




Semiannual Reporf to Congress
                                                                                                                                                            c=
                                                                                                                                                            m
                                                                                                                                                            o
                                                                                                                                                            o
                                                                                                                                                            c/>
                                                                                                                                                            —J




Our audit ot Ihe Postal Sen/Ice's air nelworkopeialiODS concluded ll-.^iii'i.iii.virrit.'ii:,^..,.              . ;,i/ir|}i;:: '.i.u! (;wilcr
(AMC) opwalioiis.

During the past 6 months, our transporta-                               As part of our Value Proposition Agree-
tion audit reports identified close to                                  ment with the Postal Service Vice
$117 million in future savings.                                         President of Network Operations, we
                                                                        audited whether the Postal Sen/ice can
Enhancing Surface Transportation Network                                reduce costs by reducing the number of
Operations. The Postal Service's surface                                highway contract trips servicing Process-
transportation network consists of con-                                 ing and Distribution Centers (P&DC). In
tracted transportation, costing the Postal                              our audit of Eastern Area PSDCs, we
Service about S3 billion annually. It also                              concluded that the Postal Service could
Includes transportation using Postal                                    save approximately $2,3 million over
Sen/ice employees and vehicles (known                                   the term of existing Eastern Area P&DC
as Postal Vehicle Service [PVS]), which                                 highway contracts by canceling, not
costs about $900 million annually. The                                  renewing or modifying 78 highway trips.
transportation network is dynamic and                                   The Postal Service could eliminate these
fluid, and managers adjust to changing                                  trips without affecting on-time service by
network demands by ascertaining which                                   consolidatjng mail and equipment loads
type of surface transportation to use to                                to better utilize trailer capacity.
maximize efficiency, provide operational
flexibility, and address long-term opera-                               In addition, we audited the effective-
tional requirements.                                                    ness of PVS operations at the Memphis
                                                                        PSDC and found that management




                                                                                                                        Octoberl.2006 —Man:h31,2007   1 6
c
1
1       11
        t

    1   L
                                              could improve PVS effectiveness and             reevaluate the terms of the sale, take
                                              save more than $73 million over 10 years        steps to meet Postal Service require-
                                              by removing 18,874 excess hours from            ments when disposing of future excess

1                                             existing PVS schedules. They could
                                              eliminate hours without negatively affect-
                                              ing service because schedules contained
                                                                                              properties, take steps to mitigate the
                                                                                              apparent conflict of interest on this
                                                                                              transaction, and educate its staff on the
                                              unassigned time when drivers were not           importance of avoiding conflicts of inter-
                                              needed for a specific trip or related activ-    est with brokers and developers. The
                                              ity, duplicate trips, and trips that were not   Postal Service had the property indepen-
                                              as full as possible. Of these, management       dently appraised, reevaluated the terms of
                                              believed 4,911 hours were still necessary.      the sale and the apparent conflict of inter-
                                              Of the $9.6 million in savings detailed         est, provided training on Its real estate
                                              above, about $1 million is related to fuel      management policies and procedures
                                              costs.                                          to all pertinent employees, and estab-
                                                                                              lished procedures that include increased
                                               Improving tfie Effectiveness of Airport Mail   oversight and documentation regarding
                                               Center Operations. Our audit of the Postal     potential conflicts of interest. These steps
                                              Service's air network operations, in the        are expected to strengthen the Postal
                                              context of its overall integrated air strat-    Service's real estate asset management
                                              egy, concluded that management could            program and are fully responsive to our
                                              improve the effectiveness of the Atlanta        recommendations.
                                              Airport Mail Center (AMC) operations.
                                              Further, the Postal Service could save at       eBuy Monttily Reconciliation Procedures.
                                              least $107 million over a 10-year period,       eBuy Is an electronic commerce portal
                                              if management Increased the Atlanta             that provides Postal Service employees
                                              AMC's productivity and reduced work-            with electronic requisitioning, approval,
                                              hours commensurate with operational             and invoice certification c^ability. Our
                                              requirements. The Postal Service could          audit of eBuy monthly reconciliation
                                              achieve these results by using equipment        procedures showed that interna! con-
                                              efficiently in accordance with productivity     trols over eBuy reconciliations needed
                                              standards, eliminating unnecessary staff-       significant strengthening. We determined
                                              ing, and reducing workhours, including          that the Postal Service did not reconcile
                                              unsupported overtime. Subsequent to             85 percent of the eBuy monthly accounts
                                              the audit, the Postal Service implemented       reviewed, and did not have adequate
                                              a variety of management tools to better         supporting documentation for those
                                              monitor data, share infonnation, improve        accounts' billing summaries. As a result,
                                              efficiencies, and match operational tar-        $9.7 million ofthe $10.8 million total pur-
                                              gets with workload projections.                 chases reviewed were at risk. In addition.
                                                                                              Material Logistics Bulletins (MLB) for eBuy
                                              Facility Reviews. Our review of the sale of     supplies and services did not always
                                              the Philadelphia Main Post Office found         contain the reconciliation requirements.
                                              the Postal Service did not conduct the          Further, management did not consistently
                                              sale in compiiance with existing pro-           keep relevant MLBs current on the MLB
                                              cedural requirements, and noted the             website. Management agreed with the
                                              apparent conflict of interest of a broker/      report's recommendations and associ-
                                              developer working for the Postal Service.       ated assets at risk. They have initiatives in
                                                                                              progress and corrective actions planned
                                              We recommended the Postal Sen/ice               to address the issues in this report
                                              require an appraisal of the property.




             7   1 Semiannual Reportto Congress
                                                                                                                                                33
                                                                                                                                                m

                                                                                                                                                m
                                                                                                                                                oo
                                                                                                                                                 t/i
                                                                                                                                                CO
 Controls for Cellular Services. The Postal                       and cellular broadband cards, with an
Service is committed to having secure,                            estimated cost savings of $6.8 million.
reliable, and cost-effective voice and data
telecommunications capabilities for its                           In response to a previous OIG telecom-
business needs. Cellular technology has                           munication audit, the Postal Service
advanced rapidly in the last few years                            disconnected thousands of unneces-
and is now part of a broad spectrum                               sary voice lines and reported an annual
of remote telecommunication devices.                              savings of almost $5,7 million, it also
The Postal Service is challenged with                             centralized and optimized related man-
effectively managing a variety of cellular                        agement and control functions. As a
services and devices. Currently, Postal                           result of a contract modification that
Service employees use more than 26,500                            added wireless services and devices, the
cellular devices nationwide. Three major                          Postal Service expects to further reduce
wireless vendors provide the majority of                          its expenses by $4 million annually.
these services.

Our audit showed the Postal Service can
capture savings by implementing central-
ized management and control practices,
performing comprehensive inventories
and needs assessments, and improving
inventory and usage review practices. This
would help eliminate unnecessary cellular
phones. BlackBerry'"'^ devices, pagers.




THe Postal Service fs tThallengBeltvith slfectivelv managing a variety ol cellLilHt
services and devices.




                                                                                                             Oclobei 1,2006—March 31,2007 I 8
                                       GENERATE REVENUE
                                       A major challenge facing the Postal
                                       Service is increasing revenue while
                                       streamlining core services, controlling
                                       costs, and providing greater value to its
                                       customers. To do so, the Postal Service
                                       must provide high-quality customer ser-
                                       vice along with greater efficiency.

                                       The Postal Service's strategy for generat-
                                       ing revenue is to foster growth through
                                       customer value. It plans to do this by
                                       creating more customer value in core
                                       products and services, thereby increas-
                                       ing mail volume and revenue to continue
                                       financing universal service and the grow-
                                       ing delivery network. Customer value
                                       is defined as increased product utility;
                                       improved ease of use and access; and
                                       more reliable, predictable performance
                                       at affordable prices.                        WR evaluated deiivory and signature corfirnialion deticiencies
                                                                                    iot stamp stoci^siiipped to cnnsignees utidet Ihe national
                                                                                    .Stamps on Corsignmenl program.
                                   We believe there are more opportunities
                                   to increase revenue in the areas of col-
                                   lecting revenue on stamps and annual             These conditions existed primarily
                                   mail fee sharing. We further believe the         because ABN and Postal Service officials
                                   Postal Service could increase emphasis           did not fuliy comply with provisions of
                                   on accurately collecting, recording, and         the SOC contract to account for lost
                                   reporting all revenue; and strengthening         or missing shipments. Postal Service
                                   internal controls to minimize risks relating     employees did not follow prescribed
                                   toflnancia!transactions.                         procedures to obtain proof of delivery.
                                                                                    Further, consignees had no incentive to
                                   Collecting Revenue on Stamps. We evalu-          make timely payments tor stamp stock.
                                   ated delivery and signature confirmation         When officials do not follow contract
                                   deficiencies for stamp stock shipped to          provisions to account for stamp inven-
                                   consignees under the national Stamps             tory under consignment, they maintain
                                   on Consignment (SOC) program. We                 inaccurate stamp balances. When stamp
                                   found that Postal Service officials properly     shipments to consignees do not contain
                                   managed this program and accounted for           proper proof of delivery and the Postal
                                   stamp Inventory under consignment with           Service is unable to provide proof of deliv-
                                   American Banknote Company (ABN).                 ery, the Postal Service could be liable to
                                   However, ABN deducted unapproved                 reimburse consignees for the value of lost
                                   transactions from its stamp account-             or missing shipments. Further, the longer
                                   abiiity. Further, delivery personnel did not     consignees' past due accounts remain
                                   always confirm proof of delivery of stamp        unpaid, the more interest income the
                                   stock to consignees, and consignees              Postal Service forfeits. Our audit identified
                                   did not always make timely payments for          more than $310,000 in questioned costs
                                   stamp stock received.                            and $67,000 in unrecoverable revenue.




9   I   Semiannual Reportto Congress
                                                                                                                                                          Ci


                                                                                                                                                          30

                                                                                                                                                          m
                                                                                                                                                          33


We recommended Improvements to the            Package Services for a 17-month period.
Postal Service's management of the SOC        In addition, the other 354 CAPS accounts
program, including: determining whether       and 41 locally managed accounts we
appropriate adjustments to ABN's              reviewed had the potential to mail Pack-
accountability should be made; request-       age Services without paying the required
ing that ABN officials adhere to contract     fees. If the Postal Service does not take
provisions for approving lost, missing,       corrective action, it may not realize an
damaged, and short shipments; timely          additional $44,480 in revenue over the
signing for stamp shipments; recouping        next 2 years.
payments for past due accounts; and
training pertinent staff.

Annual Mail Fee Sharing — Package
 Services. The Postal Service collects
annual fees from customers who mail
certain classes of mail at discounted
rates. The Domestic tvlail fvlanual (DMM)
sets forth the fee structure and does not
specifically allow for fees for Package
Services or Standard Mall to be paid
once and shared among all permit Imprint
accounts held by the same owner. How-
ever, we found the Postal Service allowed
multiple permit imprint accounts to
improperiy share fees for certain classes
of mail. Speciflcally, these accounts
shared fees for Centralized Account
Processing System (CAPS) customers
who held multiple permit imprint accounts
to mail Package Services items at the
same Business Mail Entry Unit (BMEU),
In addition, we identified Instances of
this occurring with non-CAPS custom-
ers at eight of the 10 BMEUs we tested.
This occurred because CAPS was pro-
grammed to share fees across multiple
permit imprint accounts, similar to the
way fees are shared for First-Class Pre-
sort mailing. Further, while the DMM does
not specifically allow for fee sharing for
Package Services, it has been interpreted
inconsistently regarding fee collection for
these services.

As a result, the Postal Service has not
collected annual fees of $27,300 for 177
                                              i"i: i-us:d( bviv'v.t:f:oli«:[sannual inailii'.rilei's irniii wislomins v/ix)ttuii(.otiaiii
CAPS accounts and $1,380 for nine             classes ol mall at discounted mailiiKi rales.
locally managed accounts that mailed




                                                                                                                       OclDben.ZOOe —iwarch31,2007 1 10
                                     ACHIEVE RESULTS WITH                         Workers' Compensation Programs. A sig-
                                     A CUSTOMER-FOCUSED,                         nificant cost continuing to impact the
                                     PERFORMANCE-BASED CULTURE                   Postal Service is workers' compensation
                                                                                 expenses for injured workers. The size
                                 The Postal Service's strategy for achiev-
                                                                                 of the workforce and nature of the work
                                 ing results with a customer-focused
                                                                                 are the primary factors that made the
                                 pertormance-based culture is to engage
                                                                                 Postal Service the largest participant (47
                                 and motivate the workforce. The Postal
                                                                                 percent ofthe total federal workforce
                                 Service continues to focus on four criti-
                                                                                 cases) in the Department of Labor's
                                 cal human resource strategies: engaging
                                                                                 (DOL) Office of Workers' Compensation
                                 employees, developing and managing
                                                                                 Programs (OWCP) In 2006. Although the
                                 talent, establishing and maintaining mar-
                                                                                 Postal Service has taken positive steps
                                 ket-based compensation, and managing
                                                                                 over the past 3 years to reduce workers'
                                 the workforce to assure flexibility.
                                                                                 compensation expenses, in chargeback
                                 The Postal Service faces the challenge          year (CBY) 2006, workers' compensation
                                 of managing a large and dynamic work-           payments increased five percent Irom
                                 force. Added to that challenge is the need      about $840 million (in 2005) to $884 mil-
                                 to create a flexible workforce as part of       lion. According to the Postal Service, the
                                 the network optimization initiative. Further,   increase occurred partly because claim-
                                 controlling costs associated with work-         ants received an extra compensation
                                 place programs is also important to the         payment in CBY 2006, due to the nature
                                 Postal Service's success. To that end, the      of the payment cycle. Technological
                                 Postal Service is standardizing the work-       improvements that reduced the number
                                 ers' compensation case management               of rehabilitation assignments available for
                                 process and will move the process from          injured employees also contributed to the
                                 the areas to the districts before the end of    increase.
                                 the fiscal year. This change will strengthen
                                 case management activities and integrate        From FY 2005 to FY 2006, the Postal
                                 injury compensation, medical, resource          Service reduced the number of career
                                 management, and Family Medical Leave            employees from 704,716 to 696,138, and
                                 Act issues at the district level. The collec-   reduced workhours by almost 5 million.
                                 tive expertise in these areas can be used       However, In FY 2006, workers' compen-
                                 to develop the right approach to each           sation expenses increased approximately
                                 claim.                                          $441 million. This amount includes the
                                                                                 $342 million for future workers' compen-
                                 During this reporting period, we assessed       sation costs, and may also be affected by
                                 the Postal Service's ability to resolve         a change in the forecasting model used
                                 workforce and workplace Issues, par-            for the calculation. Although the number
                                 ticularly those related to the workers'         of paid claims decreased, the actual cost
                                 compensation program. We also con-              of the claims increased due to a cost of
                                 ducted work in other important human            living adjustment in January 2006. The
                                 capital areas, such as ttie wori^place envi-    Postal Service continues to reduce the
                                 ronment, employee benefit programs, the         number of claims as a result of its efforts
                                 comprehensive strategic workforce plan,         to prevent on-the-job injuries and its joint
                                 and the prescription drug card program.         initiative with the DOL OWCP to increase
                                                                                 the number of claimants reluming to
                                                                                 work.




11 I Semiannual Report to Congress
                                                                                                                                        3>
                                                                                                                                        o
                                                                                                                                        m
                                                                                                                                        m
                                                                                                                                        33


                                                                                                                                        m
At the same time, the administrative fees   percent of the duplicate payment amount)        1000                           S384
that OWCP charged the Postal Service,       unrecoverable for the Postal Service.                          S840            million
                                                                                                           million
which are set by statute and therefore
binding, increased from $44.3 million in    Employee training in the workers' com-           800.                                       t/i
2005 to $48.3 million in 2006. These fees   pensation area has also been improved
represent approximately five percent of     with the ongoing conversion of the former        600                                        3>
the Postal Service's total medical and      a-day Basic Injury Gompensafion course                                                      o
compensation costs.                         Into a web-based training program. Some
                                            training modules are already available,         400
                                                                                                                                        —I
During this reporting period we issued a    such as the injury Compensation: Moni-                                                      o
report to the DOL OIG requesting that it    toring Fraud and Abuse course.                  200
address two issues identified during our                                                                                                m
review of the Schedule Awards Program       The Postal Service also continues to                                                        33
in the Postal Service's New York Metro      engage its employees through its continu-                                                   m
Area. These issues were: (1) OWCP           ous workforce environment improvement
                                                                                                            2005             2006       o
handbooks and course materials do           and safety programs, such as the Ergo-                 Cnst ot witusis' c o m p o n s a ^
                                                                                                   for InliirM wotlcers
                                                                                                                                        o
not contain information on how OWCP         nomic Risk Reduction Process and the                                                        00
participafing agencies should calculate     Voluntary Protection Programs. As a                                            $48.3        m
and verify schedule award payments; and     result, from FY 2002 through FY 2006,            50            $44.3           million      a
(2) the OWCP does not notify participat-    the Postal Service reduced the total num-                                                   -a
ing agencies of new weekly or monthly       ber of injuries and illnesses by 20,692, a       40
                                                                                                                                        m
                                                                                                                                        3D
schedule award payments resulting from      34 percent reduction.                                                                       -n
annual cost-of-living adjustments (COLA).                                                                                               o
                                                                                             30                                         33
Since the DOL OWCP has program
responsibility for schedule awards, we                                                       20
recommended that It provide participat-                                                                                                 O
ing agencies with Instructions on how                                                                                                   m
to calculate and verify schedule award
payments and advise agencies of COLA                                                                                                    CD
changes to employees' schedule awards                                                                                                   <Ji
payments. This would help agencies
monitor increases in schedule avrard                                                                                                    m
payments to ensure they are correct and
would enable agencies to identify and                                                                                                   o
correct errors before the OWCP bills
them.                                                                                                                                   33

An Initiative led by the Postal Service,
which used an OIG-developed database,
discovered more than $3.9 million in
duplicate medical payments since July
2003, $737,562 of which the DOL OWCP
had credited back to the Postal Service
as of February 2007 The DOL OWCP
is not required to reimburse agencies
for the administrative fees they charge
to process duplicate payments, render-
ing approximately $195,339 (about five




                                                                                         0cl0ber1,2006 —Marcti31,2007 1 12
                                        IMPROVE SERVICE                                                 graphics. In addressing these challenges,
                                                                                                        the Postal Service continually looks for
                                        The Postal Service's strategy to Improve
                                                                                                        opportunities to streamline operations,
                                        service is to provide timely, reliable
                                                                                                        reduce costs, increase operational effec-
                                        delivery and Improved customer service
                                                                                                        tiveness, and improve service.
                                        across all access points. It plans to
                                        improve the quality of postal services                          In recent years, the Postal Service's most
                                        by focusing on the end-to-end service                           significant strategic effort to optimize Its
                                        performance of all mail and ensuring that                       maii processing network has been the
                                        postal products and services meet cus-                          Evolutionary Network Development (END)
                                        tomer expectations by being responsive,                         initiative. Additionally, the Postal Service
                                        consistent, and easy to use. However,                           uses Area Mail Processing (AMP) policy
                                        Improving service is a significant concern                      to consolidate mall processing functions
                                        for the Postal Service while it simultane-                      to eliminate excess capacity, increase
                                        ously works to cut costs, and service                           efficiency, and better use resources.
                                        issues have come under increasing scru-                         However, with the recent Board of Gover-
                                        tiny trom external stakeholders In recent                       nors' approval of a new flats processing
                                        months. Our work in this area is aimed at                       strategy, the recent rate case, and the
                                        helping the Postal Service improve opera-                       enactment of the Postal Accountability
                                        tional efficiencies related to customer                         and Enhancement Act, the Postal Service
                                        service.                                                        is reevaluating its processing and trans-
                                                                                                        portation network strategy.
                                        Service Implications Resulting from Network
                                        Optimization. The Postal Service's busi-                        Our recent audits in this area have shown
                                        ness environment is challenging due to                          that although the Postal Service has
                                        declining First-Class Mail volume, Increas-                     generally been successful In evaluafing
                                        ing competlfion with tradifional mail                           opportunities for cost reduction through
                                        products from the private sector, Increas-                      the AMP process, it needs to strengthen
                                        ing automation and mail processing by                           its analysis of the service Impacts of AMP
                                        mailers, and shifting population demo-                          consolidations. Additionally, we found
                                                                                                        inconsistencies and inaccuracies in the
                                                                                                        data supporting the consolidations and
                                                                                                        in the process that was followed. For
                                                                                                        example:

                                                                                                        •    In response to a congressional inquiry
                                                                                                            and management requests, we
                                                                                                            audited the pre-decisional consolida-
                                                                                                            tion proposal for the Sioux City, Iowa,
                                                                                                            Processing and Distribution Facility
                                                                                                            (PSDF). We determined that the Postal
                                                                                                            Service generally complied with AMP
                                                                                                            guidance, maintained supporting
                                                                                                            documentation, and provided confirm-
                                                                                                            ing evidence for the consolidation.
                                                                                                            However, we identified some incon-
          iii foccnlycats, Ihc Postal SeiviMS most signilli,aiitniNjiot|injlloil looiJiiiuiAiits iimi       sistencies in AMP proposal data and
          pracessing network liaa lieen the Evolulionaty Network Deuelnptneiil (END) liiitiativti.          found that inaccurate information may
                                                                                                            have been shared with stakeholders.




13 I Semiannual ReporttD Congress
                                                                                                                                                                      3D
                                                                                                                                                                      O
                                                                                                                                                                      m
                                                                                                                                                                      c/3
             UNITEDSTATES
           'POSTALSERVICE

                                                                                                                                                                      O
                                                                                                                                                                      m

                             Verify Addrsss                                                                                   |

                           Thiiaddi^K^ridibHnsiirxiirdindi Plebevcii'viiif iland r d c ^ dddr€u below.


                          OiiginBi AddMB9                                            USPS OfliiiiHl Alldraag
                          jnhrPo*                                                    JofH'l>M
                          1ZM AMERICA BLXJLEVAllD, SUITE 1000                        123d AMERICA m v D . STE IIJCO
                          /inylo-n, Vn^nit 17341                                     Anylown,VAI23')5-«31




THe Posl^ Senice strives to r^ain arnirale address mformaiion for Inlemal use and tbr lis cu^omers, as its Customer Contact
Centers use this dala lo provide cqieraiions Informaiion to m^lers and Ihe public.


   We assessed the post-implementation                                        ffiat may be associated with AMP con-
   review (PtR) of the Steubenvilte Main                                      solidations.
   Post Office — Youngstown, Ohio,
   P&DF outgoing mail consolidafion                                      Mail Delays. In response to an August
   and found evidence of cost savings,                                   2006 congressional inquiry, we reviewed
   improved service performance, and                                     allegations of delayed mail at the Los
   increased productivity. However, we                                   Angeles PSDC. The audit found that
   found discrepancies with the approval                                 during the period July 2005 through
   of the AMP proposal and the data                                      May 2006, the Los Angeles P&DC had
   used to support It, and with the tim-                                 difficulty with the timely processing of
   ing of the PIR and the data used to                                   mail, resulting in mall delays and service
   support it. Management has ongoing                                    declines. However, the Los Angeles
   actions to address AMP policy issues                                  P&DC had made significant improve-
   based on prior audit recommenda-                                      ments and, as of August 2006, the Los
   tions. In this report, we recommended                                 Angeles Customer Service District met
   that management conduct training on                                   or exceeded national service score aver-
   AMP policy.                                                           ages. In addition, the Los Angeles PSDC
                                                                         had less delayed First-Class Mail, Priority
   We audited the service imptications of                                Mail, and Package Services Mail than
   AMP consolidations and concluded                                      similar-sized facilities. Our review focused
   that the Postal Service could improve                                 on the processing of mail at the P&DC,
   the way it documents service impacts                                  and not on the actual delivery of mail to
   in AMP proposals and PIRs. Manage-                                    Postal Service customers.
   ment did not fully document changes
   to service standards, analyze service                                 Mail Processing Efficiency. We assessed
   performance data for the affected                                     whether the Postal Service was comply-
   facilifies, or review actual service                                  ing with the National Color Code Policy
   performance after a consolidafion of                                  and best practices as they relate to
   PIRs. The consolidation proposals                                     improving mail processing efficiency
   also did not consistently address other                               within plants. For Standard Mail, this
   potential changes affecting customer                                  includes using a series of color-coded
   service, such as collection box pick-up                               tags to ensure that mail Is processed
   times, access to business mail entry                                  efficiently in afirst-in.first-out sequence to
   units, and changes to retail services                                 meet processing, dispatch, and delivery




                                                                                                                                  Octoberl,2006 —March31,2007   1 U
                                        targets. A color-coded tag represents the      use this data to provide operations infor-
                                        day of the week the mail arrives on Postal     mation to mailers and the public.
                                        Service premises and denotes targeted
                                        clearance from the facility in 1 or 2 days.    In March 1993, the Postal Service imple-
                                        At the South Jersey P&DC, we concluded         mented delivery point sequencing (DPS).
                                        that the Postal Service generally pro-         DPS is the process of arranging barcoded
                                        cessed Standard Mail using the correct         mail according to the Letter Carrier's line
                                        color-code processes, but recommended          of travel to eliminate manual mail sorting,
                                        that the Postal Service tighten controls       improve efficiency, and reduce costs. In
                                        over its color-coding process and provide      1994, the Postal Service established the
                                        training to avoid possible delays and          Address Management System (AMS) to
                                        negative service implications.                 capture, correct, and complete address
                                                                                       informafion to enhance the efficiency of
                                         Delivery & Retail Standard Operating          mail processing and delivery via automa-
                                         Procedures. We assessed the implementa-       tion. AMS captures address Information in
                                        tion of Standard Operating Procedures          sortation programs used to process mall
                                        (SOP) In the nine Postal Service areas         in DPS.
                                        and selected district and delivery and
                                        retail units within the Capital Metro, Great   We found that district officials in the
                                        Lakes, Southeast, and Southwest Areas.         Northeast and Southeast Areas effectively
                                        We found that all nine Postal Service          managed delivery AMS quality review
                                        areas implemented the City Delivery            results for approximately 24 percent
                                        Operations SOP appropriately; however,         (4,818 of 19,774) of their routes according
                                        we identified areas for improvement in         to Postal Service guidelines. However,
                                        Morning Standard Operating Procedures          opportunities existed for them to imple-
                                        (AMSOP), integrated operating plans            ment best management practices from
                                        (lOP), volume recording. Delivery Point        the New York Metro Area's New York
                                        Sequencing (DPS), and matching work-           District to Improve the quality of AMS data
                                        hours to workload. Key recommendations         used in processing and delivering mall.
                                        included developing a plan to achieve          Almost 212,115 AMS data errors may exist
                                        AMSOP certification by the end of FY           In the selected Northeast and Southeast
                                        2006, following the SOP for revising lOPs.     Area Districts on the 14,956 routes for
                                        measuring mail volume, and adhering to         which street reviews were not conducted.
                                        policies for matching workhours to work-       If the area officials Implemented a pro-
                                        load-                                          gram similar to the New York District, they
                                                                                       could reduce errors by almost 32 percent,
                                    Facility and Address Management Address            saving the Postal Service more than $5,4
                                    management forms the basis of how                  million over the next 10 years.
                                    the Postal Service moves mall. The
                                    Facilities Database system contains facili-        Additionally, AMS helped Postal Service
                                    ties-related information, such as facility         management improve the utility and com-
                                    Identification, physical characteristics,          pleteness of facility data that the AMS
                                    addresses, hours of operation, and prod-           provided to the Facilities Database. We
                                    ucts and services provided. The Postal             made recommendations to increase use
                                    Service strives to obtain accurate address         of standard facility naming conventions,
                                    information for internal use and for Its cus-      add Input and validation controls over
                                    tomers, as its Customer Contact Centers            facility data, and establish an independent
                                                                                       quality assurance function to enhance
                                                                                       data reliability.




15   I   Semiannual Reportto Congress
   WORKING TOGETHER TO ACHIEVE                         management, the Board of Governors office,      recommendations to sti'eamllne prorsssing
   THE POSTAL SERVICE'S GOALS                          and OIG members was farmed io ai;compiish       operations and improve service.                           X
                                                       this review. Tlie working group discussed                                                                 O
   Over the past lew years, whila lotusing on our      suggrationa and ultimately drafled revised      lUlail Sorting Efficiency
   audit and investigative work, vje aiso worked
   hard to improve our professional relationship
                                                       guidelines. Ttte Governors reviewed, further    In 2006, we reviewed the efficiency ol                    m
                                                       reviser), and approved Ihe guidelines as        carrier sequence barcode sorters (CSBCS) in
   with our client, the Postal Service. The            policy elfeciive January 2007. Ihis policy      cooperation wilh the Seattle Districl. We found
   fcliowing aurnniaries highlight areas where we      govoms raimbursement of expenses incurred        opportunities existed to procoss iBtter mail on
   worl(ed with Postal Service officials to address    lty individuai governors in the pfliionnance     ihe Delivery Barcode Sorters (DBCS) at ihe
   significant issues, and in one case, the Posiai     ot iheir posiai-related duties, beyond the       platils. rather than the less efficient CSBCS
   Seivice toQl< our findings in one district and      annual S30,000 stipend and $300 per             at some assoclaled offices. This resulted in
   formulaied nailotiwide corrective actions.          meeting fees authorized by statute. It also     rerluced mall processing and mainlenance
                                                       serves as a guideline for annual OIG reviews    workhours, increased processing efficiency,
   Flats Sequencing System
                                                       ol the Governors' travel and miscellaneous      and increased use of the DBCSs. We
   We worked wilh tiie Posiai Service to expedite      expenses.                                       estimated the Postal Service would save
   the review ol two proposals lor the production                                                      more iftan 10.000 workhours. which (»uld
   Of Iha Flats Sequencing System (FSS), FSS           Mail Processing Task Force                      produce a cost avoidance ot $3.7 million over
    Is tfie latest advancement in mall automation                                                      10 years. The Postal Service subseguentlv
                                                        The Posiai Sermce formed a iask force In
   technology Ihat the Postal Service expects will                                                     took the OIG report theme — processing mall
                                                        February 2007 to review mail conditions and
   greally oitpedtle and reduce ihe cost ot fiats                                                      upstream in plants on mure eltlcienl sorters
                                                       operations al the Chicago Metro Surlace
   processing, Ttte original proposal ol more than                                                     — and developed a methodology to elimlnaie
                                                       Transportation Cenier (Busse Hubl, It was
   $900 million had significant cosi concents,                                                         as many CSacSs as appropriate nationwide,
                                                       comprised ot matiagcmenl. ths OIG. and
   and a major configuration change occurrer)                                                          Tha Postal Sarvice leam idatilifled excess
                                                       Ihe inspection Service, The task force's
   tJurtiig iis reulew. Ail parlies worked to ensure                                                   letter processing capacity on Hie DBCSs
                                                       objectives were lo assess the role ol Itie
   a full review ot both propasals and to promptly                                                     nationwide and matched offices nearby thai
                                                       Busse Hub and to ideniify opporiunrties In
   address major pricing concerns the audits                                                           had CSBCSs, To date, ttie Postal Service
                                                       improve service, Tfie task force iound Ibe
   raised.                                                                                             identified 360 excess and/or idle ISBCSs, Tfie
                                                       Busse Hub Had expanded beyond its original
                                                       inteni and had some ineflicieni operations.     estimated workhour savings for the project
   Governors' Official Expense Policy                                                                  equalBS to millions ot dollars, Tfiis is a win-
                                                       The task force aiso noted Inefficient Hoot
   The Postal Service Govetnois lequested              layout and mall flows: urnecessary handling     win project that simultaneously sU'eamllnes
   that the Postal Service review the Guidelines       ot mail; melfectlve staffing and scheduling;    ihe processing net\"vork and increases ihe
   flelaliiig to Governors' Official Expenses. A       and inadequate visual aids and signs to iielp   efficiency ol Ihe Postal Service,
   worthing group comiJrised of Poslal Service         expedite maii processing, Ttie report made



Processing most mall on automated                              During this reporting period, we Issued
equipment means that the quality ot                           a report on the contact centers' ability to
address information is very important.                        improve customer service. We found that
Mall that employees cannot process on                         fhe Postal Sen/ice could not determine
automated equipment requires manual                           whether the contact center contract had
processing, which is less efficient and                       improved customer service since it did
more costly to the Postal Service. Use of                     not have effective measures to capture
correct and complete address information                      the accuracy of contact center responses
can reduce costs to the Postal Ser^'ice,                      to customers. In addition, we determined
Since the Postal Service's goal is to sort                    that the Postal Service could reduce the
95 percent of letters by DPS by 2010,                         cost of the contact center contract by
a decrease in AMS data errors will help                       relaxing the current service level require-
officials achieve their goal and will reduce                  ments. Management partially agreed
operating costs.                                              with our finding to relax the service level
                                                              and disagreed with our recommenda-
Contact Centers. Contact centers provide                      tion and monetary impacL During that
customers access to local post office                         process, management identified initiatives
hours and locations, information on                           to address the issues In the report; those
domestic and international rates, ZiP                         initiatives are now in progress.
Code lookup, stamp sales transactions,
and a number of other services. In Janu-
ary 2003, the Postal Service entered a
4-year, $254.6 million fixed-price incentive
contract to consolidate and streamline
the call center network into a more fully
integrated and managed network.




                                                                                                                         Octoberi.ZOOe —March31,2007      I 16
                                              PRESERVING INTEGRITY                                                  on Integrity and Efficiency (PCIE) Home-
                                                                                                                    land Security Roundtable, which shares
                                              The OIG works to preserve the integrity
                                                                                                                    information on related security work per-
                                              of Postal Service processes and person-
                                                                                                                    formed by all OIGs.
                                              nel, which are essential elements for
                                              safeguarding Postal Service products,                                 By conducfing financial audits of Postal
                                              customers, services, and assets.                                      Service installations and informafion
                                                                                                                    systems audits, the OIG helps assure
                                              During its long history, the Postal Service
                                                                                                                    integrity in this vital process. Investigative
                                              has faced both natural and man-made
                                                                                                                    efforts assist the Postal Service in pro-
                                              disasters that adversely impacted mail
                                                                                                                    tecting the mail, safeguarding the Postal
                                              delivery. These incidents led to a renewed
                                                                                                                    Service's revenue and assets, and helping
                                              emphasis on developing initiatives to
                                                                                                                    maintain the integrity of postal personnel.
                                              more effectively secure the nation's mail
                                                                                                                    This secfion discusses audit and investi-
                                              system. This is a significant challenge
                                                                                                                    gative activities to preserve Integrity in the
                                              due to the sheer size and geographic
                                                                                                                    Postal Service during this period.
                                              dispersal ofthe Postal Service. In support
                                              of the Postal Service, we participate In the
                                                                                                                    Audit Activities
                                              Mail Security Task Force and attend train-
                                                                                                                    By focusing on key vulnerabilifies of
                                              ing relating to emergency planning and
                                                                                                                    Postal Service installations, our audits
                                              dangerous mail investigations. We are
                                                                                                                    have shown how the Postal Service can
                                              also a member of the President's Council
                                                                                                                    further protect the integrity of the mail-
                                                                                                                    stream. Ulfimately, assessing the integrity
       10'Year Hotline Trends by Reporting Period                                                                   and accuracy of management data helps
                                                                                                                    to maintain a stable and sound Postal
                 45,000                                                                                             Service.
                 40,000                                                                                             Financial Statements Account for the Postal
                 35,000                                                                                             Service's Costs and Revenues. The follow-
                 30.000                                                                                             ing is an outline of the Postal Service's
                                                                                                                    financial position and a summary of the
                 25,000
                                                                                                                    financial audits of Postal Service instal-
                 20,000                                                                                             lations performed in support of the
           ra                                                                                                       independent accountant's opinion on the
          U
                 10,000
                                                                                                                    financial statements.
          "5
          .a       5,000
           E                                                                                                        Postal Service's Financial Position. The
                        0                                                                                           Postal Service realized its fourth con-
                                                                                                                    secutive year of positive net income
                                                                                                                    and a third consecutive year of positive
                                   a      s        D
                                                          a       B                       3       B                 retained earnings. The Postal Service also
                                   a      S       S       o       5                                                 achieved a net income of $900 million,
                                   s      §       g       o       D                               o                 although it added more than 1.8 million
                                                                                                                    delivery points and handled 1.4 billion
                                  October — March Reporting Periods
                                                                                                                    additional pieces of mail compared to the
                                                                                                                    prior year.
     This cliarl shows M combined rumbGr ot coniacia made to the OiG Hotline hy phone, e mail, lax,
     mail, and voice mail durirg Ihe Iirst halt ol each fiscal year since 1998. The dianialic tise in tite
     conlacl population began in ijariy 1^004, antl contliiiiecl witii Ihe iiiiplementation ol llie Virtual Front
     Oflice (our new call cenieri in 20D(i.




17   1 Semiannual Reportto Congress
                                                                                                                                                m
                                                                                                                                                C/)
                                                                                                                                                m


                                                                                                                                                a
                                                         requirement of the Postal Civil Service
                                                         Retirement System (CSRS) Funding
                                                         Reform Act of 2003 (PL 108-18) and capi-
                                                         tal and operational needs — and because
                                                         it was heading into an environment of                                                  -<
                                                         perceived uncertainty — the Postal Ser-                                                >
                                                         vice borrowed $2.1 billion on September
                                                         30, 2006, to satisfy these requirements
                                                         and provide operating cash for future
                                                         operations. For 2007, the Postal Service
                                                         does not expect cash flows from opera-
                                                         tions to be sufficient to fund legal
                                                         mandates and all capital investments.
                                                         Therefore, the Postal Service expects to
                                                         borrow at least $1,2 billion to cover the
                                                                                                                                                c/3
                                                         shortfall.
We umllted Lind issued leputls un 1Q2 post ollicesaiid   The Postal Accountability and Enhance-
Business Mall Entty Uni la.
                                                         ment Act has financial implications for the
                                                         Postal Service. It eliminates the escrow
 Revenues increased to $72.8 billion (more
                                                         previously required under PL 108-18
than $2,8 billion over FY 2005) primar-
                                                         and reduces payments into the CSRS,
ily due to a rate increase across all rate
                                                         However, it requires the Postal Service to
classificafions. implemented in January
                                                         place between $5.4 billion and $5,8 bil-
2006, However, operating expenses
                                                         lion into the newly created Postal Service
increased from $68.3 billion in FY 2005
                                                         Retiree Health Benefits Fund each year
to $71.6 billion in FY 2006 primarily due to
                                                         for the next 10 years to substantially fund
increases in compensation and benefits
                                                         its share of retiree health benefits. Aiso,
and transportation expenses, the same
                                                         the Postal Service expects to incur signifi-
factors that drove the increase from FY
                                                         cant costs as a result of the requirement
2004 to FY 2005. The Postal Service
                                                         to comply with Section 404 of the Sar-
expects the economy to continue to
                                                         banes-Oxley Act beginning in FY 2010.
affect revenue growth, but it expects rev-
enues to increase by $2,5 billion, or 3,4                Field Financial Audits. As part of the overall
percent, primarily due to the anticipated                audit of the Postal Service's financial
rate increase. It also expects expenses                  statements, using a strafified sampling
to increase 2.3 percent over FY 2006                     plan, we audited and issued reports on
primarily due to cost-of-living pay adjust-              102 post offices and BMEUs. We also
ments and potential contractual pay                      issued 18 reports In addifion to those in
increases. However, the Postal Senyice                   the sampling plan and four summary cap-
plans to limit operafing expense Increases               ping reports. The reports concluded that
by reducing 40 million workhours through                 financial transactions were reasonably
process improvements, automation, and                    and fairly presented In the accounting
projected volume decline.                                records and, generally, Internal controls
                                                         were in place and effective. However, the
The Postal Service began FY 2006 with
                                                         reports identified various intemal control
no outstanding debt obligations. However,
                                                         and compliance issues that could be
because cash flows were not sufficient to
                                                         improved, in addition, we Issued four
fund the more than $2.9 billion escrow




                                                                                                          Octohen,2006 —lilarchSI,2007   I 1B
                                                                                                     a n d regulations that have a direct a n d
                                                                                                     material effect on the financial statements.

                                                                                                     We issued 10 reports and one summary
                                                                                                     capping report for Cost and Revenue
                                                                                                     Analysis test observations. We concluded
                                                                                                     that the Postal Service generally con-
                                                                                                     ducted the statistical tests in accordance
                                                                                                     with established policies and procedures.
                                                                                                     hlowever, we noted some areas where
                                                                                                     the Postal Service could make improve-
                                                                                                     ments to maintain the integrity of the
                                                                                                     statistical data.

                                                                                                     Security and Controls in Technology
                                                                                                     Investments. We perform information
                                                                                                     systems general controls reviews to sup-
                                           The OIG publication. "Discover the OIG," is distribuled
                                                                                                     port the annual financial statement audit
                                           inlernally to postal citiployees and to our extemal
                                           slakeholriers                                             and to assess the adequacy of controls
                                                                                                     over information systems security and
                                          audits at Postal Service h e a d q u a r t e r s a n d
                                                                                                     software,
                                          t h e Information Technology a n d
                                                                                                      FY 2006 Information Systems General
                                          A c c o u n f i n g Service Centers, w h i c h
                                                                                                      Controls. General controls are the poli-
                                          c o n c l u d e d that m a n a g e m e n t ' s financial
                                                                                                     cies and procedures that apply to all or
                                          a c c o u n t i n g policies a n d p r o c e d u r e s
                                                                                                     a large segment of an organization's
                                          c o n f o r m e d to a c c o u n f i n g principles
                                                                                                      Information systems and help ensure the
                                          generally a c c e p t e d in t h e United States
                                                                                                     systems' proper operafion. Examples
                                          a n d provided for an a d e q u a t e internal
                                                                                                     of general controls include those that
                                          control structure. W e d i d n o t Identify any
                                                                                                      safeguard data, protect computer appli-
                                          instances of n o n c o m p l i a n c e with laws
                                                                                                      cation programs, protect system software
                                                                                                     from unauthorized access, and ensure
                                                                                                      continued computer operations In case
                                                                                                     of unexpected interruptions. Moreover,
POSTAL SERVICE EFFORTS                            also deploy encryplion loots for employee
                                                  use and replace existing laptops wilh              the effectiveness of general controls is a
TO PROTECT SENSITIVE
                                                  encryption-capable laptops over Uie next           significant factor in determining the effec-
INFORMATION
                                                  2 years. We made recommendations to                tiveness of application controls. Without
The Postal Service adopted an initlalive In       amend policy and implement procedures              effective general controls, applicafion
 October 2005 lo strengthen controls over         ID recertify sensitive and business-
sensilive information that mimirs many                                                               controls may be rendered ineffective
                                                  controlled sensitive applications evary
of ihe concerns included in Ifie Office ot                                                           by circumvention or modification. For
                                                  3 years, update the Information securily
Management and Budget's Memotandum                assurance documenlation for syslems that           example, edits designed to prevent users
f^1-06-1B security directive. After issuance      are reclassified as sensitive or business-         from entering unreasonably large dollar
ot li^emorandum r^-06-16,titePostal               controlled sensilive. and establish milestones     amounts in a payment processing system
Service appointed a leam lo mtMiage the           lor complellng tite sensitive data action plan.
protection of sensitive data, develop goals
                                                                                                     can be an effective application control.
                                                  When fully implemented, lliese Initiatives
and action items to safeguard personally                                                             However, this control cannot be relied on
                                                  safeguard sensilive business, customer, and
identifiable infonnation, and update policies     employee data and are eKpected to assisl           if the general controls permit unauthor-
on IransptMllrg and storing sensilive                                                                ized program modifications that might
                                                  In preserving the value and Integrity of Bie
Information off-site, The Poslal Service will                                                        allow some payments to be exempt from
                                                  Postal Service brand.
                                                                                                     the edit. Both general and application




 19 1 SemlannualReporttoCongress
                                                                                                                                                                                      30
                                                                                                                                                                                      m
                                                                                                                                                                                      c/)
                                                                                                                                                                                      m
                                                                                                                                                                                      30

                                                                                                                                                                                      a
controls must be effective to help ensure
the reliability, confidentiality, and availabil-
ity ot critical automated information.
                                                                                                                                                                                      —t
 During the reporting period, we sup-                                                                                                                                                 -<
                                                                                                                                                                                      «   •
 ported the annual financial statements
audit with an audit of information systems
general controls. For FY 2006, we found
that general controls for selected applica-
tions, data, and computer infrastructure                                                                                                                                              3>
at selected Postal Service information                                                                                                                                                Ci
technology (FT) data centers provided
reasonable assurance that computer-
processed data were complete, validated
for accuracy, and secure; data integrily
controls were in place; and business                                                                                                                                                  t/i
practices complied with Postal Service
policies, procedures, and standards. In
addition, controls over software, data,
personnel, and physical security that
affect computer systems were adequate.
However, we identified some IT audit
control Issues that neither alone nor col-
lectively represent a significant risk to
reliance on general computer controls.
These issues were in the areas of access
to UNIX sen/ers, Oracle password set-
fings, mainframe disaster recovery
equipment tesfing, physical security over
infoimatlon assets, security clearance
retention and database reconciliation poli-
cies and procedures, and security and
administration of routers and switches.


                                                                    Wl! perlornt securily uuiiieraijilily tissesaniyftL; u;   I Ldi I'uaiai Service Inloinialwii lechiioiogy
                                                                    resources - nelwotks, servers, and dalabases.




   SECURITY VULNERABILITY ASSESSMENTS
   A vuliiutabilily iissosstiiuiil i:; ti [iiuciiss Itinl tlwlines. idenlillBs, and classilles Ihe securily weaknesses in
   a computer, network, or oommuiilcalions Infraslruciure, We perform security vulnflrabllity assessments on
   critical Postal Service informaiion Technology resources — networks, servers, and databases — to ensure
   tliat Ihese resouices and Ihe sensitive i:iistomer infoimaiion tliey handle are secure. The assessment
   resiills piovlde mantigement with technicnl intoimation to assisl in localing polenlial weaknesses,
   esiablishing piiotities tot cutienilve action, and implementing repairs, as necessary.




                                                                                                                                          Ocloben, 2006—March 31,2007          I 20
•r                                        Mainframe Service Continuity a n d Pfiysical                 in place to ensure that critical operations
                                         Security. To ensure continued computer                        would continue without interruption or
                                         operations in case of unexpected inter-                       could be resumed within a reasonable
                                         ruptions, management made major                               amount of time when utiexpected events
                                         improvements in service confinuity                            occur. We determined that while manage-
                                         affecting tfie mainframe processors at                        ment established and updated continuity
                                         two of its IT data centers. For example,                      plans and procedures relating to essential
                                         management developed policies requiring                       business functions at the IT data centers
                                         essential business functions located in                       and used new technology for backing up
                                         major IT facilities to develop workgroup                      criticaJ data files and sending them off-
                                         recovery plans, track the development                         site, management needed to complete
                                         and testing of application disaster recov-                    testing of mainframe disaster recovery
                                         ery plans on a monthly basis and identify                     equipment at the San Mateo and Eagan
                                         those that are incomplete or are past                         IT facilities. Management was responsive
                                         due for testing, and began an effort to                       to the finding and began tests to validate
                                         acquire and Implement new technology                          that the new disaster recovery environ-
                                         that allows the near real-time replication                    ment functioned properly. Further tests
                                         of production mainframe files on storage                      designed to validate that applications
                                         devices located in Eagan, Minnesota, and                      functioned properiy in the new environ-
                                         San Mateo. California.                                        ment began in February 2007.

                                         As part of the FY 2006 Information sys-                       To determine whether management has
                                         tems general controls audit, we evaluated                     adequately protected critical IT physical
                                         whether service continuity controls were                      resources from accidental or intenfional




                       SUSPICIOUS                                   and may resuit in the initiation of an         we pirbllshed a series of audit reports
                       EXPENDITURES TASK FORCE                      invesllgation or issuance of an audit          Ihal noled iinauthor^ed transactions and
                                                                    report We also track trends In suspicious      senous Intarnal control wBaknes,ses in
                       Dunng tills repotting period, we             Iransaclioiis and their resolution and         tile Voyager card program. Our cunent
                       establlslieri a cross-componeni task loice   will report on Ihem periodically lo            audits will assess the effectiveness of the
                       io coordinate purchase card audit and        management.                                    Internal controls that were implemantHd
                       investigative work. Our Oftice of Chlel                                                     as a result of our recomniendalions,
                       information Officer developed a Computer     In addition, the task force lias a number      and the Internal conuols applied lo the
                       Assisted Assessmeni Techniques (CAATs)       of planned and ongoing aurlits. such as        recently created highway contract route
                       Ckintlnuaus Ivlonitonng System (CCMSI        audits of purchase card fransaclions al        Voyager card program.
                       where purchase card transactions are         Posiai Service distiicis and slalistically
                       analyzed and flagged based on certain        selected field units as part of tiie annual    Ttie work ol this task fon:e exeiiipRfles
                       anomalies or Indicators. The CCfilS          financial statement audits. Furtlier. at Uie   the effectiveness Ihai coordinated ellorts
                       allows users io analyze purchase card        request of management, we will audit           between OIG components can have.
                       Iransaclioiis using pre-defined queries.     Posiai Service executives' use o( piirchasa    For example, audilors and Investigators
                       Our Offices ol Investigations and Audit      cards, complementing ongoing Postal            working together led to a significant case
                       use the CCMS dala and other dala mining      Service efforts to strengthen controls.        in North Carolina, which Identified an
                       tools to Identify and review transactions    We are also auditing the effectiveness of      alleged BmbeaiemBni possibly exceeding
                       that appear io be non-compliant with         iniernal controls on Voyager transaction       $1 OO.OOD and led to ttie resignation ol
                       Postal Service policies and procedures.      canJs ttiat Posiai Service employees           one Posiai Setvice employee and tiie
                       We then ask Ihe cardholder and approving     and higlivray coniraci route suppliers         rstirement of another employee.
                       official ol the llagged transactions to      use lo purchase commercial fuel lor
                       pmvide explanations and supporting           postal-owned and lea,sed vehicles, and
                       documentatton tor tite Iransaptlms. The      supplier vehicles transporting mail lor
                       resuits of Itiese Inijuiries are evaluated   the Poslal Service, Beginning in 2002,




     21 I Semiannual Report to Congress
                                                                                                                                  30
                                                                                                                                  m
                                                                                                                                  m
                                                                                                                                  30

                                                                                                                                  a

loss or damage, we performed an audit           example, we recommended that man-                                                 m
of physical security controls at the Eagan,     agement update stand-alone emergency                                              Ci
San Mateo, and St. Louis. Missouri,             management plans, conduct required
Informafion Technology and Account-             risk assessments, and Incorporate                                                 —t
ing Service Centers (IT/ASC). While we          lessons learned from emergency pre-                                               -<
found management had implemented                paredness exercises to identify systemic                                          •«
beneficial physical security controls at the    weaknesses and strengthen emergency
IT/ASCs, we noted they could improve            management plans to respond effec-                                                o
physical security over information system       fively to emergencies,                                                            —I
assets by performing regular testing of
the badge access system in St. Louis            in March 2007, the Postal Service began                                           o
and by storing the badge system back-           consolidating its homeland security
ups in a secure, off site locafion. In San      responsibilities under the Inspection
Mateo, managers could improve con-              Service. Emergency Preparedness and
trols over physical security by regulariy       Aviation Mail Security are being realigned
                                                                                                                                  c/5
reviewing the monitoring system of the          to form the National Preparedness Group
restricted areas to verify it is functioning    (NPGj, NPG will focus on policy and guid-
properly and to take immediate action to        ance, continuity of operations planning,
correct any deficiencies that they identify     exercise coordination and evalua-
as a result.                                    tion, aviation mail security, hazardous
                                                materials and substances, emergency
 Inspection Service. We conducted two           management, facility security reviews,
qualitative assessment reviews of               and homeland security performance
investigative and related administrative        measures aligned to potential risks and
processes at the Inspection Service's           vulnerabilities.
Miami and Washington Divisions. Overall,
inspectors generally complied with basic         Security Review. We audited Postal Ser-
investigative standards while conduct-          vice security controls and processes for
ing investigations; however, we found           the Capital Metro Area and concluded
improvements could be made to overall           that the Postal Service and the Inspection
case documentation and supervisory              Service have opportunities to improve
reviews to further maximize program             security controls and processes to more
efficiency and the quality of investigations.   effectively and efficiently protect employ-
We recommended that management                  ees, customers, the mail, and crifical
make changes to Investigative policies          assets. For example, responsible security
and procedures, improve management              personnel did not always conduct facility
controls, and train Inspectors to address       security surveys accurately or annually as
the issues identified during our reviews.       required, and did not always sufficiently
                                                address and resolve deficiencies identi-
We also assessed emergency pre-                 fied during security assessments. Key
paredness efforts at each division by           recommendations included requiring
examining their Integrated Emergency            personnel to implement intemal controls
Management Plans (lEMP). Both divi-             to ensure that responsible security per-
sions' lEMPs generally provided a               sonnel complete these surveys accurately
consistent framework for an Integrated          and in a fimely manner, developing
plan as required by Homeland Security           performance measures to assess the
Presidential Directive 5; however,              achievement of security goals, and pro-
emergency preparedness at both                  viding appropriate guidance and training.
divisions could be enhanced. For




                                                                                              Octoberl,2006—Marchai.2007   1 22
f

                                           Will loviuweii llie haiiillituini a ptjienl la Ily explosive uidiiancu Imiiiu m [lie
                                           iiiailsiteiim al tho Dallas Bulk Mall Ceiiier and tuiind thai uniployees iiilsiiiindlert the
                                           iiidnaiice, Deoicled lietu Is the ordnanci; (a Worid War ll, Aiiierlcun 3 Inch Irainitig
                                           miiiid) that came oul ul a package and the special package lioldlng unit whuri! the
                                           ordnance was held.



                                           Explosive Ordnance. We reviewed the                                      the procedures for handling suspicious
                                           handling of a potentially explosive ord-                                 and dangerous mail. Management also
                                           nance found at the Dallas Bulk Mail                                      agreed to complete a site-specific lEMP
                                           Center {BMC) and found that employees                                    with procedures for handling suspicious
                                           mishandled the ordnance. Additionally,                                   and dangerous mail and to implement
                                           Dallas BMC management had not estab-                                     plan requirements.
                                           lished a site-specific lEMP to ensure they
                                           could effectively respond to bombs and
                                           suspicious mail. Management agreed
                                           to provide training and practice drills
                                           to ensure that employees understand




    23   1 Semiannual Report lo Congress
                                                                                                                                                         t/i
                                                                                                                                                         m




INVESTIGATIVE ACTIVITIES                          the OIG carries out that mission by inves-
                                                  tigating intemal postal crimes involving:
Special Agents — federal law enforce-                                                                                                                    cn
ment officers — play a key role in                • Theft, delay, or destrucfion of mail by                                                              30
maintaining America's trust In the postal           employees and contractors
system. Their charge is to investigate
internal crimes and fraud against the             • Injury compensation fraud
Postal Service and to help detect and             •   Embezzlements andfinancialcrimes
prevent postal crimes.
                                                  • Contract fraud                                                                                       t/i
The vast majority of postal personnel are         • Computer crimes                                                                                      Ci
dedicated, hardworking public sen/ants                                                                                                                   >
wtTOse daily efforts instill trust in America's   • Intemal affairs and executive investiga-
postal system. However, it takes only one           tions
incident of theft, fraud, or misconduct to        • Whistleblower reprisals
potentially diminish that trusL
                                                  • Employee misconduct and general                                                                      Ci
To identify trends and develop effective            crimes
countermeasures to prevent or minimize            • Narcotics,
future violations, we created a Counter-
measures team. This team uses trend
                                                  Investigative Analysts examine data and                                                                m
                                                  analyze trends to augment investigators'                                                               tn
surveys to capture information on Inves-
                                                  work in the field. Analysts and Special
tigations, develop jusfiflcations, and work
                                                  Agents partner to help detect and prevent
with other OIG components to ensure
                                                  fraud, provide investigative analysis and
proper implementation and monitoring of
                                                  research, review investigalive trends, and
approved countermeasures. For example,
                                                  facilitate strategic initiatives.
employee mail theft at a plant may ba
prevented or minimized with an enforced
policy prohibiting employees from car-
rying personal items like a backpack
or gym bag on the workroom floor and
allowing only clear plastic Dags for per-
sonal items. The Countermeasures team
works closely with important mailers such
as the Department of Veteran Affairs (VA).
Currently, we are working with the VAs
Consolidated Mail Outpatient Pharmacy
on proactive initiatives to identify non-
receipt of life-saving prescriptions and
possible points of loss within the postal
network.

With more than 500 Special Agents sta-
tioned in more than 90 offices nationwide,

                                                  OIG Special Amsrts pr^iare io aresl a Cliailoite poslal employee al lier residence.




                                                                                                                   Octoberl,200e —Marcli31,2007   I 24
                                                     Theft, Delay, or Destruction of Mail by
                                                    Employees and Contractors. Americans
                                                    expect their letters and parcels to arrive
                                                    on time and not be stolen, rifled, read,
                                                    or obstructed while in the possession of
                                                    Postal Service employees. That expecta-
                                                    tion and trust extends to every one of the
                                                    690 million letters that travels across the
                                                    country daily — whether it is a First-Class
                                                    Mail letter; a Priority Mail piece; Express                                                            .'odiiomtiieiirxnuolanorioa

r                                                   Mail overnight service; a magazine; or a
                                                    family heirloom sent by Registered Mail.
                                                                                                                                 •I pLuyuir resiijiiiiil farm !he Posiai Service and Ihe
                                                                                                                               M,!y Is still considering slaie prosecutior at tills imie.



                                                    Last year, the Chairman of the Board of                        responsible for all employee misconduct
                                                    Governors and the Postmaster General                           and mail theft investigations.

                                                                                                                   To handle the new investigative respon-
                                                                                                                   sibilifies, our Office of Investigations has
                                                                                                                   hired more than 260 new investigators
                                                                                                                   since April 1, 2006, and has identified an
                                                                                                                   Internal mail theft subject matter expert
                                                                                                                   within each field office. These special-
                                                                                                                   ists offer experience and guidance to
                                                                                                                   their respective field offices. Special
                                                                                                                   Agents assigned mail theft duties have
                                                                                                                   completed a rigorous training program
                                                                                                                   in preparation for taking on these new
                                                                                                                   duties.

                                                                                                                   Office of Investigations management
                                                                                                                   is taking a lead role in partnering with
                                                                                                                   the mailing industry by attending stra-
                                                                                                                   tegic meetings with key mailers (such
                                                                                                                   as Netflix, Blockbuster, and QVC) and
                                                                                                                   major financial industry associations
             OIG f e c i a l Agents Irom the Los Angeles I ielrt Ollice ariesl a postal employee tor mall Ihell.   (such as the International Associafion of
                                                                                                                   Financial Crimes Investigators) to ensure
                                                    announced their decision to complete                           a seamless transfer of responsibillfies.
                                                    the investigative realignment between                          Additionally, these partnerships will iden-
                                                    the OIG and the Inspecfion Service. This                       tify and exchange best practices and
                                                    realignment transferred all Investigations                     share loss prevention strategies.
                                                    of employee misconduct, including theft
                                                    of mail, to the OIG, The announcement                          Many of the new investigators who joined
                                                    established afimelinefor completing this                       the OIG last year were Postal Inspectors
                                                    transfer and set September 1, 2006, as                         specializing In internal crime investiga-
                                                    the starting date for our assumption of                        tions. These investigators, along with the
                                                    employee mail theft investigations. As                         existing complement of Special Agents,
                                                    of January 1, 2007, we are exclusively                         had an immediate impact. Following is a




    25   I     Semiannual Report ta Congress
                                                                                                                                                         30
                                                                                                                                                         m
                                                       tl'Jt*^
                                                                                                                                                         o
mail theft investigation that occurred in
this reporting period.                                                                                                                                   CD
• $50,000 in Stolen Credit Card Charges
  by Letter Carrier Uncovered. A manager
  oi a self-service storage facility in Fort
  Worth, Texas, contacted us after one
  of his units, rented by a Letter Carrier
                                                                                fr\N^
  overdue on payments, was opened
  and found to contain thousands of
  pieces of mail.
                                                the OKi iiikK-i all alieyaiiuns ol tlolay, iteliiitliuii, oi
                                                "dumping" ol any class ol mail as a setlous mallet,
                                                                                                                                                         3
                                                                                                                                                         n
   Special Agents recovered deliverable         following describes a specific Invesfiga-
   mail dating back to 2002, along with         fion in Arizona.
   numerous rifled First-Class Mail letters
   containing credit cards. The investiga-      • Arizona Postal Employee Indicted lor
   tion revealed that the Letter Carrier          Dumping Mail. An Arizona Manager
   had stolen the contents of numerous            reported that a Rural Carrier Associate
   First-Class Mall letters containing credit     had discarded mail at a post office.
   cards, and had incurred fraudulent             Our investigation revealed that the
   charges of approximately $50,000. It           Rural Carrier Associate put mall In a                                                                  c/>
   was also determined the Letter Carrier         trash bag and threw it in a Dumpster.
   stole hundreds of free samples, pre-           Discarded mail included 257 pieces of
   scription medicine sent via the Postal         First-Class Mail, 423 pieces of Stan-
   Service, magazines, and other types            dard Mail, and 10 pieces of Nonprofit
   of mail.                                       Standard Mail. The dumping occurred
                                                  regularly when he could not fit the
   The Letter Carrier resigned from the           mail into his delivery vehicle or if the
   Postal Service and was indicted by a           addressees' mailboxes were full.
   federal grand jury in February 2007.

Delay or destmction of mail entrusted
to postal employees is a serious federal            TITLE 1 8 , UNITED STATES CODE, § 1 7 0 3 . DELAY QR DESTRUC-
crime punishable by up to 5 years in                TION OF M A I L OR NEWSPAPERS
prison. Regardless of the class of mail,
                                                    (a) Whoevet, being a Postal Setvice officer or employee, unlawfully secretes,
all mail has value and postage has been             deslroys, details, delays, or opens nny letter, postal catd. package, bag, or mall
paid by the mailer who expects that the             nnliiistad to him or whtoh shall come Into Ills posaesslnii, and which was intended ID
mail will be delivered in a timely manner.          be conveveil Dy mall, nt carried ot deliveted by any 1 ertet Carrier or olher employee
The OIG takes all allegations of delay              cl Ihe Postal Service, ot lorwartled tliioiigli ot dellveteil from any post ofllce or
                                                    slalion Itienaol eslabilstied by authofily ol the Poslniaslet Genet al ot ttie Poslal
destruction, or "dumping" of any class of
                                                    Setvice, shall be fined undei Itiis tille ot Imiirisoned nol more Ihan live years, ot both,
mail as a serious matter.
                                                    (b) Wioever, being a Poslal Service oflcer or eniffloyee. Improperiy rietains. delays,
During the reporting period, we found               or destroys any newspaper, or permits any oUiet person lo delaln. delay, or destroy
instances of employees "dumping"                    Ihe same, or opens, or permrts any olher person io open, any mail Or package ol
                                                    newspapers nol direcled lo ihe oHice wDere he Is employed: or
various classes of mail in Michigan,
Texas, and Virginia. After our investiga-           Wtioever. withoui authority, opens, or desttoys any mail or package of newspapers
tions, management took administrative               not tltrecied lo him. shall Ixi lined under Ihis tiile or impilsonod noi more than one
action ranging from letters of warning to           yoat, ut both.
proposed removals of employees. The




                                                                                                                Octoberl,2006—Man*31,2007         I 26
                                            • In December 2006, the Rural Carrier         During this reporting period, injury com-
                                              Associate was indicted for Delay or         pensation fraud investigations resulted
                                              Destruction of Mail and was issued a        in more than $79 million in cost savings/
                                              Notice of Removal.                          avoidances. Investigations by Special
                                                                                          Agents led to arrests of 13 suspects and
                                             Injury Compensation Fraud. The Postal        261 administrative personnel actions,
                                            Service funds workers' compensation           inciuding removals, letters of warning,
                                            benefits for employees who sustain            and claim terminations. Following are


r
                                            job-related injuries. The monetary and        examples of injury compensation fraud
                                            medical benefits the Postal Service paid      cases investigated during this reporting,
                                            to workers' compensation claimants            period.
                                            totaled $1.2 billion in 2006. At the end of
                                            2006, the Postal Service's estimated total    • Bogus Injury Claim Uncovered, Yielding
    INJURY COMPENSATION
                                            liability for future workers' compensation      $1.3 Million Cost Avoidance. A Louisiana
    FRAUD INVESTIGATIVE
                                            costs was more than $7.8 billion. This          Flat Sorter Machine Clerk (FSM Clerk)
    RESULTS
                                            was an increase of $342 million over the        submitted an OWCP form claiming she
    Oaober 1,2006 —fvlarch 31.              previous year. Administered by the DOL,         had a medical condition of "plantar
    2007                                    the OWCP provides direct compensafion           wart and ganglion cyst," and therefore
    •     1,143 fraud investigations        to providers, claimants, and beneficia-         could not perform her required duties
          resolved                          ries. The Postal Service later reimburses       to stand on concrete floors 8 hours per
                                            OWCP In a process known as "charge-             day lifting and pushing heavy equip-
    •     S79 million in compensation
                                            back billing,"                                  ment. Thereafter, the OWCP placed
          payments avoided
                                                                                            her on the long-term Periodic Roll for
    •     tSarrests                         Most employees receive workers' com-            total disability.
                                            pensation benefits because of legitimate
    •     12 indlctmenls/lnformallons
                                            job-related injuries. However, a small per-     Our investigators videotaped the FSM
    •     [} convictions'                   centage of postal employees and health          Clerk engaging in various acfivifies
                                            care providers abuse the system. These          exceeding her stated limitations and
    •     261 personnel actions taken
          by postal management
                                            schemes cost the Postal Service millions        indicating the Clerk's ability to perform
                                            of dollars each year in compensation            postal work. After our Specia! Agent
    * Convictions do not                    payments, medical costs, administrafive
    necessarily reflect the results ol                                                      showed the video to the Clerk's physi-
    invesligations fram this reporting
                                            expenses, and enforcement costs.                cian, he Issued a revised OWCP form
                                                                                            documenting restrictions to allow the
                                         We initiate criminal investigations when
                                                                                            Clerk to return to work in a limited-duty
                                         it is suspected that Individuals or health
                                                                                            capacity.
                                         care providers are defrauding the DOL!s
                                         Federal Employees' Compensation Act
                                                                                            The Postai Service thereafter extended
                                         benefits fund. Criminal prosecutions are
                                                                                            a job offer to the FSM Clerk matching
                                         an effective deterrent to fraud and may
                                                                                            the physician's imposed limitations.
                                         permanently prevent the payment of any
                                                                                            The FSM Clerk did not respond to the
                                         additional compensation. Any cases that
                                                                                            job offer or to numerous requests to
                                         may require administrative action are
                                                                                            complete OWCP documentafion.
                                         referred to the Postal Service and the
                                         DOL. Special Agents work closely with
                                                                                            On February 7, 2007, the DOL termi-
                                         Injury Compensation Specialists from
                                                                                            nated the FSM Clerk from the
                                         the Postal Service on all phases of these
                                                                                            Periodic Roll for failing to respond to
                                         investigations.
                                                                                            a valid job offer from the Postal Ser-
                                                                                            vice, saving the Postal Service more




        27 I Semiannual Reportto Congress
                                                                                                                                                                                   m
                                                                                                                                                                                   30

                                                                                                                                                                                   n
than $1.3 million in future payments.             Craft Business Scam Ends, Saving
The Postal Service is in the process              $900,000in U}ng-Term Expenses. In Jan-
of removing the FSM Clerk from the                uary 2007, a former Mail Handler and                                                                                             30
employment rolls for failing to accept            former Postmaster were sentenced
a valid job offer.                                in New York for committing fraud to
                                                  obtain federal workers' compensation
Civil War Collector Ordered to Pay                benefits. Each defendant was fined
$260,000 in Restitution. A former Virginia        $1,500, Each was also ordered to pay
City Letter Carrier allegedly injured his         $15,240 In resfitufion.
back and hip. After the employee's
physician wrote that the City Letter             The joint investigation by Special
Carrier could not drive a vehicle more           Agents and Postal Inspectors revealed
ihan 1 hour per day, nor stand, walk,            that the former Mail Handler failed to
kneel, or bend more than 2 hours per                                                                                                                                               m
day, he was given a sedentary limited-
duty job at his post office in 1998.

The City Letter Carrier's stated physical
limitations were directly contradicted
after our Special Agents followed him
                                                                Catching the                                                                                                       m
                                                                                                                                                                                   c/>
as he drove 525 miles from his home
in Virginia to his parent's house in
Georgia over a 10-hour period. Spe-
                                                                Big One
cial Agents also showed he had no                                            rormcrmail liandlcr,
difficulty bending and kneeling after                                        chiiniin^ EL> he Idt^lly
                                                                           • .ilisiil>lt:il rmiii it wiirk-
obtaining two full days of videotape                             icliiltil iitjiirv, ii:i;civi;d \iinki.T5'                                             . , d.lha"d!-«-
showing the allegedly disabled City                              uoiiipfnsalliiii bL-iieSiti foL-iii<irt'
Letter Carrier using a metal detector to                         limn 7 >v!ir!i. .;ii1kcUn[p S2IK,II00
                                                                 Ibr lust \viLm.-s.
collect Civil War artifacts from Northern
Virginia battlefields.                                           Surv"cillQi]i;c by OIG 'apcciul agl:j1t^              In MiircJi 2005* ihc ckiJni:iiH wni
                                                                 I'L'vciili^d ili.il lliu man v^"3i' a h k to          cntititlL'd j[i Whi?c!in^. Weal
                                                                 iTiL^I iif iiiul hind J 4Jl-pijiiiiil lish            Vir^iii[ii, (in ^j'l Eci<m> counls nf
As a result of the investigation the City                        abiKird ii i^luirliT hoal in ihi- A i b n i k         workers' canipL'iisalion Tryirid. He
Letter Carrier was removed from the                              (Igfiiii. Agenls ul.so I'lmndlhiii ihc                wiir. Inlcr si^nlciici^J i<> ^ yt^na
Postal Service. In October 2006, he                              L'LiiiiL.ihl wii^ ;in active doer liiinkT.            in iL'doriil p r i ^ m . rnn:d 5^/J()0,

pleaded guilty to committing fraud to
                                                                                                                       in ifsiiiLiiimi Uf Ihc wcirki^rs'
obtain workers' compensation benefits                                                                                  c^mipi^Dsinioji prduritin. "rhe
in the Western District of Virginia. In                                                                                l?llJi^^la^n's^^l^rkcls• ajmfujiisjjtlon
January 2007, the City Letter Carrier                                                                                  ht;iK'fils uuftf leriiiiii;iri;iL sjiviiv*
                                                                                                                       Ihc PoMyj Sorvicc S S I M I U in
was sentenced to 1 year of home
                                                                                                                       Tuuire ptiynicnis.
confinement and 3 years' probation,
and was ordered to pay $260,765 in
restitution.




                                             Diiiliiy Ihis leiwiliiii! pmiinl, liiiuiy compensation Irtiud iiiviisllv)ii;i()iii> ntsiili-iu in iiidie Itidii
                                             $79 million in cost savings/avoidances,
                                                                                                                                                                                        I
                                                                                                                             Octoberl,2006 —March31,2007                  I   28
                                       report income from her craft business                         found responsible for missing postal
                                       while receiving workers' compensa-                            funds, we report this to management
                                       tion benefits. The former Postmaster,                         for appropriate administrative action. In
                                       who lived with the claimant, was an                           cases that warrant criminal prosecu-
                                       accomplice in her fraudulent workers'                         tion, offenders not only face the loss of
                                       compensation scheme, as he had                                their jobs, but also may face jail time and
                                       assisted her in the craft business. He                        court-ordered restitution.
                                       was demoted from his Postmaster
                                       position to that of a Letter Carrier.                        The Postal Service uses the International
                                                                                                     Merchant Purchase Authorization Card
                                       Following the convicfion, the claimant's                     (IMPAC), Voyager Fleet, and Employee
                                       workers' compensation benefits were                          Travel Cards to manage common recur-
                                       terminated, thereby saving the Postal                        ring expenditures. The IMPAC program
                                       Service $902,545 in future workers'                          processed approximately $267 million
                                       compensation payments.                                       in transactions during this reporfing
                                                                                                    period, and earned the Postal Service
                                     Embezzlements and Financial Crimes.                            approximately $1 million in refunds.
                                    Employee embezzlements include those                            The Voyager Fleet Card Program pays
                                    in which postal employees steal money                           for fuel, oil, repair, maintenance, and
                                    from cash drawers, manipulate postal                            washing of more than 214,996 postal
                                    money orders or money order funds, or                           vehicles. This program processed more
                                    falsify financial retail records. When post                     than $186 million In transactions during
                                    offices experience unusual or significant                       this reporting period, with documented
                                    shortages, our Investigators employ vari-                       savings and cost avoidance to the Postal
                                    ous Investigative techniques to uncover                         Service of almost Sl5 million. Following
                                    embezzlements and report improper or                            are examples of financial fraud cases we
                                    lax procedures to management for cor-                           investigated during this reporting period;
                                    rective action. When employees are




                                    New Yoih Specliil Ayenia temvet mail piirsnanl In a seaidi warrant nn an employuc's home.




29 I Semiannual Reportto Congress
                                                                                                                                          C/)
                                                                                                                                          m
                                                                                                                                          z

$200,000 in Restitution Ordered in Postal      Center Technician (Technician), who
 Vehicle Repair Scam. After our 2006
                                                                                               ^                                     >    m
                                               serviced about 10 vending machines
investigation, the Owner, General              in the New York area. According to a
                                                                                                   CONTRACT FRAUD                         a
                                                                                                   CAN OCCUR AT                           J3
Manager, and Administrative Officer            Postal Service audit, the Technician                VARIOUS STAGES                         —H
of a California auto body shop signed          had a reported shortage of more than                DURING THE LIFE OF
plea agreements and agreed to pay              $4,400. Records for every periodic                  THE CONTRACT:                          2
more than $134,000 in restitution              audit conducted from 2003-2006 had                                                         <
                                                                                                   Pre-Solicitation Phase
for making false claims against the            indicated shortages.                                Aitenipted/aclu.il bribes              m
Postal Service. The auto body shop                                                                 and kickbacks                          t/i
employees submitted inflated accident         A Speciai Agent conducted "test buys"
repair claims and estimates to a Postal       on one of the vending machines the
                                                                                                   Solicitation Phase                     a
                                                                                                   ialsiticalion ol
Service California Accident Investiga-
tor The Accident Investigator received
                                              Technician serviced. Of 12 marked                    ceniflcaljons such as                  5
                                                                                                                                          •H
                                              S20 bills, only seven were accounted                 Woman/Minority Ovuned                  <
free repair sen/ices on his vehicles          for in the deposit monies. Analysis of               Business, bid submissions              m
and received a percentage of checks           the vending machine data attributed                  hy nonexistent companies.              J>
                                                                                                   kicklacks, bribery.
made out to Postal Service claimants.         to the Technician revealed that losses
                                                                                                   confiicls of rnteresl, and/or
                                                                                                                                          a
                                                                                                                                          ^
The former Accident Invesfigator also         incurred from October 2003 through                   bill rlggini].                         <
signed a piea agreement and agreed            June 2006 totaled more than $65,000.
                                                                                                   Proposal Phase                         ^
to pay approximately $114,000 in res-
                                                                                                   Blri-rlt](|lnri among
fitufion.                                     While under Invesfigafion, the Techni-               contractors, including bid
                                                                                                                                          m
                                                                                                                                          C/)
                                              cian retired from the Postal Service,                rotation, Sporadic bidding.
$14,000 Money Order Scam Results in           In January 2007, the Technician was                  Inkeii bids, market
Postmaster's Removal A Michigan               indicted in federal court on one count               allocation, and/or change-
Postmaster was removed, in October            of Misappropriation of Postal Funds,                 Older schemes.
2006, for misusing postal funds. Our
                                                                                                   Negotiafion and
investigation determined the Postmas-        Contract Fraud. The Postal Service pres-              Award Phase
ter deviated from policy by accepting       ently manages more than $42.4 billion                  fill! ikjuinc] among
checks as payment for money order           in poslal contracts. These contracts                   contractors, including tiiil
purchases. The Postmaster issued            range from mulfimillion dollar national                rofafion. sporadic bidding,
more than $14,000 in postal money           contracts for services such as transporta-             token bids, market
                                                                                                   allocation, and/or ctiange
orders to her ex-husband and                tion networks and IT infrastructures to
                                                                                                   order sctiemes.
accepted non sufficient fund (NSF)          local contracts for supplies and services
checks as payment. The Postmas-             at individual postal facilities. The sheer             Contract Performance
ter was aware of the policies that          volume of contracts (48,457) and their                 Phase
                                                                                                   Cost mischarging including
resfi-icted money order sales to cash       huge dollar value provide opportunifies for
                                                                                                   material antl labor
and debit card tender. Further, she         contractors and employees to defraud the               mischarging, defective
continued to accept NSF checks from         Postal Service. We aid the Postal Service              pricing, la'jie invoices.
her ex-husband after district manage-       by assessing its management of acquisi-                over billliiri, duplicate
ment advised her that his checks were       fions and contracts and invesfigafing                  billing, Iraud u lent ly
being retumed,                              allegafions of contract improprieties.                 ohartjlng "extra costs" -
                                                                                                   lor work not patformed,
Self-Service Postal Center Techni-                                                                 and/or product/setvice
                                            Contract fraud is defined as any willful
                                                                                                   SLbstiluiion.
cian Indicted on Misappropriation of        or conscious wrongdoing relafing to a
Postal Funds. We received informa-          contract that adversely affects the Postal
tion regarding a Self-Service Postal        Sen^ice's interests. Following are                                                      •-




                                                                                          0clabef1,20C»—March31,2007               I 30
                                           examples of contract fraud that we look
                                           to uncover.

                                           • Overbilling, billing for services not ren-
                                             dered, and/or fraudulently charging for
                                             "extra costs"

                                           • Making false statements and/or false



r
                                             claims
                                                                                              Tliii Hoiislon Field Ollice prasenletl Cerlliicales ol Appreciation
                                           • Misrepresenting material facts                   to the East Memphis Piircliaslng Setvice Ccnief group tor iheir
                                                                                              assistance wilh an invesiigaiion thai netled a $384,000 check
                                           •   Bribes/gratuities                              to Ihe Houston District and eliminated a possible $3.0 million
                                                                                              auBrcharga over the potential lO-yaar life tJtiha caniiact,
                                           • Falsifying records
                                           • Arranging for secret profits, kickbacks,              information for a $41.4 million postal
                                             or commissions                                        contract, agreed to pay the Postal
                                           • Conflict of interest.                                 Service $1.5 million in January 2007.
                                                                                                   The Posiai Service let a contract in
                                       We joined the National Procurement
                                                                                                   which the vendor was to supply 200
                                       Fraud Task Force, which was formed in
                                                                                                   machines that could verify information
                                       October 2006 by the Criminal Division
                                                                                                   provided by bulk mailers. Previously,
                                       of the U.S. Department of Justice. The
                                                                                                   the Postal Service had no means to
                                       national task force promotes the "eariy
                                                                                                   verify that mail was properly sorted
                                       detection, prevention, and prosecu-
                                                                                                   and weighed.
                                       tion of procurement fraud associated
                                       with increased contracting activity for
                                       national security and other government                      During contract negotiations In 2000,
                                       programs." In conjunction with this ini-                   the vendor's representatives knew the
                                       tiative, various OIG field offices joined                  company's standard cost for materials
                                       regional working groups, formed by U.S.                    was steadily decreasing, but did not
                                       Attorney's Offices, to coordinate and                      inform the Postal Service about the
                                       organize procurement fraud investigations                  lower cost. By September 8, 2000,
                                       and implement the strategies and mission                   the standard cost for material was
                                       of the national task force. These regional                 $35,900 per machine, compared to
                                       working groups will also facilitate the                    the proposal price of $41,000. Since
                                       exchange of information among agencies                     the vendor knew of the lower cost and
                                       at the regional level.                                     did not disclose it to the Postal Service
                                                                                                  before the end of contract negotia-
                                       During this reporfing period, Speciai                      tions, a defective pricing issue existed.
                                       Agenls conducted 137 contract fraud
                                       investigafions, resulting in more than                     Because of our invesfigafion, the U.S.
                                       $7.2 million in funds returned to the                      Attomey's Office issued a demand
                                       Postal Service, Following are examples                     ietter to the contractor for $3,356,614
                                       of contract fraud investigated during this                 in damages (including the loss, plus
                                       reporting period.                                          treble damages and penalties) on
                                                                                                  November 14, 2005. The $1.5 million
                                       •        Defective Pricing Investigation Nets Postal       agreed-upon settlement resulted.
                                               Service $1.5 Million. A postal contrac-
                                               tor, who submitted defective pricing




    31   I Semiannual Reporf to Congress
                                                                                                                                                                   30
                                                                                                                                                                   m
                                                                                                                                                                   m
                                                                                                                                                                   30

                                                                                                                                                                   Ci

$384,000 Overcharge by Postal Contrac-          Special Agents met with Postal Service
tor Uncovered. A Forensic Examiner's            contracting officials, who agreed with
proactive initiative determined a postal        the findings. The contracting officials                                                                            3D
contractor was underpaying the Postal           then issued a letter of demand to the
Senyice for the waste paper and card-           contractor for $384,394. If the incor-
board it picks up, and charging the             rect billing had continued, the Postal
Postal Service to haul away the recy-           Service would have been overcharged
clables when payment for this service           by more than S3.5 million over the
was already included in the contract.           potential 10-year life of the contract.                                                                            C/3
                                                On December 21, 2006, the contractor
Our invesfigators confirmed that the            agreed with our findings and issued a
contractor was using the wrong rate             check to the Postal Service for the full
and charging separate hauling fees.             amount.




                                                                              ,.S. Department o*J-'"=^
                                                                                                  jellreyft''^'
                                                                                                 Wieo States ^ " ' " 2                                             m
                                                                                            (^wtwf.t'.rt:*"^^                                                      c/)
                                                                                                        juacmCenlei




                                               RELEASE
                                       PRESS                                                                    PuOUcMla"!
                                                                                     f^lrfanuwm. Contact
                                                                                                             (^QfflSIJ-*
                                                                                          mairt'sP'"*'"
       K,nlMWDlME«B.«>S^
                     la.jow
       tuesbW.lW"^




                                               . r ^ , ^ wnieiwi^i Willi •u        .yna h i n ^ " ^ '   " _ ^ ^.-^,3^ ii




         U.S. Department at Justices

                                                                                                                                                               •
                                                                                                                             Octotwrl, 2006 —Marx;h 31.2007 f 32
                                   Computer Crimes. As the Postal Service                 Special Agents Uncover neariy $450,000
                                   information infrastructure expands and                 in Uncollected Postage. During a
                                   the number of products and services                    6-month period, an Alaska postal
                                   available over the Internet increases,                 employee failed to collect the appropri-
                                   the agency faces increased exposure                    ate postage due on business accounts
                                   to online risks. Unauthorized access to                and then took the postage statements
                                   Postal Service networks and improper                   home to dispose of. Special Agents
                                   usage of computers by employees                        arrested the postal employee and
                                   are just two types of computer crimes                  searched his residence pursuant to
                                   to which the Postal Service may fall                   federal warrants.
                                   victim. Training staff to investigate these
                                   computer crimes is a top OIG priority to               A Special Agent from the Computer
                                   ensure the Postal Sen/ice's networks and               Crimes Unit analyzed data from
                                   databases remain secure.                               the employee's personal computer
                                                                                          seized during his arrest. The analysis
                                   Our Computer Crimes Unit initiates inves-              revealed a spreadsheet identifying 503
                                   tigations and provides digital forensics               bypassed mailings valued at nearly
                                   support to our investigafions. During this             $450,000. Of that amount, the Postal
                                   reporting period, the Unit proactively                 Service recovered approximately
                                   generated 35 investigations — 12 of                    $80,000 either before or during the
                                   which pertained to felony allegations. The             investigafion when business mailers
                                   Unit also responded to more than 450                   and other postal employees discov-
                                   requests for investigative support. Fol-               ered account discrepancies. The
                                   lowing are examples of computer crime                  employee failed to collect the postage
                                   investigations.                                        because he felt he was unfairly passed
                                                                                          over for promotions. Upon conclusion
                                                                                          of the investigation, the Postal Service
        WHISTLEBLOWER ACTIVITY                                                            began collecting the remainder of
        111 the Postal Service, a wliisllebiowei Is an employee or an applicant for       the unpaid postage the investigation
        employment who reports misconduct lo people or entitles that fiave the            identified. The postal employee was
        power to lake correclive action, Gener^ly, Hie misconduct Is a violation          sentenced to 30 months in jail and
        of law. mle. regiilatioti. and/or a direct ttireat lo pLibllc Interest — fraud.
                                                                                          3 years of probation.
        Iiealth, safety violations, and corruption are just a few exani|3l0S. In order
        to be eligible for whistleblower prtitection, llie employee nuisl reasonably
        believe fiis or her employer has comiriltted a violation of some law, rule,       Postal Employee Gets 6 Vi Years in Jail
        or regulation,                                                                     for Child Pomography Surfing. During a
                                                                                          web-log review and hard drive imaging
         Whistleblower Activities for this Reporting Period:                              of a post office computer, our Com-
                                                                                          puter Crimes Unit discovered the child
         Retaliation allegations received
                                                                                          pornography surfing activity of a postal
         (including congressional inquiries):                                   47
                                                                                          employee. The Kentucky employee
         OIG investigations miliated:                                                     was using the workroom floor com-
         Investigations closed with no finding ot retaliation:                   .5.      puter almost 1 hour per day to visit
                                                                                          websites containing child pornography.
         Open Inves^gations:                                                    13
                                                                                          In December 2006, a Western District
         DIG found reprisal:                                                              of Kentucky judge sentenced the
         Number of allegalions reviewed                                                   former postal employee to a felony vio-
         bul closed without further action:                                     35        lation. The employee was sentenced to
                                                                                          78 months of federal detention, with




33 1 Semiannual Reportto Congress
                                                                                                                                                                                        30
                                                                                                                                                                                        m
                                                                                                                                                                                        c/3
                                                                                                                                                                                        rn

                                                                                                                                                                                        30


                                                                                                                                                                                        CT

                                                                                                                                                                                        CT
                                                                                                                                                                                        30




                                                                                                                                                                                        C/3

                                                                                                                                                                                        CT




                                                                                                                                                                                        C/3


Sonifi ol tiiti niwrciianOlse ta:ovfiie(i urn iiiy a asaii-ti wtiiiaiil tweeted al a San Ffaiit:lsi:<i Supeiuisur's nisiOeiicu. Ihe SupBivisot
aliegedly stole apptuiimalety S4O,0UU m nrerchanilise troiii the mall in iale 200G,


     7 years of supervised release upon                                           as an addifional act of reprisal for her
     completion of tfie temi, and a $100 fine.                                    disclosure.

Intemal Affairs and Executive Investigations.                                    The investigation disclosed insufficient
We conduct criminal and administrative                                           evidence to support the claim that the
investigafions of Postal Service execu-                                          Postmaster denied the complainant
tives, Inspecfion Service personnel, and                                         entry into the Associate Supervisor
alleged whistleblower reprisal. Among                                            Program in reprisal for her protected
the investigative activity for the reporting                                     communications. However, the investi-
period was the following case,                                                   gation found prima facie evidence that
                                                                                 the complainant's protected disclosure
•     Whistleblower Reprisal Investigated.                                       contributed to the Postmaster's deci-
     Our Hotline received a complaint of                                         sion to reassign her to a Letter Carrier
     possible whistleblower reprisal. The                                        position.
     complainant alleged that her Postmas-
     ter removed her from her position as                                        We forwarded the findings to the
     an acting Supervisor, and reassigned                                        Postal Service, In March 2007 the
     her as a Letter Carrier, in reprisal for                                    Postal Sen/ice offered the complain-
     reporting that her Supervisor changed                                       ant back pay and corrected her leave
     color codes (indicafing urgency) on                                         record.
     the mail. The complainant also alleged
     that the Postmaster denied her entry
     into the Associate Supervisor Program
                                                                                                                                                                         .         ^



                                                                                                                                                 Octoberi.ZOOe —March31,2007   I   34
L




b

                                                                                                                                                                   1
                                    l,e«er carrier gets 23 yea^^-^                                                      - S f J l S B
                                                                                                                      ..oo5.t.ev---:;:^;?::^.
                                                                                                                      ,,^tamsW"'^^ '"';,„,<,Ui«.b.t'i^
                                                                                                                      onto vear. "^•^^J,_„,ric»-<1"'"J-
                                         .VSTAK-^BIXIERSTM*
                                                                             in. yo'iiiE p™«'"""; i„ New VOT*i "I'i


                                         i„prisonl^«l-^y'";„„„,ing.teV
                                                                                                                          ,ion 1^^' :*'^"'\r L l involved mvoi.-
                                                                                                                                                                   1
                                             „,,,.. .2Wn>ehpn^,^„«n,.                                                     ^•^""^TVfsp'-'^-^'^r''
                                                                               U ^ ^ W " ' " ^ ;:;„*, ^»rcbeao«.




                                         .     .   .     _     .     .   '       -     .     —        —        -      -        '


                                         Employee Misconduct and General Crimes.                          Publisher's Mailing Rate Fraud Results
                                         Misconduct on the part of Postal Service                         in Letter of Demand for $94,000. We
                                         employees may include the following                              received a referral about a Florida
                                         offenses committed in the course of their                        magazine publishing company's mail-
                                         official duties: misuse of Postal Service                        ing account. A follow-up review by a
                                         computers; destruction or theft of Postal                        Miami Business Mall Entry Unit Clerk
                                         Service property; falsification of official                      revealed the publisher appeared to be
                                         documents/forgery; theft of funds;                               inflating the number of subscribers to
                                         abuse of authority; sabotage of opera-                           qualify for periodical mailing rates. For
                                         tions; narcofics usage or sale of drugs                          example, the publisher paid $1,760 to
                                         while on duty; and alcohol abuse. To                             mail 4,172 magazines at the periodi-
                                         focus on these areas, we created a new                           cal rate. Without that rate, the mailing
                                         program area called Employee Miscon-                             would have cost fiie publisher $3,496,
                                         duct and General Crimes. Following are
                                         examples of work performed under this                            Individuals associated with ths pub-
                                         program area.                                                    lisher's circulation department told our
                                                                                                          Special Agents they knowingly iied by
                                                                                                          representing that the magazine had 50
                                                                                                          percent more paid subscriptions than it
                                                                                                          actually had. This resulted in more than
                                                                                                          $100,000 in unwarranted discounts.




    35 I Semiannual Report to Congress
                                                                                                                                 3D
                                                                                                                                 m
                                                                                                                                 c/3
                                                                                                                                 m
                                                                                                                                 30

                                                                                                                                 CT


                                               Four additional postal employees were
The Department of Justice agreed to            involved in placing bets, collecting                                              CT
negotiate a settlement between the             winnings, or othenwise facilitating the                                           30
publisher and the Postal Service. On           illegal operation, A Jefferson County
October 19, 2006, the U.S. Attorney's          grand jury indicted all the postal
Office issued to the magazine pub-             employees. The Carrier Technician
lisher a Letter of Demand for $94,175.         was placed on indefinite suspension,
                                               pending the outcome of the legal                                                  m
Fraudulent $10 Million TortClaim               proceedings. On March 15, 2007, the
Uncovered. We received a referral from         four postal conspirators pled guilty to                                           CO
the Inspection Service that an individ-        misdemeanor professional gambling
ual submitted a $10 million tort claim         diarges and were fined. Administrative                                            CT
for a motorcycle accident involving a          action against the postal employees is
Postal Service vehicle in March 2004.          [Dending.
                                                                                                                                 3>
Our investigation revealed the indi-        Narcotics. Narcofics (illegal dmgs and                                               O
vidual fraudulently obtained motorcycle     prescription drug abuse) in the wori<place
insurance through his girlfriend, and       can negatively impact employee pro-
neither the individual nor the girifriend   ductivity and safety. Illegal drugs affect
had a valid permit or license to operate    employee judgment and can increase
                                                                                                                                 t/i
a motorcycle. In addifion, the individ-     stress levels, leading to acts of violence
ual's California driver's license was       or hosfility. Use and sale of illegal drugs
suspended. Numerous surveillances           by employees on duty can also contribute
confirmed the individual was exceed-        to other crimes such as theft, embezzle-
ing his claimed limitations.                ment, and worl*;ers' compensation fraud
                                            claims.
The case was settled and judgment
rendered for the government, deny-          Our mission in dealing with illegal drugs
ing payment claims to the individuai.       in the workplace focuses on detection,
In February 2007, we received a             investigation, and prevention. Detection of
letter from the U.S. Attorney's Office      illegal drug sales, distribution, and usage
stating that the government attained        in the workplace is the first step in this
a $10 million cost avoidance lor the        overall approach. Employees selling or
Postal Service.                             distributing illegal drugs are vigorously
                                            investigated and prosecution is pursued.
Colorado Carrier Technician Finds           Postal employees who are using illegal
Gambling Does Not Pay An investiga-         drugs are normally referred to the Postal
fion by Special Agents, the Colorado        Service Employee Assistance Program
District Attorney's Office, and local       for treatment.
law enforcement resulted in the
indictment of a postat employee and         Prevention remains a key long-term strat-
others on charges relafing to illegal       egy for providing a safe and drug-free
gambling. The investigation revealed        work environment for postal employees.
approximately $80,000 in bets were          Deterring employee illegal drug use is the
placed weekly through the enterprise.       desired outcome. Following is a typical
While on duty, the Carrier Technician       illegal drug investigation involving a postal
                                            employee.
collected bets and paid winnings on
sporting events from his postal vehicle.
                                                                                                                      .      ^



                                                                                            October 1.2006 — March 31,2007
                                             Illinois Letter Carrier Arrested and                       Canier Observation Program. Misconduct
                                            Removed for Selling Marijuana from                         by postal employees who are on duty
                                            Postal Vehicle. Working jointly with the                   and in uniform casts the Postal Service
                                            Illinois Police Department, Specia!                        in a negative light. This improper conduct
                                            Agents arrested a Letter Carrier for                       includes, but is not limited to, Letter Car-
                                            state narcotics violations after he was                    riers purchasing or consuming alcohol in
                                            observed selling marijuana from his                        public places, selling illegal narcotics from
                                            postal vehicle while on duty. Subse-                       their postal vehicles, driving with sus-
                                            quent to his arrest, a search warrant                      pended state drivers' licenses, deviating
                                            was served at the Letter Carrier's                         from their routes to conduct non-postal
                                            residence. Special Agents seized drug                      business — all while on duty and in
                                            paraphernalia and several bundles of                       uniform. Letter Carriers who drive postal
                                            Bulk Business Mail, which the Letter                       trucks while intoxicated or under the influ-
                                            Carrier had not delivered to customers                     ence of a narcotic also present a threat
                                            on his rOLite, The Postal Service issued                   to others, themselves, and Postal Service
                                            the Letter Carrier a Letter of Removal,                    property while placing the security ot the
                                            effective February 16, 2007                                mail at risk.

                                                                                                       On September 1, 2005, our Office of
                                                                                                       Investigations initiated the Carrier Obser-
                                                                                                       vation Program based on allegations of
                                                                                                       Letter Carrier misconduct. We received
                                                                                                       information from various sources nation-
                                                                                                       wide, including:

                                                                                                       • Hotline allegations
                                                                                                       • Surveillance of postal vehicles parked
                                                                                                         outside bars or similar establishments
                                                                                                         for prolonged periods
                                                                                                       • Contact with Postal Service Supervi-
                                                                                                         sors, Managers, Postmasters, and
                                                                                                         District Managers.
                                                                                                       In addition, Special Agents reviewed
                                                                                                       Overtime Usage Reports and Managed
                                                                                                       Service Points Exception Reports to Iden-
                                                                                                       tify excessive early, late, or missing scans
                                                                                                       re-occurring for the same Letter Carriers
                                                                                                       and to compare workload and resource
                                                                                                       utilizafion.

                                                                                                       As a result of investigative activity by
                                                                                                       Special Agents, postai management took
                                                                                                       corrective action against 293 employees,
                                                                                                       as of March 31. 2007. Actions ranged
                                                                                                       from reprimands and suspensions to
                                                                                                       removal.
               Special agenls louiitl evitlence i.ii a marijuana "grow operation" when searching Uie
               house ol a Leller Canier suspeoleO ol using anri selling narcoiics.




37   1 Semiannual Reportto Congress
                                                                                                                                                      t/i
                                                                                                                                                      m
                                                                                                                                                      30

                                                                                                                                                      Z
                                                                                                                                                      CT



"MASTER IMPOSTER"                    captured In the movie. "Catch       Oftice of InspBclof General Special                                          m
                                     file If Vou l^n." was sentenceiJ    Agents and Postal inspectors                                                 CT
SENTENCED TO 303                                                                                                                                      30
                                     rBCfUfliy 200? in Denver Distnci    jointly investiijated nuntBtoiJS
YEARS FOR FORGERY
                                     Court io 303 years In prison. The   feiged check iiansacllons al
A chedi lorger WIKI fasfiioned       forger was also ordered to pay      ntulliple post oflices in Caiifomia,
himself afler Frank Ahagnale. the    $129,171 in cesttiutlon lo the      Colorado. Arizona, Minnesota,
ImpersonaiiM wliose life story was   Poslal Service,                     Iowa, and Utah for Itie purchase
                                                                         ot poslage slamps (FiislClass,
                                                                         Priorrty, and Express Malll. The
                                                                                                                                                      fn
                                                                         forger used cotmierleil compulor-                                            c/3
                                                                         generaled tictilious checks at                                               CT
                                                                         ttiese Post Ottices to obtain
                                                                         tlie slamps and then resok) ttie
                                                                         ^amps ID Ijusinesses across the
                                                                         countrv at a iliscounted rate. Over
                                                                         a lO-mofflfi period, the forger
                                                                         passed more Ihan 558 counterfeit
                                                                         checks, resulting In S327,124
                                                                                                                                                      S
                                                                          in revenue loss tor the Postal
                                                                         Senrtce.

                                                                         In imposing the sentence
                                                                         — belleveiJ to he Hie longest
                                                                                                                                                      m
                                                                         white-collar sentence ever liandod                                           c/3
                                                                         [town in Denver — Judge Herbert
                                                                         Stern said lliis aboui the forget.
                                                                         "Vou are a serial counterfeiter Vou
                                                                         are a serial forger. You are Ijeyond
                                                                         reliabilftation. Vou are a menace
                                                                         to society Tliese crimes are grave
                                                                         and serious.'




                                                                                                                (k;tQber1.20O6 —Man:h31,2O07
                                                                                                                                               HI
                                                                                                                                               I 38
•
          U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL OFFICE LOCATIONS
                                      The OIG currently has more ttian 1.100 employees located in more than 100 offices
                                      nationwide in each of ttie Postal Service's nine areas.




r                                                   Western

                                                                                                   Great Lakes




    Pacific




                                                                                                  Southwest




     39 I Semiannual Report to Congress
                               Capital Metro           Northeast                   Southwest
                               Arlington, VA {HO)      Albany, NY                  Albuquerque, NM
                               Baltimore, MD           Boston, MA'                 Baton Rouge, LA
                               Charieston, WV          Buffalo, NY                 Bedford, TX
                               Chariotte, NC           New Haven, CT               Coppell, TX
                               Columbia, SC            Portland, ME                Dallas, TX
                               Greensboro, NC          Providence, Rl              El Paso, TX
                               Norfolk, VA             Springfield, MA             Houston. TX*
                               Richmond, VA            Syracuse, NY                Little Rock, AR
                               Washington, DC                                      New Orieans, LA
                                                       Pacific                     Oklahoma City, OK
                               Eastern                 City of Industry, CA        San Antonio. TX
Eastern                        Charieston, WV          Honolulu. HI                Shreveport, LA
                   Northeast   Clarksburg, WV          Long Beach, CA
                               Cleveland, OH           Los Angeles, CA             Western
                               Columbus, OH            Richmond, CA                Anchorage, AK
                               Covington, KY           Riverside, CA               Billings, MT
                               Harrisburg, PA          Sacramento, CA              Denver, CO*
                               Louisville. KY          San Diego, CA               Des Moines, IA
                               Philadelphia, PA        San Francisco, CA           Eagan, MN
                               Pittsburgh, PA          San Jose, CA                Independence, MO
                               Wilmington, DE          San Mateo, CA               Kansas City, KS
                                                       Santa Clarita, CA           Las Vegas. NV
           New York Metro      Great Lakes                                         Omaha, NE
                               Carol Stream, IL        Southeast                   Phoenix, AZ
                               Chicago, IL*            Afianta, GA                 Portland, OR
                               Detroit, Ml             Birmingham, AL              Salt Lake City, LTT
                               Fox Valley, IL          Jackson, MS                 Seattle, WA
                               Gary, IN                Jacksonville, FL            Sioux Falls, SD
                               Grand Rapids. MI        Knoxville, TN               Spokane, WA
                               Indianapolis. IN        Memphis, TN                 St. Paul. MN
          Capital Metro        Milwaukee, Wl           Miami, FL
                               Omaha, NE               Nashville, TN
                               St. Louis, MO'          North Metro, GA
                                                       Orlando, FL
                               New 'York Metro         Raleigh, NC
                               Hoboken, NJ             Tallahassee, FL
                               Jersey City, NJ         Tgtfnpa, FL
    Southeast                  Long Island, NY
                               New York, NY
                               San Juan, PR
                               Trenton, NJ



                               -f^ultiple OIG Of^ces




                                                                          Octa<)er1,2006~M3rch31,2007 1 4Q
                                        APPENDICES
                                            The Inspector General Act of 1978 requires semiannual reports on the immediately
                                            preceding 6-month periods ending March 31 and September 30. These reports are
                                            sent to Congress and made available to the public.

                                            This report summarizes OIG activities and Illustrates significant problems, abuses, and
                                            deficiencies, along with recommendations and corrective actions related to the admin-
                                            istration of U.S. Postal Seivice programs and operations during the reporting period.

                                            The appendices on the following pages fulfill the requirements of the A c t


t
                                                                                                                                         Appendix A
    DEFINITIONS
                                            REPORTS ISSUED TO POSTAL SERVICE MANAGEMENT
    FUNDS PUT TO                            For the penod October 1,2006 — fularch 31,2007
    B E H E R USE
                                        jOlBaudfl teams conduct performance and tinancial audits, evaluations, and oiliBr reviews io address the business of
    Funds tfiai could be useo more
                                        flifl Postal Service. Each team issues audit reporis (AH) or management advisory reporis (MA) in accordance with the
    efficlenlly hy ImpleiiiEntlng
                                         idenillied needs ofthe project.
    recommended actions.

    QUESTIONED COSTS
                                            Summary
    Costs ihat are unnecessary,
                                            Following Is a summary, by principal area, of reports issued lo Postal Service management. The lollowing pages list each
    unreasonable, un supporter!,
                                            issued report.
    or an alleged violation of law,
    regulation, coiilrad, nt]tisf>,
    forth.

    UNSUPPORTED COSTS
                                                                             Number of        Funds Put to        Questioned       Unsupported             Revenue
    Cosis that are nol supported
                                             Management Goals                   Reports         Better Use             Costs             Costs              Impact
    by adequate documentation.
    UnsuRportad costs are                    l ^ u c e Cos^                          £3      $122,689,783       $302,253,373        $24,002,855           $922,478
    included In Questioned Costs.
                                             Generate Revenue                         Z                              310,600               7,869           140,497
    REVENUEIMPACT                           Achieve Results with
    Amounts from revenue-                   a Ctistomer-Focusefl
                                            Periormance-Based Cullure                 2                „ ..               ,                    i_                 -
    geiisratlng functions such as
    retail sales, rent, leases, or           Improve Sen/Ice                                                         570,000                 —                  —
                                                                                     13        10,191,676
    fees thai were underpaid or
    notreallzed. In addition, this           Preserving Integrity                   161            56,659          1.951,071            181,667          2,135,451
    calegory Includes increased
    revenue from existing functions         Total                                   201      $132,938,118      $305,085,052         $24,192,391         $3,198,426
    and generating revenue from
    new sources.




       41 I Semiannual Report to Congress
Reports With Quantifiable Potential Monetary Benefits
                                                                                       Funds Put to    Questioned    Unsupporled     Revenire
Report Tille                                                                             Better Use         Costs          frosts     Impact
REDUCE COSTS
ENGINEERING
Automated Package Processing System Siatus and Administration;
DA-AR-07-001; 1/26/2007                                                                                 $1,980,150     $1,980,150         —
Managemeni ol ihe Flats Recognihon Improvement Program; DA-AR-07-002; 1/26/2007                        i21,367,952    $21,367,952         —
FINANCIAL REPORTING
Rail Managemeni Information System Service Claim Payments—
Capital Metro Distribution Networks Oifice; FT-AR-07-008; 3/5/2007                                       $654,753       $654,753
San Francisco International Service Cenier — Inbound Inlernalional Mail:
FT-AR-07-012; 3/30/2007                                                                                        —              —      5922,478
INFORfflflTION SYSTMS
CellularServJces;IS-AR-07-010; 3/29/2007''                                               S5,l41,19d     $1,679,991            —           —
SUPPLY MANAGEMENT
Automated PaiS^age Processing System Phase 11 Submitted by Lockheed Marfin Sysiems
Integraflon — Owego, Distribution Technologies; CA-CAR-07-004; 12/4/2006                                $1,889,476            ,           , ,
Flmt Fixed Price Praposal lor 200 Envelope Rslleclive Meter (EFM| III Kits and Other
Related Items Submitted by Bowe Bell and Howell Postal Systems Company;
CA-CAR-07-00S; 3/5/2007                                                                                  $100,648
Finn FmO Piice Proposal lor ihe Biohazard Detection Syslem (BDS) — Flais Production
and Deploymeni, and Additional Opitons Submitted by Northrop Grumman ElecU'onic
Sysiems Company ($87,502,887); CA-CAR-07-OIO, 3/26/2007                                                  $522,396
Flals Sequencing System Pioduclion Proposal Submitted by Morthrcp Grumman
Corporafcn, Electronic Sysiems Company; CA-CAR-07-003:12/4/2006                                 —     $175,670,235
Flals Sequencing System Produclion Revised Proposal Submilled by Northrop Gnimman
Corporation, Electronic Systems Company; CA-CAR-07-005; 12/29/2006                              ^      $91,710,395
Parlicjpailon on an Inlegrated Process Team lor the Multiline Replacemeni Program —
Delivery Bar Code Sorters Praposal, Submilled by Siemens Energy and Automation,
Incorporaled, Poslal Automation Division; CA-CAR-07-001; 10/2/2006                              —       $1,650,550
Price Adjustment Claim Submitted by Govemment Telecommunications, Incorporaled;
CA-CAB-07-007; 2/2/2007                                                                         —       $5,026,827
THANSPOHTATION
AirNetworks - Airport Mall Center Operalions—Atlanta; NL-AR-07-001; 12/52/20®'         $107,873,000
Postal Vehicle Servk^e Transporiaiion Roules — Memphis Processing and Dlstrfcutioti.
Center; NL-AR-07-0C3; 3/30/2007                                                          $7,344,820
Surface Transportation — Processinq and Distribution CenterTraiSportaHm Rrwtes
— Eastern Area; tJL-flR-07' 002; 3/23/2O07                                               $2,330,769
GENERATE REVENUE
FISCAL YEAR 2006 FINANCIAL INSTALLATION AUDITS

Annual Mailing Fee Sharing—Package Services; FF-AR-07-118; 3/16/2007                                                                 $73,160
SALES & SERVICE
Stamps on Consignment Program; DR-AR-07-003; 3/31/20Q7                                          —       $310,608          $7,869     $67,337
IMPROVE SERVICE
DELIVERY
Address futanagemenl System Information — Northeast Area;
DR-AR-07-001;3/15/2007                                                                   $4,590,875             —
Address Managemeni System Information—Soutfieast Area;
DR-AR-07-002; 3/30/2007                                                                   $862,134             —'
NeiWORK PROCESSING
JacksonvllleProcessingandDistribufion'Centei'Flat Processing Operations;
NO-AR-07-002; 3/20/2007                                                                  $3,112,457             —
SALES & SERVICE
Postal Senflce Conlacl Cenier Phase 1: Customer Setvice MS-AR-07-001; 12/11/2006         $1,626,210      $570,000




                                                                                                                     Octoberl,2006—MaTCh31,2007   I   42
      Reports With Quantifiable Potential Monetary Benefits
                                                                                             Funils Put to   Oneslianed     Unsupporterl   Revenue
      Report Title                                                                             Better Use         Costs           Costs     Impact
      PRESERVING INTEGRITY
      FINANCIAL REPORTING
      Employee /accounts Receivable — Follow-up;
      FT-AR-07-009; 3/20/2007                                                                         .—.    $1,292,399
      RSCAL YEAR 2006 FINANCIAL INSTALUTION AUDITS
      Alamo Main Posi Office — Aiamo, California; FF-AR-07-003; 10/3/2006                                                          $914       $112
      AlUeboro Posl Oflice — Alllehoro, Massachusells; FF-AR-07-02; 11///2006                                                        —        SB17
      BronK General Posl Oftice Business Mail Eniry Unil — Brans, New York;
      FF-AR-07-011; 10/25/2006                                                                                                       ;—     $29,750
      Coronado Slalion — El Paso, Texas: FF-AR-07-024; 11/27/2006                                                $7,120              —      $10,956
      CSirpus Christ! Soulhside Slalion — Corpus Chrlsti, Texas; FF-AR-07-007; 10/23/2006                                            —       $1,851
      Den^^r General Mail Facllliy — Denver Colorado; FF-AR-07-001; 10/2/2006                                                        —      $15,990
      Duluth Main Posl Oftice — Duluth, Minnesota; FF-AR-07-D02:1Q/2/200B                                                          $395        $963
      Engiewood Main Post Office — Englewood, Colorado:
      FF-AR-07-020; 11/7/2006                                                                                                      S830     $10,617
      Industry Processing and Dislnbution Center Window Unit—Cily of Industry, California;
      FF-AR-07-016; 10/31/2006                                                                                                              $26,563
      Mew York Main Post Oifice — New York, New Vork;
      FF-AR-07-010; 10/23/2006                                                                                   $1,692              .           _
      Newark Main Posi Office — Newark, Delaware; FF-AR-07-013; 10/27/2006                                                           —      $13,133
      Norfolk Business Mail Enlty Unit — Norfolk, Virginia; FF-AR' 07-019; 11/3/2006                                                 —      $33,809
      Pittsburgh Business Mail Entry Unil — Piltsburgh, Pennsylvania;
      FF-AR-07-014; 10/27/2006                                                                                                      - ^     $37,218
      FISCAL YEAR 2006 FINANCIAL STATEMENT AUDITS
      San Mateo Information Technology and Accounling Service CentBr;
      FT-AR-07-010; 3/26/2007                                                                          —      $159,653
      St. Louis Informaiion Technokigy and Accounting Service Cenier;
      FT-AR-07-011; 3/28/2007                                                                                                        —     $708,293
      FISCAL YEAR 2007 FINANCIAL INSTALLATION AUDITS
      Addison Business Mail Entry Unit—Addison, Illinois;
      FF-AR-07-077; 1/25/2007                                                                                        —               -—     $25,321
      Baltimore Business Mail Eniry Unit — Baltlmore, Maryland;
      FF-AR-07-037; 2/12/2007                                                                                  j l 73,437            —     S356,307
      Bensenville Business Mall Enlry Unit—Bensenville, Illinois;
      FF-AR-07-0e6; 2/8/2007                                                                                         —              -—       $3,277
      Brunswick Mam Post Ollice — Brunswick, Ohio; FF-AR-07-045; 12/21/2006                                      $2,448              —      $28,666
      Canoga Park Business Mail Entry Unit — Canoga Parle, Calilornia;
      FF-AR-07-064; 1/18/2007                                                                                    $4,071          54,071         —
      Columbus Business Mali Entry Unit — Columbus, Mississippi; FF-AR-07-055; 1/B/2007                              —              —        $1,428
      Concord Business Mail Eniry Unll—Concord, New Hampshire;
      FF-AR-07-012; 3/9/2007                                                                                         —              .-^     $49,623
      Concord DMU Post Oifice — Concom, New Hampshire; FF-AR-07-124:3/21/2007                                    $6,322             ^^      $13,689
      Corinth Business Mail Entry Unll — Corlnlh, Mississippi; FF-AR-07-046:12/26/2006                               —               —      $31,825
      Emeryville Slalion — Emeryville, Calilornia; FF-AR-07-042; 12/21/2006                                        $240           $240      $18,577
      Founlain Siation — Grand Prairie, Texas; FF-AR-07-096; 2/16/2007                                         $19,065           $2,418       $660
      Freehold Business Mall Entry Unit — Freehold. New Jersey; FF-AR-07-083; 2/2/2007                               —               —      S46,606
      Frontier Siation — Round Rock, Texas; FF-AR-07-092:2/13/2007                                              S5.741           $5,741     $10,445
      George W. Young Finance Unll — Delroil, Michigan; FF-AR-a7-076; 1/25/2007                                      —               —     $130,591
      Great Barringlon Business Mall Entry Unll — Greal Barringlon, Massachusetts:
      FF-AR-07-132; 3/28/2007                                                                                                                $1,974
      IMPAC-Dallas District — Coppell, Texas; FF-AR-07-122; 3/19/2C07                                 —       $163,898        $151,371




43   I Semiannual Reportto Congress
Reports With Quantifiable Potential Monetary Benefits
                                                                                     Funds Put to    Questioned   Unsupported       Revenue
Report Title                                                                           Better Use         Costs         Costs        Impact
Jacksmvllle Post Office—Jacksonville, Ariiansas; F-AR-D7-036; 12/14/2006                                 $5,303         S5,303
Lafayette Main Post Olfico — Lafayette, California: FF-AR-07-131; 3/27/2007                                $739          $739          •S707
Livingston Business Mall Entry Unit — Llvlngstoa New Jersey;
FF-AR-07-105; 3/16/2007                                                                                     -—             —         $4,523
Loridanderry Business Mall Entty Unll — Londonderry, New Hampshire;
FF-AB-07-074; 1/23/2007                                                                                                              $5,559
Longmont Business Mail Enlry Unit — Longmonl. Colorado: FF-AR-07-050:1/5/2007                                                        $2,678
Margarei L. Sellers Business Mall Entry Unll — San Diego, California;
FF-AR-07-125; 3/22/2007                                                                                 $36,433            —        $14,148
Mason Business Mail Entry Unit — Mason, Ohio; FF-AR-07-085; 2/5/2007                                                                $11,328
McLean Main Posl Office — McLean. Virginia; FF-AR-07-038; 12/14/2006                                     $1,218            —        $34,885
Medina Business Mail Enlry Unit—Medina, Ohio: FF-AR-07-095; 2/26/2007                                                               $72,286
Moraine Valley Post Oifice — Bridgevlew, Illinois; FF-AR-07-10!; 2/16/2007                               $1,451
Newark Business Mail Entry Unil — Newark, New Jersey; FF-AR-07-102; 2/25/2007
OntarloBusinessMallEntryUnlt —Ontario, California; FF-AR-07-065; 1/18/2007               $56,659
                                                                                                           $270
                                                                                                                           z        $13,165
                                                                                                                                    $14,790
Perryvllle Business Mail Entry Unit — Perryvllle, Missouri; FF-AR-07-054; 1/8/2007                                         '—          $895
Phoenix Main Ollice Window — Phoenix, Arizona; FF-AR-07-133; 3/27/2007                                   $6,665                     $32,;K6
Preston Royal Finance Station — Dallas, Texas; FF-AR-07-134; 3/29/2007                                   $5,115            —        $31,095
Sacramento Business Mail Entry Unit — West Sacramento, California;
FF-AR-07-097,2/16/2007                                                                                  $10,512                     $87,009
sah Jose Business Mall Entry Unll—San Jose, California; FF-AR-07-098; 2/16/2007                            $659          $659

Scartiorough Posl Office—Scarborough, Maine: FF-AR-07-037; 12/21/2005                                                                $7,029

Sidney Business Mall Entry Unil — Sidney, Ohio; FF-AR-07-129; 3/26/2007                                                              $7,120
South Suburban Business Mall Entry Unll—Bediord Park, Illinois;
FF-AR-07-049; 12/28/2006                                                                                                             $6,977
Soulhaven Post Office — Southaven, Mississippi; FF-AR-07-033; 12/11/2006                                                             $2,084
Si. Louis Main Ollice Finance Unit — St, Louis. Missouri, FF-AR-07-107; 3/2B/20O7                       $18,934                    $107,737
Swansea Business Mall Eniry Unit—Swansea, Massachusells;
FF-AR-07-114; 3/23/2007                                                                                                              $1,766
Tulsa Downtown Station—Tulsa, Oklahoma; FF-AR-07-039; 12/18/2006                                         $1,722         $1,732      $19,625
WalnulBuslnessMailEntryUnit—Walnut, California; FF-AR-07-032; 12/13/2006                                                             $7,581
WratLynn Post Office—Lynn, Massachusetts; FF-AR-07-111:3/9/2007                                                                      $3,640
West Menio Park Slalion — Menlo Park, California; FF-AR-07-056; 1/9/2007                                 $7,264         $7,264
West Palm Beach Business Mall Entry Unit — West Palm Beach, Flonda;
FF-AR-07-108; 3/2/2007                                                                                      —              —        $27,647
Wesllake Hills Station — Austin, Texas; FF-AR-07-121; 3/16/2007                                         $14,867                      $7,306
YorkBuslnessMailEnlryUnit-York, Pennsylvania; FF-AR-07-115; 3/19/2007                                                                $1,314
TOTAL                                                                                $132,938,118   $305,0M,052    $24,192,391    $3,198,426




                                                                                                                  Octoberl, 2006 —March31,2007   I   44
                Report Listing
               For the period ol October 1,2006 — Manai 31,20O7,

               Complete listing at all OIG Reports Issued to Postal Service managemeni



                REDUCE COSTS

                ENGINEERING
                Aulomaied Package Processing System Slaius          Management of ihe Flats Recognilion
                and Administration;                                 Improvement Program;
                DA-AR-07-001; 1/26/2007                             DA-AR-07-002; 1/26/2007


                FINANCIAL REPORTING
                Fiscal Year 2007 Peak Season Review —               Rail Management Information System Service      San Francisco International Service Center -
                Christmas 2006;                                     Claim Paymenis—Capital Metro Distribution       Inbound intemalionai Mail;
                FT-WP-07-001; 3/12/2007                             Networks Ollice;                                FT-AR-07-012; 3/30/2007
                                                                    FT-AR-07-008; 3/5/2007



                INFORMATION SYSTEMS
                Cellular Services; lS-AR-07-010; 3/29/2007


                SALES & SERVICE
                Tran^ortailon Cosl Sysiem;
                ME-AR-07-002; 3/20/2007


                SUFVLY MANAGEMENT
                Aulomaied Package Processing Syslem Phase           Firm Fixed Price Proposal ior the Biohazard     Forward Pricing Rate Proposal Submilled by
                11 Submilled by Lockheed Manln Syslenis             Detection Syslem (BDS) — Flals Production and   Siemens Energy and Automation Incorporated,
                Iniegraiion — Owego, Dlsirlbuiion Technologies;     Deployntenl, and Addiiional Options Submitted   Postai Automallon;
                CA-CAR-07-004; 12/4/2006                            by Northrop Grumman Electronic Systems          CA-CAR-07-006:1/29/2007
                                                                    Company ($87502,837);
                eBuy Monthly Reconclllailon Procedures:                                                             Indelinlie Delivery, Indefinite Quantity Proposal
                                                                    CA-CAR-07-010; 3/26/2007
                CA-AR-07.001; 2/16/2007                                                                             for Arahliecl and Engineering Services In
                Estimated Fiscal Year 2006 Supply Chain             Fiscal Year 2004 Incurred Costs ol Miireteli    Response to Sollcllaiion Numbei 519809-06-
                Management impact Assoclaled wiln Nallonal          Syslems. Incorporated:                          A-OOl Submitted liy Burt Hill Incorporaled;
                Office Supply Conlract;                             CA-CAR-07-002; 11/6/2006                        CA-CAR-07-009; 3/9/2007
                CA-OT-07-001; 3/9/2007                              Flals Sequencing System Production Proposal     Participation on an Integrated Process Team for
                                                                    Submitted by Northrop Grumman Corporation,      the Multiline Replacemeni Program — Deliuery
                Eslimaled Supply Chain Managemeni Impact                                                            Bar Code Sorter 6 Proposal, Submitted by
                Assoclaled with the Custodial Rental Project;       Electronic Systems Company;
                                                                    CA-CAR-07-003; 12/04/2006                       Siemens Energy and Automation, Incorporated,
                CA-MA-07-OOi; 11/27/2006                                                                            Postal Aulomalion Division;
                Firm Fixed Price Proposal lor 200 Envelope          Fiats Sequencing System Praduclion Revised      CA-CAR-07-001; 10/2/2006
                Reflective Meter (ERM) III Kits and Other Related   Proposal Submitted by Northrop Grumman
                Items Submitted by Bot^ Bell and Howell Poslal      Corporallon, Eleeiranic Sysiems Company;        Price Adjustmeni Claim Submitted by
                Syslems Company; CA-CAR-07-008; 3/5/2007            CA-CAR-07-005:12/29/2006                        Governmenl Telecommunications, Incorporaled;
                                                                                                                    CA-CAR-07-007; 2/2/2007



                TRANSPORTATION
                Air Networks — Airport Mail Center                  Poslal Vehicle Service Transportation           Surlace Transportation — Processing and
                Operalions —Atlanta;                                Roules—Memphis Processing and Distribution      Distribution Center Transporiaiion Routes—
                NL-AR-07-001:12/22/2006                             Center; NL-AR-07-003; 3/30/2007                 Eastern Area; NL-AR-07-002; 3/23/2007




45   I Semiannual Report to Congress
GENERATE REVENUE

RSCAL YEAR 2006 FINANCIAL INSTALUTION AUDITS
Annual Mailing Fee Sharing — Package
Services; FF-AR-07-118; 3/16/2007



SALES & SERVICE
Slamps on Consignment Program;
DR-AR-07-003; 3/31/2007



ACHIEVE RESULTS WITH A CUSTOMER-FOCUS ED, PERFORMANCE-BASED CULTURE

HUt\UN CAPITAL
Poslal Service Schedule Awards In the New York
Metro Area—Report ll;
HM-AR-07-001; 12/13/2006


INFORMATION SYSTEMS
Data Inlegrily Review oi Address Management
System Facilily Data;
lS-AR-07-005; 12/22/2006



IMPROVE SERVICE

DELIVERY
Address Managemeni System Inlormalion —           Delivery and Retail Standard Operating          Delivery and Relaii Standard Operaling
Northeast Area.                                   Procedures — Capital Melro Area;                Procedures — Nalional Capping Report;
DR-AR-07-001:3/15/2007                            DR-MA-07-001:10/16/2006                         DR-MA-07-003; 2/22/2007
Address Management System Information —
SoutheaslArea;
DR-AR-07-Q02; 3/30/2007


FISCAL YEAR 2006 FINANCIAL STATEMENT AUDITS
Service Level /^greemenls;
FT-AR-07-OOl; 11/2/2006


NETWORK OPTIMIZATION
Service Implications ot Area Mall Processing      Sioux Cily, Iowa, Processing and Distribution
Consolidations;                                   Facility Consolidation;
EN-AR-07-002:12/05/2006                           EN-AR-07-001; 11/9/2006



NETWORK PROCESSING
Color-Coding ol Standard Mail al the South        Sleubenvilie - Youngstown, Ohio, Outgoing M     Timeliness oi Mail Processing a! the Los
Jersey Processing and Dlsirlbuiion Centet;        Consolidation; MO-AR-07-003; 3/30/2007          Angeles, California, Processing and Distribution
NO-fvlA-07-OOi; 3/20/2007                                                                         Cenier; NO-AR-07-OOl; 2/9/2007
Jacksonville Processing and Dislnbution Cenier
Flat Processing Operalions;
NO-AR-07-002; 3/20/2007


SALES & SERVICE
Delivery Conilrmalion for Inbound International   Postal Service Contact Center Phase 1;
Mall; DR-MA-07-002; 11/21/2007                    Customer Service; MS-AR-07-001; 12/11/2006




                                                                                                                             October 1,2006 —March 31,2007   I 46
f
^^^•^




^p
^ ^ B
                          PRESERVING INTEGRITY

                           AUDITS OF STATISTICAL TES1^ FOR FISCAL YEAR 2006 COST AND REVENUE ANALYSIS
^ ^ ^ B                   Cost and Revenue Analysis;                           Northern Illinois DIsinct;
                          FF-AR-O7-093; 2/16/2007                              FF-AR-07-004; 10/11/2006
^^B
^^F
^ ^ ^ ^                   AUDITS OF STATISTICAL TESTS FOR FISCAL YEAR 2007 COST ANO REVENUE ANALYSIS

^^^^^^^F                  AUania District; F-AR-07-022; 11/8/2006              Dakoias Dislricl; FF-AR-07-103:2/26/2007          Northern Virginia Disirlct;
^ ^ ^ ^                   Bay-Valley District — Pacliic Area;                  Gateway District: FF-AR-07-062:1/18/2007          FF-AR-07-029.11/30/2006
                          FF-AR-07-060; 1/17/2007                                                                                Pillsburgh Districl;
    A                     Bay-Valley Dislricl, Oakland International Service
                          Cenier—Pacific Area:
                                                                               Northern New Jersey District:
                                                                               F-AR-07-.078; 1/24/2007
                                                                                                                                 FF-AR-07-116; 3/16/2007
                                                                                                                                 Santa Ana Disirlct;
    M                     FF-AR-07-069; 1/18/2007                                                                                FF-AR-07-048; 12/27/2006
f
                          FINANCIAL REPORTING
                          Employee Accounis Receivable — Follow-up;
                          FT-AR-07-009,3/20/2007


                          FISCAL YEAR 2006 FINANCIAL INSTM.LAT10N AUOFTS
                          Alamo Main Post Office — Alamo, California;          Denver General Maii Facility—•                    Newark Main Post Office — Newad^, Delaware;
                          FF-AR-07-003; 10/3/2006                              Denver, Colorado;                                 FF-AR-07-013; 10/27/2006
                          Annandale Automated Postal Cenier —                  FF-AR-07-001; 10/2/2006                           Norlolk Business Mall Enlry Unll—
                          Annandale, Virginia;                                 Desoto Main Post Office /Uilomaled Poslal         Norfolk, Virginia;
                          FF-AR-07-017; 11/3/2006                              Center — Desoto, Texas;                           FF-AR-07-019; 11/3/2006
                          Ailleboro Post Office —                              FF-AR-07-028; 11/23/2006                          Oakman Posl Oifice — Oakman, Alabama;
                          Atilebora, Massachusetts;                            Duluth Main Posl Office —                         FF-AR-07-023; 11/14/2006
                          FF-AR-07-021; 11/7/2006                              Dululh, Minnesota;                                Pittsburgh Business Mail Entry Unit—
                          Aulomaied Postal Centers;                            FF-AR-07-002; 10/2/2006                           Pittsburgh, Pennsylvania;
                          FF-AR-07-073;1/25/2007                               Englewood Main Post Office —                      FF-AR-07-014; 10/27/2006
                          Bronx General Posl Office Businessft^ailEntry        Englewood, Colorado;                              Post Offices, Stations, and Branches:
                          Unil —Bronx, New York:                               FF-AR-07-020; 11/7/2006                           FF-AR-07-094; 2/20/2007
                          FF-AR-07-011; 10/25/2006                             Hamilton Slalion Aulomaied Postal Center —        Pravldence Post Office /automated Postal
                          Brookshire Posl Oifice — Brookshire, Texas;          Palo Alto, California;                            Center — Providence, Rhode Island;
                          FF-AR-07-005; 10/23/2006                             FF-AR-07-012.10/25/2006                           FF-AR-07-006; 10/23/2006
                          Business Mail Eniry Units;                           Industry Processing and Disirlbullon Cenier       Spivak Conlract Poslal Unil—Denver, Colorado;
                          FF-AR-07-090; 2/15/2007                              Window Unit — City of Indusiry. California;       FF-AR-07-018; 11/3/2006
                                                                               FF-AR-07-016; 10/31/2006
                          Coniraci Postal Unils;                                                                                 Sunnyvale Mam Posl Office Automated Postal
                          FF-AR-07-075;1/25/2007                               In/ing Valley Ranch Stalion Automated Postai      Cenier—Sunnyvale, California;
                                                                               Cenier — Irving, Texas:                           FF-AR-07-015; 10/31/2006
                          Coronado Station — El Paso, Texas;
                                                                               FF-AR-07-025.11/24/2006
                          FF-AR-07-024; 11/27/2006                                                                               Vlcksburg Post Oftice — Vicksburg, Michigan;
                                                                               Lakevllle Post Oilice—Lakevllle, Minnesota;       FF-AR-07-009; 10/23/2006
                          Corpus Chrlsti South side Siation —                  FF-AR-07-008; 10/23/2006
                          Corpus Christ I, Texas;
                          FF-AR-07-007; 10/23/2006                             New York Main Posl Ofiice —••
                                                                               New Vods, New York;
                                                                               FF-AR-07-010; 10/23/2005


                          FISCAL YEAR 2006 FINANCIAL STATEMENT AUDITS
                          Board of Govemots' Travel and Miscellaneous          Opinion on the Postal Service's Speciai-Purpose   St. Louis Infijmiation Technology and Accounting
                          Expenses fot Fiscal Vear 2006;                       Financial Statements;                             Setvice Center; FT-AR-07-011; 3/28/2007
                          FT-AR-07-003; 12/1/2006                              FT-AR-07-002; 11/17/2006                          Washington, D,C„ HeaOquarlers;
                          Eagan Information Technology and AccountinB          Poslal Service Officers' Travel and               FT-AR-07-004;12/?/2006
                          Service Cenier,                                      Representalion Expenses for Fiscal Year 2006;
                          FT-AR-07-007; 12/29/2006                             FT-AR-07-005; 12/7/2006
                          Iniernal Controls Over Receipt and Disbursing        San Mateo Informadon Technology and
                          Aclivilies;                                          Accounling Service Cenier;
                          FT-AR-07-006; 12/21/2006                             FT-AR-07-010; 3/26/2007




          47   I Semiannual Reporl lo Congress
FISCAL YEAR 2M7 FINANCIAL INSTALLATION AUDITS

/Wdison Business Mail Entry Ural—                  El Paso Business Mail En&y Unil —                    Londonderry Business Mail Emry Unil —
Addison, Illinois,                                 El Paso, Texas;                                      Lond(Hiden7. New Hamoshire:
 FF-AR-07-077; 1/25/2007                           FF-AR-07-100; 2/20/2006                              FF-AR-07-074; 1/23/2007
AvellaPostOltlce—Avella. Pennsylvania;             Emeryville SlEUlon — Emeryville, California;         Longmonl Btisiness Mall Enlry Unit —
FF-AR-07-026; 11/28/2006                           F-AR-07-042; 12/21/2006                              Longmonl, Cotorado,
Baltimore Business Mall Enlry Unit —               Fountain Slalion — Grand Pralne, Texas;              FF-AR-07-050; 1/5/2007
Baltimore, Maryland;                               FF-AR-07-096:2/16/2007                               Luray Posi Office—Luray, Virginia:
F-AR-07-0B7 2/12/2007                              Freehold Buaness Mail Entry Unti —                   FF-AR-07-104:2/27/2007
Bedford Business Mail Entry Unit—                  Freehold, New Jersey;                                Manasola Business Mail Enlry Unll —
Bediord, Massachusetts;                            FF-AR-07-083; 2/2/2007                               Sarasota, Florida;
FF-AR 07-030; 12/1/2006                            FnDntier Staikrn — Round Rock, Texas,                FF-WI-07080.1/29/2007
Belcamp Business Mall Entry Unil—                  FF-AR-0/-092:2/13/2007                               Margaret L. Sellers Business MaH Entry
Belcamp, Maryland;                                 George W. Young Finance Unit —                       Unit — San Diego, Calilornia;
FF-AR-07-044:12/21/2006                            Delroil, Michigan;                                   FF-AR-07-125; 3/22/2007
Bensenville Business Mail Entry Unit               FF-AR-07-076; 1/25/2007                              Mason Business Mail Enlry Unit—Mason, Ohfo;
— Bensenville, Illinois;                           Greai Barringlon Business Mail Entry                 FF-AR-07-085; 2/5/2007
FF-Afi-07-086; 2/8/2007                            Unit— Greal Barringlon. Massachusetts;               McLean Main Posl Otficc — McLean, Virginia;
Brunswick Main Post Oifice — Bmnswtek, ONo;        FF-AR-07-132; 3/28/2007                              FF-AR-07-038:12/14/2006
FF-AR-07-045:12/21/2006                            He ber Springs Pemill —                              Medina Business Maii Entty Unit—
Bryan Business Mail Entry Unil — Bryan, Texas,     Heber Springs, Arltansas;                            Medina. Ohio;
FF-AR-07-088; 2/13/2007                            FF-AR07-099:2/20/2007                                FF-AR-07-095; 2/26/2007
Buckingham Posl Ottice —                           Holllston Business Mail Entry Unit —                 Miami Business Mall Enlry Unil -—
Buckingham. Pennsylvania;                          Hollisloti, Massachusells;                           Miami, Florkla:
FF-AR-07-123; 3/19/2007                            FF-Afi-07-067 1/19/2007                              FF-AR-07-109; 3/2/2007
Canoga Park Business Mail Entry Unll—              Houston Posl Ollico — Houston, Missouri;             Moraine Valley Post Oifice—Bridgevlew, Illinois;
Canoga Paik. Calilornia,                           FF-AR-07-034; 12/11/2006                             FF-AR-07-101,2/16/2007
FF-AR-07-064,1/18/2007                             IMPAC-Oatlas Dislricl — Coppell, Texas;              Moriey Post Oftice — Morley, Michigan;
Casa Grande Business Mall Enlry Unll—              FF-Afl-07-122; 3/19/2007                             FF-AR-07-043; 12/20/2006
Casa Grande Arizona;                               Irving Business lulail Eniry Unil — Irving, Texas.   Newark Business Maii Entry Unil —
FF-/yi-07-082; 1/30/2007                           FF-AR-07057:1/11/2007                                Newari(. New Jersey,
Chapel Lakes Branch — Hollywood, Florida;          Jackson Business Mall Entry Unll;                    FF-AR-07-102; 2/26/2007
F-AR-07-040; 12/19/2006                            FF-AR-OM19:3/16/2007                                 l^cwark Business Mail Entry Unit —
Clarksville Posi Office — Clarksville, Texas.      Jackson- LeFleur Station —                           Newark. Ohio;
FF-AR-07-031; 12/1/2006                                                                                 F-AR-07-059:1/17/2007
                                                   Jackson, Mississippi;
Columbus Business Mail Entry Ur^ —                 FF-AR-07-130:3/23/2007                               Newport Posl Oftice — Newport, New York;
Columbus. MissisEtiqri;                            Jacksonville Posi Ofllce —                           FF AR-07-068:1/18/2007
FF-AR-07-055; 1/8/2007                             Jacksonville, Arkansas;                              Northern Now Jersey Stamp Distribution
Concord Business Mail Enlry Unit—                  FF-AR-07-036; 12/14/2006                             Ollice —Newark, New Jersey;
Concord. New Hampshire:                            Kenllands Siation — Garther^utg, lilaryland;         FF-AR-07-061; 1/17/2007
F-AR-07-012; 3/9/2007                              FF-AR-07-110:3/5/2007                                Ontario Business Mail Enlry Unit—
ConcorriDMU Posl O f f i c e -                     Ktngman Business Mall Eniry Unit—                    Ontario. Calilornia:
Concord, New Hampshire;                            Kingman, Arizona:                                    FF-AR-07-065; 1/18/2007
FF-AR-07-124; 3/21/2007                            FF-AR-07-052; 1/5/2007                               Orlando Stamp Dislnbution Office —
Corlnlh Business Mail Enlry Unll—                  Lafayelle Ivlain Post Ollice —                       Orlando. Florida:
CorinUi. Mississippi:                              Lafayette, California.                               FF-AR-07-120; 3/15/2007
FF-AR-07-046, 12/26/2006                           FF-AR-07-t31; 3/27/2007                              Osceola Mills Post Oflice —
Dallas Stamp Dlslributlon Ollice —                 Lakeland Downtown Siation —                          Osceola Mills, Pennsylvania;
Grand Prairie. Texas:                              Lakeland. Fltxida;                                   FF-AR-07-027:11/27/2006
F-AR 07-113; 3/13/2007                             FF-AR-07-041; 12/18/2006                             Oswego Business Mail Eniry Unil—
Dulles Stamp Services Cenier — Dulles. Virginia;   Linn Business Mail Entry Unit — Linn. Missouri;      Oswego, NewVori<.
ff-AR-07-081; 1/30/2007                            FF-AR-07-063:1/17/2007                               FF-AR-07-071: 1/22/2007
EasllaKe Business Mat! Entry Unit—                 Livingston Business Mail Entry Unit —                Paiesliie Permit — Palestine, Texas;
Eastlake, Colorado;                                Livingslon, New Jersey;                              FF-AR-07-128; 3/23/2007
FF-AR-07-066; 1/18/2007                            FF-Afi-07-105:3/16/2007




                                                                                                                                 October 1,2006 — Marcn 31,2007
                 FISCAL YEM12007 FINANCIAL INSTALUTION AUDITS
                 Parkershurg Business Mail Eniry Unii —            Scarborough Post Oftice — Scarborough,              Waverly Business Mall Entry Unit—
                 Parkersburg, West Virginia;                       Maine; FF-AR-07-037; 12/21/2006                     Waverly, Iowa;
                 FF-AR-07-051; 1/5/2007                            Shawnee Mission Business Mail Entry Unit            FF-AR-07-047; 12/26/2006
                 Penyvllle Business Mall Entry Unll —              — Shawnee Mission, Kansas;                          West Lynn Posi Offii:e — Lynn, Massachusetts;
                 Perryvllle, Missouri;                             FF-AR-07-117; 3/21/2007                             FF-AR-07-11I; 3/9/2007
                 FF-AR-07-054; 1/8/2007
                                                                   Sidney Business Mail Entry Unil—Sidney, Ohio:       West Menlo Pari( Station —
                 Phoenix Mam Ofllce Window—                        FF-AR-07-129; 3/36/2007                             Menlo Part<. Calilornia;
                 Phoenix, Arizona,                                 South Suburban Business Mail Enlry                  FF-AR-07-055; 1/9/2007
                 FF-AR-07-133; 3/27/2007                           Unit — Bediord Park, Illinois;                      Wesl Palm Beach Business Mail Enlry Unit
                 Poinciana Branch — Kissimmee, Florida;            FF-AR-07-049; 12/28/2006                            — West Palm Beach. Florkla;
                 FF-AR-07-126: 3/26/2007                           Soulhaven Posi Ofiice - Souttiaven, Mississippi;    FF-AR-07-108,3/2/2007
                Preston Royal Finance Station—Dallas, Texas:       FF-AR-07-033; 12/11/2006                            Wesllake Station — Austin, Texas;
                FF-AR-07-134:3/29/2007                             St, Inlgoes Post Ofiice'—SL Inigoes, Maryland;      FF-AR-07-121; 3/16/2007
                Redding Ridge Posl Oflice—                         FF-Afi-07-091:2/12/2007                             Wllkesboro Business Mall Entty Unll —
                Redding Ridge, Connecticut;                        St, Louis Main Oftice Finance Unit —                Wllkesboro, North Caralina;
                FF-AR-07-053; 1/8/2007                                                                                 FF-AR-07-127; 3/26/2007
                                                                   Sl. Louis, Missouri;
                Sacramento Business Mail Eniry Unit—               FF-AR-0/-107; 3/28/2007                             Wlllmanllc Business Mail Enlry Unit—
                West Sacramento, Caltfornia:                       Sl, Petersburg Business Mall Entry Unll—            Willmanlic, Connecticut;
                FF-AR-07-097; 2/16/2007                                                                                FF-AR-07-072; 1/23/2007
                                                                   Sl. Petersburg, Florida;
                Sallsburg Posl Office—                             FF-AR-07-079:1/26/2007                              Wisconsin Business Mail Entry Unit —
                Sallsburg. Pennsylvania;                           Swansea Business Mail Entry Unil —                  Wisconsin Rapids, Wisconsin;
                FF-AR-07-089; 2/12/2007                                                                                FF-AR-07-0S4:2/2,'2O07
                                                                   Swansea, Massachusetts;
                San Francisco Stamp Distribution Office —          FF-AR-07-114; 3/23/2007                             Worlh Business Mail Enlry Unit—Worth, Illinois;
                San Francisco, Calilornia;                         Tulsa Downtown Station —                            FF-AR-07-106; 3/1/2007
                FF-AR-07-058:1/11/2007
                                                                   Tulsa, Oklahoma;                                    Yanklon Business Mail Entry Unii —
                San Jose Business Mail Enlry Unit —                FF-AR-07-039; 12/18/2006                            Vankton, Soutfi Dakota;
                San Jose, Caliiornia;                                                                                  FF-AR-07-135; 3/30/2007
                                                                   Walnut Business Mall Entry Unll —
                FF-AR-07-09B; 2/16/2007                            Walnut, California;                                 Vork Business Mail Entry Unil —
                Santa Ana Siamp Dislnbution Office — Santa         FF-AR-07-032:12/13/2006                             Vork. Pennsylvania;
                Ana, California; FF-AR-07-070; 1/22/2007                                                               FF-AR-07-115; 3/19/2007
                                                                   Waters Post Oflice—Waters, Michigan;
                                                                   FF-AR-07-035; 12/13/2006


                INFORMATION SYSTEMS
                Enterprise Payment Switch Solution Phase 11:       Mainframe Service Continuity Planning and           Security Assessmeni Audit of Telephone Lines
                Preparations for Security Testing;                 Testing ai the Eagan, Minnesota, and San            and Modems (PhoneSweep) at ihe International
                IS-AR-07-007; 2/23/2007                            Mateo, California, Inlormation Technology and       Business Operations Center In Jamaica, New
                                                                   Accounting Service Centers;                         York; IS-CS-07-00!; 10/30/2006
                Fiscal Year 2006 Intomiatlon Syslems General
                                                                   lS-Afi-07-D02 11/16/2006
                Conirols Capping Report;                                                                               Security Vulnerabilily Assessment oi Selected
                lS-AR-07-009; 2/26/2007                            Nallonal Customer Management System                 Servers anri Databases that Support the Change
                Human Capital Enterprise SAP Change                Encryption; lS-AR-07-006; 12/25/2006                ol Address Program;
                Managemeni Process;                                Physlr;al Security Controls al the Eagan            lS-CS-07-002:1/4/2007
                lS-AR-07-001:10/18/2006                            Minnesota: San Mateo, Calilornia; and Sl. Louis,    Securily Vulnerabilily Assessment of Legacy
                                                                   Missouri Informaiion Technology and Accounling      Appli[;ations al the Eagan Host Compuling
                Inlormalion for the Federal Bridge Ceriiticailon
                                                                   Service Centers: IS-AR-07-004; 12/19/2006           Services, Eagan, Minnesota;
                Authority; IS-WP-07-001; 10/2/2006                                                                     IS-AR-07-003; 12/7/2006

                                                                                                                       Poslal Setvice's Elfotis to Prated Sensitive
                                                                                                                       Information; IS-AR-07-008; 2/26/2007



                INSPECTION SERVICE & FACILITIES
                Follow-up Review ol ihe Poslal Service's           Letter lo Senator Grassley on Transition Savings;   Qualitalive Assessmeni Review ol the Poslal
                Enforcement of Export Controls;                    SA-OT-07-001; 12/15/2006                            InspectionServlce's Washington Division;
                SA-MA-07-001; 3/29/2007                            Poslal Service Socurily Controls and Processes      OAR-QA-07-002; 12/5/2006
                Handling of a Polemially Explosive Ordnance at     for ihg Capital Melro Area;                         Sale ot ftie Philadelphia Main Posi Office;
                Ihe Dallas Bulk Mall Cenier;                       SA-AR-07-002; 3/30/2007                             CA-MA-07-002:2/6/2007
                SA-AR-07-001; 3/29/2007                            Oualitallve Assessmeni Review ol the Postal
                                                                   Inspection Service's Miami Division;
                                                                   QAR-QA-07-001:12/6/2006




49   I Semiannual Report to Congress
                                                                                                                                            Appendix B

FINDINGS OF QUESTIONED COSTS
ForlheniiilodOaobei i,;";!!)!)-    Mjicn : i i , r'lH)/

Questioned Cost: A cosl that is unnecessary, unreasonable, unsupported, or an alleged violation ol law, regulation, or contract.


As required by the IG Act Ihe following pages show the total number of audit r ^ i t s and the total dollar value olciuestioned costs in audit reporis.


                                                                                                                                        Unsupported Costs Included
Description                                                                        Number ol Reports              QuesUoned Costs              in Queslioned Costs
Reporrs for which no ntanagement decision was made al Ihe begkraigoltte
reporting period                                                                                     21                 $71,519,830                        $4,719,495
Reporis requiring maragemeni decision Dial were esued during Die reporing
                                                                                                     44               $305,085,052                        $24,192,391



TOTAL                                                                                                S5               (376.604^                           $28,911,886


Reporis for which a management decision was made dunng ihe reporting
                                                                                                                      $215,257,835                        $26,058,050
period (kli]
                                                                                                                         $9,651,985                        $1,399,031
    (t) Doiiar Value of disallowed iKSI
                                                                                                                      $205,705,850                        $24,659,019
    (II) Dollar value of cost not disallowed
Reporis lor which no managemeni decision was made by Ihe end of the
reporting period: Negotiations are ongoing                                                                            $161,347,047                        S2,K3.B36
Reporis for which no managemeni decision was made within six months of
Issuance fSee Afote 1 tor a lisl ol individiial rBports)                                                                 $9,544,179
Reports for which no managemeni decision was made wiinln ona year of
issmncelSeeHote2loralisluliixlmluaUepons)                                                            10                 $54,190,098                       $2,702,465




Note 1 - Reports for which no management decision was made within 6 months of issuance:
                                                                                                                       Ouesliooed       Unsupported Cosis Included
Sutitect                                                              Report/Case Numt>er          Hepod Date                Costs               in Questioned Costs
Report on Audit of Settlemeni Proposal Under Coniraci Number
102591-03-0-0454 SiibmilleO try Hasler Incorporated                         CA-CAR-06-t)27             7/5/2006        S2.470.818
Paticipation on an Integrated Process Team for the Flats
Sequencing Sysiem Preoroduclion Prooosal Submilled by Northrop
Grumman Corporation, Electronic Syslems Company                             CA-CAfl-06-D30           8/22/2006         $6,314,373
Postal Service's Gnevance-ArBitralton Swvice Centers                         HM-AR-0&<I06            ar29/2006           $356,510
Vehk;ie Managemeni — Nalional Trailer Lease Rec^jiremsnls —
Capital Meira Area                                                            NL-AR-06-013           9/29/2006           $402,478


TOTAL                                                                                                                  $8,544,179




                                                                                                                                     Octot>erl.20O6 —Irian:ti31,2a07    I   50
                                                                                                                             Appendix B

       Note 2 - Reports for which no management decision was made within one year of issuance:
                                                                               Report/Case                   Questioned   Unsupported Costs Included
       Subject                                                                    Number      Report Date         Costs          in Questioned Costs
      Conlract Audit — Bell and Hovjell Mail and Messaging
      Technologies                                                           CA-CAR-03-002    10/16/2002      $343,759
       Contract Audit - D. L. Kauiman, Incorporated                          CA-CAR-03-011     2/11/2003     $4,028,935
      Audit of Temiination for Convenience Price Adjustment Claim
      Submitted by Abcon Associates, Incotporaied                            CA-CAR-04-022     6'16/2004     $4,478,385                  $2,702,465
      Vehicle Management — Delivery Vehicles — Buy versus Lease               NL-AR-04-005     9/30/2004    $42,751,032
      Audil of Equitable Price Adjustment Claim Submitted by /\dvanced
      Construction Technologies, Lid. Under Contract Number 362575-
      OO-B-0399                                                              CA-CAR-05-020     6/15/2005     $1,780,367
      Audll oi Firm Fixed Price Praposal Submitted by Northrop
      Gnimman Cotporation, Electronic Systems Company, Under
      Solicitation Number 3BMHRD-03-Z5541                                    CA-CAR-05-021     6/27/2005      $131,899
       Audit ot Termination for Convenience Seillement Proposal Under
       Contract Number 3AAERD-03-P-6080 Submitted by Governmenl
       Telecommunications, incorporated                                      CA-CAR-06-003     11/8/2005      5547,466
      /ijjditol Fiscal Yeitf 2001 intarrredCoslof
      New Breed Corporations                                                 CA-CAR-06-OOB     12*9/2005         $7,767
      /«idit ol Fiscal Year 2002 Incurred Cost of
      New Breed Corporations                                                 CA-CAR-06-007     12/9/2005       $89,576
      Audit ot Finn Fixed Price Pn^osal ior the Venlllallon and Filtration
      Syslem at Morgan Station Submitted by /\ccu-Sorl Systems,
      Incorporated                                                           CA-CflB-06-015    3*29/2006       $30,912


      TOTAL                                                                                                 ^4,190,098                   $2,702,465




51   I Semiannual Report to Congress
                                                                                                                                                     Appendix C
RECOMMENDATIONS THAT FUNDS BE PUT TO BEHER USE
For the period Ocioiier i. 2006—Match 31, 2007


As requtred by ihe IG Act, ihls page shows the lotal number ol audit reporis and the total dollar value ol recommendations ior funds that management can
put to better use.

Funds Put to Better Use: Funds that could be used more efficlenlly by imp lem end ng recommended actions.




 Description                                                                                                           Number ol Reports                       Dollar Value

 Reports for which no management decision was made al the beginning of Hie reporting period                                                 7                  $65,365,806

 Reporis issued during the reporting period                                                                                                                   $132,938,118



 TOTALS                                                                                                                                    IS                 $198,303,924



 fieporB tor which a management deciswn was made during the report period                                                                                     $139,376,134

    (1) Value ot recommendations agreed to by managemem                                                                                                       $130,403,185

    (il) Value of recommendations that were not agreed to by management                                                                                         $8,972,949

 Repotis tor which no managemeni tfecislon was made by Ihe end of the reporting period                                                      ?                  $58,927,790
 Reports fot which no managemeni decision was made within six months of issuance
 (See Note 1 b r a lisl ol imUvlduat mporisl                                                                                                2                   $7,035,251
 Reporis for which no managetneni decision was irenk within one yeat ot issuance
 (See Nole 2 for a lisl ol indiwlual lepons)                                                                                                4                  551,030,405



 Note 1 - R e p o r t s f o r w h i c h n o m a n a g e m e n t d e c i s i o n w a s m a d e w i t h i n 6 m o n t h s o f i s s u a n c e :
                                                                                                                                                    Recommend Funds Put to
 Subject                                                                                             Reporl Number              Report Date                     Better Use

 Postal Setvice's Grieuance-Arbllrallon Service Centers                                               HM-AR-06-OOB                B/29/2006                     $5,521,081
 Vehtele Managemeni — Nationa Trailer Lease Reciulrements—Capital Mefro
 Area                                                                                                  NL-yW-06-013               9/29/2306                     81,514.170



 TOTAL                                                                                                                                                          $7,035,251



 Note 2 - Reports for which no management decision was made within 1 year of issuance;
                                                                                                                                                    Recommend Funds Put to
 Subjecl                                                                                             Report Number             Report Date                      Better Use

 Vehicle Managemeni — DeliveryVehfcles^ Buy versus Lease                                               NL-AR-04-005               9/30/2004                    $40,296,954

 Bulk Mail Center Highway Transportation Routes — Paciiic Area                                         NL-AB-05-012               9/21/2005                     $3,123,562

 Delivery Vetsde Utilization — General Services Administration Leased Vehicfes                        DR-AR-05-018                9/29/2005                     $5,374,077
 Surface Transportation — Bulk Mall Cenier Highway Tran^ortation Routes
 — Western Area                                                                                        NL-AR-06-001               2/14/2006                     $2,235,812

 TOTAL                                                                                                                                                         $51,030,405


                                                                                                                                                                              ^m
                                                                                                                                                Octoberl.2006 —March31.2007   I   52}
                                                                                                                                                       Appendix D

                    REPORTED NON-MONETARY BENEFITS
                    For the period October 1,2006 — March 31. 2007



                    Many of our audil reports Identify areas lor improvement thai result in non-monetary benefits lo the Postal Service. Tliese benefits include Improvements
r                   lo service, protectionof assets, and improvements in Ihe reliabllilyot data. FV2007 is the first year we are reporiing ihese benetits to the Postal Service,

                                                                                                                                  Type of Measure              Value or Amount

                    IMPROVED SERVICE
                    Recommendations that address the Postal Setvice's efforts io Improve the quality and
                    accessibility ol ils praducis and services                                                        Number of Recommendations                               34
                    Number ot customer service audits conducted                                                                   Number of Audits                             6


                    SAFEGUARDING ASSETS

                    Assets or Accountable Items at Risk:
                    Inadequate internal controls put the value ol assets or accountable items (for example cash
                    and slamps) at risk ol loss                                                                                        Dollar Value               $112,114,758



                    Physical Safety and Security:
                    Inadequate physical orotection or safely practices put die value of physical assets (plant,
                    computer equipment, and vehicles) al risk of loss and increase potential lost employee worit
                    time                                                                                                               Dollar Value                     582.294
                    Recommendations that address the safety and securily of Postal Service employees and/or
                    the wori< environ ment                                                                            Number ol Recommendations

                    Numbet of employee/facility salely and security audits conducled                                              Number of Audits



                    Information Technology Security:
                    Inadequate controls/proleclion pul the value of data, IT assets (soflware, networks), and
                    employee wotk lime at risk of loss                                                                                 Dollar Value                  $2,164,487

                    Number of data securlty/lT security aud lis conducted                                                         Numberof Audits                             12



                    GOODWILL/BRANDING
                    An "adverse Impact" on goodwill Is an aclual evenl/problem ihat hamis the Postal Service's
                    repuiation or a polenlial problem that could negatively impact the Posiai Service "brand
                    name'                                                                                               Number of Issues Identified




    53   I Semiannual Reportto Congress
                                                                                                                                      Appendix E

REPORTS WITH SIGNIFICANT RECOMMENDATIONS PENDING CORRECTIVE ACTIONS
For 1hepoiioiJliirouyliMaicli31, 200/


As required by ihe IG Act, this appendix discusses Information concerning any significant management decision wtlh which liie Inspector General disagrees
and which is currently In audil resolution.



 Office of Inspector General
                              Numbei al
      Issue Date          Recommeodalions        Report Tide                                                                             Report Number

      2/22/2002                                  Review of the FacHllies Manat^ment System tor Windows                                    IS-AR-D2-003

                                                 Review ol eSusi ness Agreements                                                          EM-AR-02-012

      mofiooz                                   Associate Supervisor ftogram in the Great Lakes Area                                      LH-AR-02-005

      6/13/2003                                  Pixta\ fnspection Service Tracking of lnvesl<iative iMxkhoras and Activity               SA-AR-03-003

      8/21/2003                                  Propriety of Postal Serese Utility Payments                                              n-AH-03-OI 1
                                                General Controls at ihe Engineenng Research and Development Center, MerrilieM,
      9/30/2003
                                                Virginia                                                                                  IS-Ul-03-008
      4/21/2004
                                                 Postal Inspection Service s Posiai Police Officers                                       SA-AR-04-D01
      9/24/2004
                                                Efficiency of the New Vbri( Intemational Sendee Center                                    NO-AR-04-009
      9/30/2004
                                                Poslal Service's Business Partner Connectivity                                            IS-AR-04-014
      9/30/2004
                                                Vehicle Management — DeliveryVehicles-Buy versus Lease                                    NL-AR-04-005
     10/25/2004
                                                Reports Distribution                                                                      IS-AR-05-001
                                                MallTranspori Equipment Sen/ice Center Network-Network Realignment —
                                                Plttsburgh,Detroil, Cleveland. (Audit Note. $33 million monetary benefit Idenlitied
      1/Z5/2005                                 duhng audit and not reported in the SARC.)                                                NL-AR-05-001

      3/30/2005                                 Efficiency Review of the Akron, Ohio, Processing and Distribution Cenier                  NO-AR-05-009

      4/21/2005                                 Vehkte Managemeni - National Trailer Lease ^ Unresolved Audit RecommenOalions             NL-MA-05-001

      6/17/2005                                 Efficiency of Ihe Los Angeles Intemational Senrice Center                                NO-AR-05-Ol 1

      7/22/2005                                 Complaints Regarding Peraxinel Issues in Ihe Caribbean DishiiCt                          HM-AR-05-009
                                                Action Taken 8y Pacttic Area Regarding Complania ol a Hosble Work tnvirDnmenl In
      ari 1/2005
                                                the Sacramento Distnct                                                                   HM-AR-05-010
      9f2e^200S
                                                Commercial Air NetvHHkOperaticrrs                                                         NL-AR-05-015
     12/22/2005
                                                Intelligent Mail Dala Acquisitnn System                                                   DA-AR-06-001
     12^/2005
                                                Security Over Sensitive Customer Data on Automated Postal Cenier KiosKs                   1S-MA-06-D01
      2/1IV2006
                                                Flal Remote Encoding System for Ainomaled Rat Somng Machine tOO                           OA-AR-06-003
      2/iaf2006
                                                Security Vulnerability Assessment and Audit ol Automated Postal Cenier Systems            IS-AR-06-003
                                                Surface Transportation — Bulk Mail Center Highway Transportation Routes — Western
      2/14/2006
                                                Area                                                                                      NL-AB-06-001
      2/22/2006
                                                Efficiency Review of the Washington Bulk Mail Cenier                                     NO-AR-06-003
      3/22/2006                                 J T Weeker (Chicago) Intematjonal Service Center- Inbound international Mall              FT-AR-06-013
                                                Mall Transport Equipment Sen/ice Center Network ~ Highway Transportation Routes
      3/26/2006                                 — Memphis                                                                                 NL-AR-06-005




                                                                                                                               Octoberl.2006 —March31.2007
                                                                                                                                                             ^1
                                                                                                                                                             I   54
                               Number of
           Issue Dale       Recommendations   Report Title                                                                            Report Number

           3/31/2006                          Postal Service's Share of Healih Insurance Premiums lor Retired Employees               R-AR-06-016

           5^/2006                     1      Follow up at the Engineering Research and Oevetopment Cenier, Merntield, Virginia        IS-AR-06-010
                                              Posiai Senjice's Injury Compensation Programs' Conti'ovetsion and Challenge Process
           5/19/2006                          in Selected Areas                                                                       HM-AR-06-004

           5/25/2006                   2-     Router and Switch Conti'ols ai Selected Postal Setvice Iniomtaiion Technology Centers    IS-AR-06-011
                                              Hunicane Katrina—The EtfcclivHiess of ttie Postal Sen/Ice Transportation and
           6/29/2006                          Logistics Networi<                                                                      NL-AR-06-006
                                              Mail Transport Equipment Sen/tee Center Network—Proposed Change to Quality
           7/20/2006                          inspection and Payment Auttiorizallon Controls                                          NL-W1-06-007
                                              Surface Transportation — Pnxiessing and Distribution Center Transportation Routes
           7/25/2006                          — Great Lakes Area                                                                      NL-AR-06-008

           a/9/2006                    1      OvenJrawn Express Mail Coiporate Accounts                                               DR-AR-06-007
                                              Mail Transport Equlpmert Senrice Cenier Nelwori< — Highway Transportation Routes
           8/18/2006                          —Atlanta                                                                                NL-AR-Q6-009

           8/29/2006                          Postal Service's Grievance —Attifiratiim Service Centers                                HM-AR-06-006

           9/12^2006                   1      Efliciency Review ol the Los Angeles, Caiifomia, Worldway Airport Mail Center           NO-AR-06-006
                                              Mail Transport Equipment Service Center Network — Highway Transportation Routes
           9/18/2006                          — Greensboro                                                                            NL-AR-06-010
                                              Surtace Transportation - • Processing and Distribution Center Transportation Routes
           9/21/2006                          — Pacific Area                                                                          NL-AR-06-On

           9/25/2006                          Pasadena, California, Processing and DisSibutiisi Cenier ConsolWation                   EN-AR-06-001

           9/27/2006                          Enterprise Paymeni Switch Solution Phase I : Requirements and Design                     IS-AR-06-017
                                              Inlwmalion System Access Cwibnls at the Eagan, Minnesota, and San Mlateo,
           9/27/2006                          California, Information Technology and /(ccounting ServKe Centers                        IS-AR-06-018
                                              Mail Transport Equipment Service Center Network — Highway Transportetion Roules
           9/28/2006                   2      - Dallas                                                                                NL-AR-06-012

           9/29/2006                   3      Delivery and Petal Standard Operating Procedures — Great Lakes Area                     DR-MA-06-008

           9/29/2006                          Postal Service's Schedule Awards Pnjgram in the New Vori( Metro Area ^    Report I      HM-AR-06-007
                                       ^
           9/29/2006                   .4     Vehicle Managemmi — National Trailer Lease Requirements—Capital Melrci fma              NL-AR-06-013

           9/29/2006                   I      Mail Transport Equipmeni—Transportation of Over the Road Containers                     NL-AR-06-014

           9/30/2006                   ?t     Biohazard Detection Syslem                                                              DA-AR-06-006

          10/16/2006                   *      Delivery and Retail Slandard Operaling Procedures — Capital Metro Area                  DR-MA-07-001

           11/9/2006                   #      Sioux City, iowa, Processing and Dislribufion Facility Consolidation                    EN-AR-07-001
                                              Audit Report for Hats Sequencing Sysiem Production Praposal Submitted by Northrop
           12/4/2006                   1      Gnimman Corporation, Electionic Sysiems Company                                         CA-CAR-07-003

           12/5/2006                   4      Sen/ice Implications of Area Mail Processing Consolidations                             EN-AR-07-002
                                              Security Vulnerabilily Assessmeni of Legacy ^plications at tire fegan Host Computing
           12/7/2006                   T      SeP/ices, Eagan, Minnesota                                                              lS-AR-07-003

          12/11/2006                   J      Postal Sen/ice Contact Center Phase 1; Customer Service                                 MS-AR-07-001

          12/22/2006                   2      Audit Report — Air Nelwort^s—Airport Mail Center Operations - Atlanta                   NL-AR-07-001

          13/26/2006                   Si     National Cuslomer Management Sysiem Encrypflon                                          lS-AR-07-006

           1/26/2007                   2      Managemeni ol Ihe Flals Recognition improvement Program                                 DA-AR-07-002




55   I Semiannual Report lo Congress
                 Number of
Issue Date    Recommendatlans   Reporl Title                                                                                    Report Number
                                timeliness of Mail Processing at the Los Angeles, California, Processing and
2/9/2007             2          DisBlbution Center                                                                               NO-AR-07-001
2/23/2007            1          Enterprise PaymentSwilch Solution Phase II: Preparations lor Security Testing                    IS-AR-07-007
3/15/2007           ]3;         Address Management System Infonnation — Norttieasl Area                                          DR-AR-07-001
                                Surtace Tiansportafion - Processing and Dlsirlbuiion Center Transportation Routes
3/23/2007           :f          - E a s t e r n Area                                                                             NL-AR-07-002
                                Rscal Year 2006 Postat Service Rnancial Statements Audit — San Mateo Information
3/26/2007           1           Technology and Accounfing Service Center                                                         FT-AR-07-010
3/29/2007            2          Audil ol Cellular Senflces                                                                       lS-AR-07-010
3/30/2O07           54,         Address Management System Information - Southeast Area                                           DR-Wl-07-002
3/30/2007           #           Postal Service Security Controls and Pnicesses fix- the Capital Metro Area                       SA-AB-07-002
3/30/2007            1          Steubenville ~ Youngstown, Ohio, Outgoing Mall Consolidation                                     N0-AR-07-QO3
                                Postal Vehicle Senrce Transportatton Routes — Memphis Processing and Distribution
3/:-K)/2007         'g          Center                                                                                           NL-AR-07-0D3
3/31/2007            §1         Stamps on Consignment Program                                                                    DR-AR-07-003




                                                                                                               Oclober 1 , 2 0 0 6 - M a r c h 3 1 . 2 0 0 7   I
                                                                                                                                   Appendix F

                         SIGNIFICANT MANAGEMENT DECISIONS IN AUDIT RESOLUTION
                         For the petiod Oclober 1,2006—March 31,2007


                         IKs required by the IG Ac!, ihis appendix discusses information concerning any significant management decision wlHi which the
                         Inspector General disagrees and which is currently in audit resolution.


                         The OIG has no signilicant management decisions in audit resolution as of March 31,2007




                                                                                                                                   Appendix G

                         INVESTIGATIVE STATISTICS
                         For lite petiod October 1,2006 — March 31,2007




                         • Investigations Completed                                                                                   3,820
                          Anests/lnformahon/l ndiclments                                                                                41E
                          ConvicBons/Preti^ial Diversions^                                                                              141
                          Administrative Actions Taken                                                                                1,776
                          Cost Avoidance                                                                                       $79,336,879

                          Fines, Restitution, and Recoveries                                                                  $128,149,410
                                  Amount lo Postal Service'                                                                    $22,191,944



                          ' Statistics Include joint investigations with other law enforcement agencies.
                          ' Convictions reported in this frame may he related to arrests made in prior reporting periods,
                          '' Amount Included In Fines, Restitution, and Recoveries.




57   I   SemiannualReporttoCongress
                                                                                                                                          Appendix H

SUMMARY OF U.S. POSTAL INSPECTION SERVICE ACTIONS UNDER 39 U.S.C. § 3013
For the period Oclobet 1, 2006 — March 31, 2007

The Postal Reorganizatkin Act requires the Postmasiar General to tumish inlormation, on a semiannual basis, on the Investigative aclivilies ol liie Poslal Senrice by
theU.S. Postai Inspection Service Wiih passage of the Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service's reporting ebligations
were changed, Ttte Act requires the Postal Service to submit lis semiannual report on investigative acBviiies io ttie OIG rather than to the Governors, expands the
subject mailer ttiat must be reiMrted, and revises the reporting schedule lo coordinate with Uie OIG SetriMmi/fl/ffis/jor! Jo Cor^/resr, The infomiation in the reporl
includes actions direcled at combating crimes involving ttie mail; costs and expendilures devoted lo Inspection Sen/ice investigalive activities; use ol subpoena
power; and any additonal Infomialkin the DIG may require.
The lollowing information summarijes the administrative and judicial actions initiated and resolved during the reporting petiod. These actions include Ihe
issuance of cease and desist oders dliecleO to mailers, actions to Intercepl payments Iraudulenlly induced, and orders seeking to Intercepi Iraudulenl mailings.


                                                                        Consent                                   Cease & Desist
Type of Sdieme                           Complaints Filed            Agreements                    FROs                  Orders
 Advance Fee                                              1                    —                                                 1
 Contests/Sweeps takes                                    1                    t                                                 2
 Coupon Fraud                                             7                      2                                               2
 False billings                                           6                      3                     3                         8
 Internet Auction                                         4                      t                                               2
 Lotteries (Foreign and Domestic)                         i                    —
 Medical                                                 —                     —
 Merchandise;
   Failure to furnish                                     1                      1                                               1
   Failure lo pay                                        IS                      e                                               t
 Misrepresentation                                        1                      1                                               1
 Miscellaneous                                            s                      4                                               S
 Telemarketing                                            2                      I                                               1
 Work al home                                            13                     a                                               H
 TOTAL                                                   59                     3Z                    11                        47



Subpoenas                                                                                                   Other Administrative Actions
Caseri                        Date Issued               Scheme                                              Administrative Action Requests                        94
07-001                        12/21/2006                False Representalion
                                                                                                            Temporary Restraining Orders Requesled                —
07-002                        3/21/2007                 Lottery scheme                                      Temporary Restraining Orders issued                   —

                                                                                                            Cases Using Direct Purchase Authonly                  —

                                                                                                            Civil Penalties (Section 3012) Imposed          $40,000

                                                                                                            Test Purchases                                        —
 Financial Reporting on Inspection Service Investigative
 Activities FY 2007 (October 2006 — March 2007)                                                             Withholding Mall Orders Issued                        56

                                                                                                            Volunlary Discontinuances                             14
 TYPE                                                            Semiannual Report

 Personnel                                                             $145,568,136

 Nonpersonnel                                                           $50,913,111

 Total                                                                 $196,481,247

 Capital Obligations                                                      $6,144,293




                                                                                                                                     Octoi)erl,2006—Mardi31,2007 1 58
                                                                                                                                                  Appendix I

         CLOSED CONGRESSIONAL AND BOARD OF GOVERNORS INQUIRIES
         For the period October 1, 2006 — Maroh 31,2007

         This appendix lists the Congressional and Board of Governors Inquiries the OIG closed during this reporiing period. We reviewed these inquiries to help
         idenlily systemic issues and to determine the need for future Postal Service-wide audits.



          Inspector General
          Requestor                        AltegaQon/Cancern                                        Our Major Findings                                      Closure Date
          Representative, Virginia         Impropriety in OIG Internal investigation of             We conducted qualiiy assurance reviews and
                                           employee misconduct.                                     concluded managers acled in good faith; noled
                                                                                                    investigation concluded there was no evidence to
                                                                                                    support ttie misconduct allegalions.                     10/18/2006


         Investigations
         Requestor                        Allegation/Concern                                       Our Major Findings                                      Closure Date
         Office of the Wee President      Allegations of harassment and unsafe work                Wereviewed,did not substantiate allegations.
                                          conditions resulting in an on-Bie-job vehicle            Individual was found to be at fault for the vehicle
                                          accident.                                                accident.                                                 11/6/2006
         Representative, North Carolina   WiisUeblower retaliation.                                We Investigated, found employee made a protected
                                                                                                   communicaiion and management had laken
                                                                                                   adverse action. However, tie adverse action was
                                                                                                   nol a result ol the protected communioaBon.                1/4/2007
         Senator, Texas                   Postal Sen/Ice and Inspectton Service personnel          We were unable to proceed, due to lack of specific
                                          covered up incidenis ot employee exposure to             infomiation thai would allow us to evaluate and
                                          asbestos.                                                possibly invesligate such incidents.                     10/27/2006
         Senator, Texas                   ffllegafions of discrimination, hostile work             We reviewed, Itiund employee had a pending equal
                                          enviranmeni, and harassmwit                              employment opportunib/' com plaint No additional
                                                                                                   work necessary.                                           12/8/2006
         Representative, Texas            Allegations of misconduct and passible                   We verilied employee filed a grievance with
                                          whisHeblower reprisal.                                   the American FtetelWoiters Union. As union is
                                                                                                   pursuing, ttie OIG deferred to the union.                10/16/2006
         Representative, West Virginia    Management directed Rrst-Class fi/lall Pe discarded      We investigated but did nol substanttate allegattons,
                                          and caused an intentional delay In Stendanj A            Managemeni lock steps to prevent Rrst-Class fvlali
                                          (fonrerlyThitrl Class) Mail.                             trom being inadvertenUy discarded.                        1/25/2007
         Representalive, Minnesota        Intentional delay ol "red-tagged" political mail so it   We investigated, found no evidence ol intentional
                                          would not anlve in time to influence the September       delay of mail.
                                          12 Minnesote primary election.                                                                                    10/31/2006
         Senator, Virginia                Mall fraud allegatons, which Inspection Service          We Investigated, did not substantiate allegation.
                                          lailed to properly investigate.                          Inspectton Service handled case appropriately.            1/19/2007
         Represenialive, Illinois         Letter Carrier intoxicated while on duty, causing        Our investigationrevealedthe Leiter Camer was
                                          mail delivery pn^lems.                                   intoxicated while on duty; referred to management         1/30/2007
         Representative, New York         Status/response regarding OIG Investigation and          We confirmed our invesllgation, but could not
                                          removal Irom duty pending outcome.                       comment on status or disciplinary action.                 12/8/2006
         Representative, Caiilomia        Dissalislied with the way Uie Inspection Service         We reviewed, did not discover any miscondutil on
                                          handled allegations of mail tiiefl.                      the part of the Inspecllon Seraice.                        1/4/2007
         Representative, Caiifomia        Letter Carrier Intenttonally submitted a Change ol We invesiigated, confirmed ttie COA had been
                                          Address Order (GOA) without laiowledge or consent conected and mail Qiereafter was being properly
                                          of recipients.                                     delivered. We advised management of our findings.                3/7/2007
         Representative, Arkansas         Management falsified documentation, or impeded          We investigated, iound no basis lor miscondui;!
                                          efforts lo file an on-the-job Injury claim (form CA-2J, allegation. However, we did identify a deficiency in
                                          and created a hostile work environment.                 lormal injury compensation brining lor personnel
                                                                                                  serving in acting status as first line supen/isors. We
                                                                                                  notified managemeni and plan additional contact lo
                                                                                                  ensure the matter is fully addressed.                      2/23/2007




59   I     SemiannualReporttoCongress
Representative, Wesl Virginia   Employee misconducf intenttonsy delay of mail.           We investigaled; found no basis for misconduct
                                                                                         allegation. We determined ttiallhe rool cause was a
                                                                                         local government address change process, coupled
                                                                                         wiSi mailers' use of outdated addresses,                  3/22/2007
Senator, Nevada                 Postai vehicle was driven recklessly; driver made        We invesiigated, Iound employee had already been
                                racial slur, vertjal threat and displayed prescription   lermlnated from Postal Service and conducted no
                                medication.                                              turtherwork.                                              1/19/2007
Representatve, Texas            Request ior inforotaikin on an active investigation      Our investigatirxi found more Sian 1500 pieces of
                                ol discarded or intentionally not delivered mail.        undelivered mail and ottier delivery problems. We
                                Complainants quesikined OIG conduct of the               shared findings wifli Postal management, who put
                                investigatkin.                                           several Letter Caniers on Emergency Placement,            1/29/2007
Representative, Texas           Employee mlsconduct/mail tampering involving             We reviewed employee misconduct allegation; did
                                notations or privale organization ballot envelopes.      nolflnd clear violation oi poslal or crimlnai laws or
                                                                                         regulations,                                              2/21/2007
Representative, Georgia         Intentional delay ol First-Class Mail,                   We investigated, found no evidence to subsianilaie,       2/23/2007

Representative. Louisiana       Letter Carrier cashed Social Security checks ol maii     We invesiigated, found employee did cash checks.
                                recipient on his route.                                  We reported our findings ND managemeni lor any
                                                                                         appropriate action,                                       ^/22/2007
Senator, New Vork               Statijs/Response regarding OIG investigatkjn and         We investigated and provided our findings io
                                removal from duty pending outcome.                       management,                                               3/26/2007




Audits
                                Allegatlon/Concem                                        Our Findings                                            Closure Date
Representative, Pennsylvania    Review recent changes In mail processing                 We conducted f ieldwork at the Southeastern and
                                operations in the Philadelphia Metiepolitan              Lehigh Valley PSDCs. part ol Uie Philadelphia
                                Performance Cluster ttiat have affected employees        Metropolitan Performance Cluster We examined
                                atttieSouttteastemPSOC.                                  changes in mail processing and their Impact on
                                                                                         mail handling requirements, employees, and costs.
                                                                                         We substantiated two concerns about processing
                                                                                         and partially substantiated one. Managemeni plans
                                                                                         to take corrective action.                                12/8/2006
2 Senators S1 Representative.   Requested OiG audit of the proposed Sioux City           Issues were addressed in /\udlt Report
Iowa                            consolidation.                                                                                                    11/13/2006

Representative, Calilornia      Delayed mall at ttie Los Angeles, Calilornia, P&DC.      Issues were addressed in Audit Report.                     3/1/2007

Senator Montana                 Review ol the leasibility study to evaluate the          The Westem /Vrea reviewed the Helena study and
                                movement ot a portion ol mail processing work            detemiined Hie study should be discontinued due to
                                from Helena to Great Falls.                              impacts lo service and minimal cost savings. Poslal
                                                                                         Service HeadquEulers reviewed ihal declskin and
                                                                                         has concurred,                                            1/22/2007
Representative, California      Beverly Hills, Calilornia, Post Office has failed to     DisU'ict-wide issues were addressed in receni
                                provide reasonable and timely postal services            audit report on delayed mail conditions in Souttiem
                                to residents and businesses, partly due lo an            Caliiornia, and managemeni has made some
                                ineffective management style.                            changes al Ihe Beverly Hills Slalion,                     3/16/2007




                                                                                                                                   Octoberl.2006—March31.2007   I   60J
         General Counsel
         Requestor                            Allegation/Concern                                   Our Findings                                           Closure Date

         Executive Oflice of ttie Presidenl   Harassment and retaliation by managemeni             OIG investigated,findingapn/na facie case of
                                              foilowing complainant's whistleblower                reprisal folKiwing a protei:ted communication
                                              communication about employment ol convicted          (whistleblowing).
                                              felons.                                                                                                      11/17^006
         Senatix, Texas                       Work-related illness due to exposure to dust and     We did not substantiate claim due ti) tack of
                                              chemicals used on mall processing equipmeni in a     infonnalkin, bul noted management efforts to
                                              Dallas iacility.                                     address the issues.                                      2/23/2007
         Governors                            Allegations of misconduct and possible               In the previous SARC period, we csmducted two
                                              whistleblower retaliation.                           Investigalions, finding a prima fec/ecase of
                                                                                                   Whistleblower reprisal.                                 10/10/2006
         Senator, Texas                       Managemeni imerierence wltti employee's selection    We conducted a review, but noted ttiat ttie employee
                                              toranew position.                                    was actively puraiing the complaint through the
                                                                                                   equal employment opportunity pnjcess.                    3/29/2007
         Senator, Texas                       Allegations of managerial hamssment and              Employee pursuing complaint through the equal
                                              discrimination at a Texas PSDC,                      employment opportunity process and the grievance
                                                                                                   attltration process.                                    11/24/2006



         Referrals
         Requestor                            Allegatlrm/Concem                                    Referred To                                            Closure Date
         Representatve, Florida               Some mail, including Standard Mail, is being         Inspecllon Service                                        3/1/2007
                                              diverted, stolen, or misappropnated,
         Representettve,Texas                 A private organization intends to conduct a raffle   Inspection Service                                       2/22/2007
                                              through Ihe mail.
         Senatiy, New Hampshire               Improper denial ol Equal Employment Opportijnity     Equal Employment Dpportuni^ Commission                    3/5/2007
                                              complaint.




61   I    Semiannual Reportto Congress
                                                                                    PPLEIVIENTAL INFORMATION

FREEDOM OF INFORMATION ACT
For ttte period oi October 1,200G — Match 31. 2007.

The Freedom of Information Act (FOIA) Office tor ihe Postai Service Office of Inspector General operates independently ot. but frequently
coordlnaies with, its counlerparts at the Posiai Service and the Inspecllon Service. The FOIA Ottice receives requests for records from the
public, the media, and Posiai Service employees. The Freedom ol Inlormation Act according to the Department ol Justice, "generally provides
that any person has a right, enforceable in court, to obtain access to federal agency records, excepi io the extent that such records (or portions
of them) are pfotected from public disclosure by wie of nine exempltons."


Activities

 Requests                                                                                                         Number ol Requests

 Carryover fram prior period                                                                                                         12

 Received during perrad                                                                                                            143

 Total on hand during the period                                                                                                   155



 OIG actkms                                                                                                       Number ol Requests

 Processed during the period                                                                                                       139

     Requests released in lull                                                                                                      11
     Requests partially granted                                                                                                     46
     Requests not granted                                                                                                           1.9
     Requests refened lo anolher agency

     No records                                                                                                                     IB
     Not proper FOIA requests

     Witttdram



 Balance                                                                                                          Number ol Requests

 Balance at the end of Bie penod (pending)                                                                                          16


 Processing Days                                                                                                      Number ol Days

 Median processing days to respond to a FOIA request                                                                                12




                                                                                                                             Ocloben,2006 —March31,2007   I   62
                         WORKPLACE ENVIRONMENT
                         For the period Ociobsr 1, 2006 - March 31, 2007

                         The OIG's Workplace Environment team receives referrals involving workplace environment and operational issues from multiple
                         sources, which Include the Hotline, Congress, Hie Board of Governors (BOGl. and management. Complaints reviewed by the leam
                         include sexual harassment discrimination; harassment and inttmidatton; nepotism; maildeliveiy and processing; and workplace
                         satety Issues, Workplace Environment closely coordinates efforts wiUi Postal Service management to ensure employees have a
                         stress- and adversity-free work environment lo Ihe exlent possible. The team continues to review internal complaints received from
                         OIG employees. This process provides OIG employees another avenue to report Uieir concerns, in addition to the equal employment
                         opportunity avenues.




                          Referrals                                                                                                                   Total
                          Carryover from prior period                                                                                                    36
                          Complaints received from OIG Hofline                                                                                          321
                          Congressional/BOG/Postal Sen/Ice management                                                                                     6
                          Intemal                                                                                                                        12
                          Olher                                                                                                                           3
                          Total on tiand durlrtg tills period                                                                                           378


                          Workplace Environment Actions                                                                                               Total

                          Complaints closed during ihe period                                                                                           350

                             Referred lo managemeni                                                                                                      57

                             Refened to OiG Ofiice ol Investigalrans                                                                                     21

                             Referred to OIG Oifice of Audit

                             Summary of findings reported to Congress/BOG/Poslal Service management                                                       %••




                             Conducted limited Inquiry Into allegattons/issues                                                                          182

                             Refened io database for statistical analysis and possible systemic reviews

                          Referrals pending at the end of the period                                                                                     28




63   I   SemiannualReporttoCongress
GLOSSARY
Advance tee scheme - Obtaining fees purporting to               False billings scheme - Mailing solicitations In the guise
secure buyers or obtain loans.                                  ot billings,
AMC - An Air Mail Center is a postal facility al an airport     FECA - Postal Service employees injured while performing
that receives, concentrates, transfers, dispatches, and         Uieir duties may be eligible for compensation under the
distributes mail iransporled by air.                            Federal Employee's Compensation Act (FECA|.
APC - Automated Postal Center, a kiosk that dispenses           FEHB - The Federal Employees Health Benefits (FEHB)
postage and provides several mailing services, APCs allow       program helps iederal employees, retirees, and their
customers to weigh, calculate, and apply exact postage,         survivors meet health care needs ihrough a wide selection
and ship Express Mail and Priority Mail items, packages,        of healUi plans across the country.
and First-Class lettere right ai the kiosks. They also          First-Class Mall - A class ol mail Uiat Includes all matter
provide easy access to posiai products and services.            wholly or partly In writing or typewriUng, all actual and
Bargaining unit employee - A Postal Setvice employee            personal correspondence, all bills and statements of
who is represented by a labor organization (union) that         account, and all matter sealed or olherwise closed against
negotiates with the Posiai Service for the wages, hours,        inspection. First-Class Mail comprises three subclasses:
and other terms and condriions of employment These              postcards, lettere and sealed parcels, and Priority Mail,
employees include Ciiy Carriers, Clerks, Mail Handlers,         Any mailable matter may be sent as First-Class Mall,
Rural Carriers, Speciai Delivery Messengers, Maintenance        Ftrst-Class Mail is a Postal Service irademarts,
Employees, and Motor Vehicle Operators.                         Flat-sizo mall - A mailpiece ihat exceeds one oi ttte
BMC - Bulk Mall Center, where packages and standard             dimensions lor leller-size mail (11-1/2 inches long, 6-1/3
mail are processed,                                             inches high. l/4 inch thick) bul Uiat does not exceed the
BMEU-See Business mail entry unit                               maximum dimension for the mail processing category (15
                                                                inches long, 12 Inches high, 3/4-inch thick). Dimensions
Bulk mail - Mall that is rated for postage partiy by weight     are different for automation rate flat-size mail eligibility.
and partiy by ttie number of pieces in the mailing. The         Flat-size mail may be unwrapped, sleeved, wrapped, or
term is generally used lo refer to Standard Mail (A).           enveloped.
Business Mail Entry Unit (BMEU) - The area of a postal          Fraud Internet schemes - Fraudulent schemes using the
facility where mailers present bulk, presorted, and permit
                                                                Inlernet wilh a connection lo the mail.
mail lor accepiance. The BMEU includes dedicated
platform space, oifice space, and a staging area on ihe         FY - Fiscal Vear,
workroom floor.                                                 Highway contract routes - A route served by a postal
Canier Sequence Barcode Sorter (CSBCS) - This is                contractorto carry mail hy highway between designated
a small, high-speed barcode sorter machine designed spe-        points.
cifically lor decentralized processing in associate offices.    lEMP - The Postal Service's Integrated Emergency
It has a throughput of about 19,000 pieces per workhour         Management Plan that improves coordination or planning
CPU - CPUs are contractor-owned and operaled facilities,        and response activities among functional areas in the
under contract to the Poslal Service lo provide selected        event ol an emergency.
postal services such as accepting mail and selling              IMPAC - The International Merchant Purchase Authoriza-
postage, supplies, and Postal Service money orders lo the       tion Cards (IMPAC) are how the Poslal Service acquires
public. CPUs are usually located in a slore or other place      goods and services through contracts.
ot business.                                                    Inspection Service - U S . Postel Inspection Service, a
Delivery Barcode Sorter (DBCS) - This is a multi-level,         law eniorcemeni arm ol the Postal Service that provides
high-speed barcode sorting machine located in mail              assurance to American businesses for ihe safe exchange
processing facilities, DBCS throughput is about 39,000          of lunds and securities Ihrough the U,S, Mail; to poslal
pieces per workhour,                                            Customers of the "sanctity ol the seal' in transmitting
END initiative - The Evolutionary Meiwork Development           correspondence and messages; and to postai employees
(END) initiative is the next step in the Postal Service's el-   Of a safe work environment
lorls to create a flexible logistics network to reduce costs.   Logistical support network - Activities or programs
Increase overall effectiveness, and improve consistency         ihat support the transporlaliDh ot mall, such as fuel
of service.                                                     procurement mail Iransporl equipment procurement and
Express Mail service - A mail class that provides               management, and vehicle management and maintenance.
expedlled delivery service (or mailable matter subject to       Lottery scheme - Advertisements seeking money or
certain standards. It is available in live basic domestic       property by mall for participaUon in schemes to win prizes
service offerings (Same Day Airpor! Service, Custom             through chance.
 Designed Service, Next Day Service, Second Day Service,        Merchandise failure to pay scheme - Mall order
and Military Service), Express Mail International Service       merchandise acquired without providing payment.
is available between ttie United States and most loreign
counhies. Express Mail is a Postal Service trademark.




                                                                                                                                OctobBr1,2006 —March31.20O7   I 64,
                                             Merchandise misrepresentation sclieme - Mall order                               Standard Mail - A class ol mail that includes advertise-
                                             merchandise or services ttiat are materially misrepre-                           ments, circulars, nevjsletters. magazines, small parcels,
                                             sented in advertising.                                                           and merchandise.


w
9
                                             OVUCP - Administered by the U.S. Department of tabor,
                                             the Office of Workers' Compensation Programs (OWCP)
                                             provides direct compensation to providere, claimants, and
                                                                                                                              Unsupported costs - Costs that are questioned because
                                                                                                                              ot inadequate supporting documentetion for the proposed/
                                                                                                                              claimed costs.
                                             beneficiaries,                                                                   Verification - Process to check a mailing presented by
                                             PAEA- The Postal Accountability and Enhancement Act                              a mailer to determine proper preparation and postage
                                             is ihe new postal iaw passed by Congress In December                             payment.
                                             2006.                                                                            Value proposition - Develops audit work ttiat maximizes
                                             PCIE / ECIE - The President's Council on integrily and                           benefils lo the Postal Service and assiste lop management
                                             Efficiency and Executive Council on Integrity snd Efliciency                     In reaching their goals.
                                             (PCIE-ECIE) address integrity, economy, and effectiveness                        Voyager Fleet Cards - These are credit cards used
                                             Issues that transcend individuai government agencies.                            by postal employees to acquire automotive goods and
                                             This organization also seeks to increase the professional-                       services, such as gasoline or repairs.
                                             ism and eflecliveness of IG personnel throughout the
                                             government.                                                                      Work at home scheme - Schemes, such as envelope
                                                                                                                              stuffing, that falsely purport lo provide home employmeni.
                                             Postal Regulatory Commission (PRC) - An independent
                                             federal agency that makes recommendalions on Poslal
                                             Service requests for changes in poslal rates and mail
                                             classifications. The five commissioners are nominated by
                                             the President and approved by the U.S. Senate.
                                             Pos^l Reorganliratlon Act - The statute thai requires
                                             postal rales and fees to "provide sutficlent revenues so
                                             that the total estimated income and appropriations...
                                             will equal as nearly as practicable total estimated costs."
                                             (Public Law 91-375, signed August 12,1970.)
                                             Priority Mail - Firsl-Class Mail ihai weighs more than
                                             13 ounces and, at the mailer's option, any other mail
                                             malter weighing 13 ounces or less. PriorityMail provides
                                             expedited delivery.
                                         Processing and Distribution Center/Facility (P&DC/F)
                                         - A central mall facility that processes and dispatches
                                         part or all ot both Incoming mall and outgoing mall tor a
                                         designated service area. It also provides instructions on
                                         the preparation ot coltecllon mail, dispatch schedules, and
                                         sorting plan requirements to mailers.
                                         Retail f a c i l i t y - A poslal unit oia Post Office and Its
                                         subordinate units as well as military Posl Offices that sell
                                         postage stamps and provide olher postal retail services to
                                         customers. The subordinate units ate witliin ihe service
                                         area of a main post office and include post office stations,
                                         posl office branches, contract postal units, and non
                                         personnel unils.
                                         SSPC - Sell-Service Postal Centere are unslaffed Postal
                                         Service vending machines that provide postage stamps
                                         and other retell products and services.




                                         The lullowing are ainoivi the rnaiiy li'ade'lidrks owned by ths United staler Postal Service: United SlQle3 l*ostQl Ser^ce®, u S. Poslal Service®. USPS®, Firsi
                                         Class Iilail®, USPS.com®, Click-U-Ship®, iutorpaled Posiai Ceoier®, APC®, Express Mall®, PriorityMail®, SlaralardMall®, Parcel Posl®, The Postal
                                         Store®. Media ^^i^ll®.CoslOln^zcd^(arkd^^arl®.UolleaSl.lles Postal Service Ottice olliiSMOor General®, P o s t O i r i M ' " , Postal S e r v t e ^ ^
                                         Contlroialion™, Cerlitied MaiP'', Oellvef y Coofirmatron"^, Registered M a i l ' " , Posl Oifice B o i ' " , ZIP Code'", Carrier Pickup'", and Posrmaslef General"".
                                         The Sonic Eagle Logo, and Iha Mail Truck Desigo are atso registered IrademarKs boloogiog lo Hia U.S. PoslaJ Service.




    65   I   Semiannual Report lo Congress
                                      OFFICE OF INSPECTOR GENERAL



                                                         Report
                                     Fraud, Theft, and
                                          Misconduct
                                in tlie Postal Service
                                                      CONTACT THE HOTUHE All

                               1.888.USPS.0IG
                                                            1.888.877.7644
                                                       Fax: 1.866.756.8741
I                                                     or www,uspsoig.gov
                                                           TTY (HEARING tH^PAlRED)
                                                                    1.866.0IG.TEXT
                                                                     1.866.644.8398


                      V.   ^




                                  .   \   :   .   •




                                                                          /   /
    INSPECTOR
     GENERAL




    I UNITEDSTATES
     POSTALSERVICE.
                                                     I
                                                     I
PROMOTING INTEGflirYANDACCOUNTABIUTY




                                                     1




U ^ POSTAL SERVICE O ^ I C E OF INSPECTOR Q»JERAL
1735 N. Lynn Street Artington. VA 222(»-2020
703.248^100 Fax: 703.24&2291 lntemetwww.inpMig.gov
